<html>
<title> - THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION'S FISCAL YEAR 2009 BUDGET PROPOSAL AND GAO'S REPORT ON THE AVIATION WEATHER SERVICE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                  THE NATIONAL OCEANIC AND ATMOSPHERIC
                   ADMINISTRATION'S FISCAL YEAR 2009
                  BUDGET PROPOSAL AND GAO'S REPORT ON
                      THE AVIATION WEATHER SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2008

                               __________

                           Serial No. 110-78

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov



                     U.S. GOVERNMENT PRINTING OFFICE
40-818 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           TOM FEENEY, Florida
LAURA RICHARDSON, California         RANDY NEUGEBAUER, Texas
PAUL KANJORSKI, Pennsylvania         BOB INGLIS, South Carolina
DARLENE HOOLEY, Oregon               DAVID G. REICHERT, Washington
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. MCCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
BEN CHANDLER, Kentucky               BRIAN P. BILBRAY, California
RUSS CARNAHAN, Missouri              ADRIAN SMITH, Nebraska
CHARLIE MELANCON, Louisiana          PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               VACANCY
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. NICK LAMPSON, Texas, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
LYNN C. WOOLSEY, California          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
MARK UDALL, Colorado                 MICHAEL T. MCCAUL, Texas
BRIAN BAIRD, Washington              MARIO DIAZ-BALART, Florida
PAUL KANJORSKI, Pennsylvania             
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            CHRIS KING Democratic Professional Staff Member
        MICHELLE DALLAFIOR Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
           ELAINE PHELEN Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
          ELIZABETH STACK Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                    STACEY STEEP Research Assistant


                            C O N T E N T S

                           February 26, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Nick Lampson, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     9
    Written Statement............................................    10

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    11
    Written Statement............................................    12

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    12

Prepared Statement by Representative David Wu, Chairman, 
  Subcommittee on Technology and Innovation, Committee on Science 
  and Technology, U.S. House of Representatives..................    13

                                Panel I:

Vice Admiral Conrad C. Lautenbacher, Jr., Under Secretary of 
  Commerce for Oceans and Atmosphere; NOAA Administrator, 
  National Oceanic and Atmospheric Administration, U.S. 
  Department of Commerce
    Oral Statement...............................................    14
    Written Statement............................................    15
    Biography....................................................    21

Discussion
  GOES-R Budget Estimate.........................................    22
  The VIIRS Instrument...........................................    23
  Funds for the Hurricane Supplemental Buoys.....................    24
  The Tsunami Warning System.....................................    25
  Coral Reef Watch Program.......................................    25
  Tsunami Education and Mitigation Funding.......................    25
  Disaster Relief for Fisheries..................................    28
  Ocean Surface Winds Vector and QuikSCAT........................    29
  Rule Changes for Red Snapper Fisheries.........................    30
  NPOESS Funding.................................................    30
  Fixing Fiscal Year 2008 Budget Allocations.....................    36

                               Panel II:

Mr. David A. Powner, Director, Information Technology Management 
  Issues, U.S. Government Accountability Office (GAO)
    Oral Statement...............................................    37
    Written Statement............................................    38
    Biography....................................................    49

Dr. John L. Hayes, Assistant Administrator for Weather Services; 
  Director, National Weather Service, National Oceanic and 
  Atmospheric Administration, U.S. Department of Commerce
    Oral Statement...............................................    49
    Written Statement............................................    51
    Biography....................................................    54

Mr. Eugene D. Juba, Senior Vice President for Finance Services, 
  Air Traffic Organization, Federal Aviation Administration
    Oral Statement...............................................    55
    Written Statement............................................    56
    Biography....................................................    58

Discussion
  Relationship Between FAA and NWS...............................    58
  Evaluating the Performance of CWSUs............................    59
  Responding to New FAA Requirements.............................    59
  Ensuring Consistency of Weather Products and Services..........    60
  NWS Communication With the FAA.................................    61
  FAA Weather Contracting........................................    61
  More on CWSU Support...........................................    63
  Evaluating NWS Proposals.......................................    63
  NWS and FAA Working Cooperatively..............................    64

              Appendix: Answers to Post-Hearing Questions

Vice Admiral Conrad C. Lautenbacher, Jr., Under Secretary of 
  Commerce for Oceans and Atmosphere; NOAA Administrator, 
  National Oceanic and Atmospheric Administration, U.S. 
  Department of Commerce.........................................    68


THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION'S FISCAL YEAR 2009 
    BUDGET PROPOSAL AND GAO'S REPORT ON THE AVIATION WEATHER SERVICE

                              ----------                              


                       TUESDAY, FEBRUARY 26, 2008

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 1:15 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Nick 
Lampson [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                  The National Oceanic and Atmospheric

                   Administration's Fiscal Year 2009

                  Budget Proposal and GAO's Report on

                      the Aviation Weather Service

                       tueday, february 26, 2008
                          1:00 p.m.-3:00 p.m.
                   2318 rayburn house office building

Purpose

    On Tuesday, February 26, 2008 at 1:00 p.m. the House Committee on 
Science and Technology's Subcommittee on Energy and Environment will 
hold a hearing to examine the National Oceanic and Atmospheric 
Administration (NOAA) Fiscal Year 2009 (FY09) budget proposal and the 
Government Accountability Office (GAO) report on Aviation Weather 
Services.

Witnesses

Panel I: NOAA FY09 Budget Proposal

Vice Admiral Conrad Lautenbacher, Jr., Under Secretary of Commerce for 
Oceans and Atmosphere and Administrator, National Oceanic and 
Atmospheric Administration

Panel II: GAO's Report on Aviation Weather Service

Mr. John L. (Jack) Hayes, Assistant Administrator for National Weather 
Service, National Oceanic and Atmospheric Administration

Mr. Eugene D. Juba, Senior Vice President for Finance, Air Traffic 
Organization, Federal Aviation Administration

Mr. David Powner, Director, Information Technology Management Issues, 
Government Accountability Office

Background

    The President's FY 2009 budget request for the National Oceanic and 
Atmospheric Administration (NOAA) is $4.2 billion, 4.8 percent above 
the FY 2008 enacted funding.
    NOAA's mission includes weather forecasting, climate prediction, 
management of fisheries and coastal and ocean resources. In addition, 
NOAA is responsible for mapping and charting our coastal areas and 
providing other navigation support services through programs of the 
National Ocean Service (NOS). NOAA conducts research in support of 
these missions including atmospheric sciences, coastal and oceanic 
science, climate and air quality research, ecosystem research, and 
fisheries and marine mammal research. NOAA also operates a 
constellation of satellites that monitor and transmit data for weather 
forecasting, climate prediction, space weather forecasting, and Earth 
and ocean science research through the National Environmental Satellite 
Data and Information Service (NESDIS). NESDIS also analyzes, processes, 
and distributes weather and climate data to government and non-
government organizations and archives these data for future use.
    The table below shows the six primary accounts of the agency's 
budget. The line offices receiving increases in the FY 2009 request are 
the National Weather Service (NWS), the National Environmental 
Satellite, Data, and Information Service (NESDIS), and Program Support. 
The Administration's budget proposal decreases funding for the Office 
of Oceanic and Atmospheric Research (OAR), the National Marine 
Fisheries Service (NMFS), and the National Ocean Service (NOS).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


National Weather Service:
    The National Weather Service (NWS) provides weather, hydrologic, 
and climate forecasts and warnings for the United States, adjacent 
waters, and ocean areas for the protection of life and property. NWS 
provides a national infrastructure to gather and process data worldwide 
from the land, sea, and air.
    The NWS request is a two percent net increase ($19 million) over 
the FY 2008 enacted budget. The Administration is requesting $13.5 
million for the Operations, Research and Facilities (ORF) accounts and 
$5.7 million for the Procurement, Acquisitions and Construction (PAC) 
accounts above the enacted FY 2008 budget. While the Administration is 
requesting an overall increase for NWS, there are a number of 
reductions for specific line items in both the ORF and PAC accounts. 
The major proposed increases and decreases in these accounts are 
discussed below.
    The Administration has requested increases of $33.9 million in the 
ORF accounts. The majority of the increase ($22.9 million) is within 
the Local Warning and Forecasts and includes $3 million for operations 
and maintenance of the 15 hurricane detection buoys that were acquired 
and deployed in FY 2005 and FY 2006; $2.9 million to upgrade NOAA 
weather radio; $6.6 to upgrade the Advanced Weather Information 
Processing System; and $4.8 million to convert the data transmission 
frequency for additional stations in the wind profiler network. The 
Administration is also requesting an additional $4.3 million to improve 
hurricane forecast modeling.
    The Advanced Weather Interactive Processing System (AWIPS) is the 
specialized software package deployed in each of the local forecasting 
offices that enables forecasters to prepare accurate, timely forecasts 
and warnings. There has been a demand for increase lead time and more 
precision in weather, flood, and hurricane forecasts.
    The Wind Profiler data improves accuracy and lead times for 
tornado, severe thunderstorm, flash flood, and winter storm warnings. 
The increase will also provide technology upgrades to the twenty-year-
old equipment and assist NOAA in completing the transition of this 
network to a fully operational system.
    The requested increases in the NWS ORF accounts are partially 
offset by decreases in funding. There are seventeen projects proposed 
for elimination ($20.4 million in FY 2008 funding). These projects are 
designated by Congress for funding and are routinely eliminated by the 
Administration as ``Congressional earmarks.'' A number of these 
programs have been funded for many years and support on-going 
forecasting services (e.g., Susquehanna River Basin Flood System). One 
of the projects eliminated is the U.S. Weather Research Program's 
Hemispheric Observing System Research and Predictability Experiment 
(THORpex), a multi-year international field experiment to improve two 
to ten-day forecasts being done in cooperation with international 
partners and numerous U.S.-based research organizations ($5.8 million).
    The requested increase is not sufficient to cover all current 
forecast and warning activities provided by NOAA in addition to the 
requested upgrades and operational and maintenance requirements for 
current weather forecasting equipment. The Agency must also comply with 
the requirements of mandatory pay raises for federal employees. When 
additional funds are not provided to cover these costs, the funding 
must come at the expense of program funding or through deferred 
maintenance. This is especially important for the NWS whose forecast 
and warning operations require a high level of staffing through the 
network of offices throughout the country. The level of funding 
requested will not enable NWS to move new monitoring and forecasting 
equipment from research to fully operational mode.

National Environmental Satellite Data and Information Service (NESDIS):
    The President's budget requests a net increase for the National 
Environmental Satellite Data and Information Service (NESDIS) budget of 
$203 million (21 percent). The Administration's budget request for the 
NESDIS ORF account is $13.9 million less than the FY 2008 enacted 
budget. The Administration requests an increase of $216.7 over the FY08 
enacted budget for the PAC account.
    The ORF account for NESDIS contains the programmatic funding for 
management, processing, analyzing, and archiving the data received from 
all of NOAA's weather monitoring equipment--both ground-based and 
space-based. This program account includes funds for data processing 
and analyses at data centers located in Kentucky, North Carolina, 
Maryland, and West Virginia. The FY 2009 request reduces funding for 
the four data centers by approximately 81 percent below the FY 2008 
enacted funding. This account also supports a number of regional 
climate centers and centers that provide data and information services. 
The Administration's budget proposes to reduce these accounts by $23.8 
million below the FY 2008 enacted budget.
    The Administration requests some increases to the ORF accounts for 
Satellite Observing Systems ($9.7 million). The requested increases 
would support the routine replacement and upgrading of ground based 
equipment and software and to maintain the continuity of data on sea 
ice used to forecast sea ice changes to support navigation. The largest 
single requested increase within this ORF account is $3 million for 
ocean vector wind studies. This funding would provide information to 
support the development of a replacement for the data provided by the 
QuikSCAT satellite used in hurricane forecasting.
    The budget for NESDIS is dominated by the PAC account that provides 
funds for the acquisition of NOAA's weather satellite systems. NOAA 
operates two satellite systems that collect data for weather 
forecasting. The Polar-Orbiting Environmental Satellites (POES) orbit 
the Earth and provide information for medium to long-range weather 
forecasts. The geostationary satellites (GOES) gather data above a 
fixed position on the Earth's surface and provide information for 
short-range warnings and current weather conditions. Both of these 
satellite systems are developing a new series and the first of the new 
satellites must be launched around 2014 to maintain the continuity of 
weather forecasting data. Increases and decreases in the PAC account 
reflect the different phases of the design, build and launch of the 
satellites.
    There is a planned decrease of $49 million below the FY 2008 
enacted budget for the last of the current series of polar satellites, 
NOAA N-Prime, which is scheduled for launch in February 2009. There is 
also a planned decrease for the National Polar-Orbiting Operational 
Satellite System (NPOESS), reflecting the post-Nunn-McCurdy funding 
profile for the NPOESS program. The Administration is requesting $288 
million for NPOESS in FY 2009 ($43.3 million less than FY 2008 
funding). The funds are to contribute to the tri-agency NPOESS program 
and be used to continue the development of the NPOESS sensors for the 
NPP project (NPOESS Preparatory Project) and for the first NPOESS 
satellite scheduled for launch in 2013.
    The budget request for the current series of Geostationary 
Operational Environmental Satellites (GOES-N, -O and -P) reflects a $7 
million decrease because GOES-O and GOES-P are in the final stages of 
development. GOES-N was launched last May. GOES-O is scheduled for 
launch later this year. The last satellite of this current series, 
GOES-P is in storage.
    The FY 2009 request of $477 million, a $242 million increase for 
the new geostationary satellite series (GOES-R) to support the 
continued development and procurement of this new series. The GOES-R 
satellite series was originally scheduled for launch in 2014. However, 
the reduction in funds included in the FY 2008 enacted budget has 
created a likely delay in the launch date to 2015. In 2006, the 
estimate for the new GOES series of satellites--GOES-R--was projected 
to be $5 billion higher than the original estimate. NOAA has 
restructured the program to achieve cost reductions and has obtained 
independent cost estimates for the program. The Administration now 
estimates the cost of the new GOES series at $7.62 billion over a 
twenty-year period (through 2028). The cost savings are achieved by 
reducing the number of satellites in the series (from four to two) as 
well as reducing the capabilities of the satellites.
    In addition to the procurements of these two satellite systems, the 
Administration is requesting an increase of $74 million to restore high 
priority climate sensors that were de-manifested from the NPOESS 
program in 2006 as a result of the Nunn-McCurdy mandated restructuring 
of the program. These funds would support initial work on two sensors, 
the Clouds and the Earth's Radiant Energy System (CERES) sensor and the 
Total Solar Irradiance Sensor (TSIS).

Oceanic and Atmospheric Research:
    The Office of Oceanic and Atmospheric Research (OAR) is the primary 
research arm of NOAA that provides the scientific information and tools 
needed for better understanding of the oceans and atmosphere. OAR 
conducts the scientific research, environmental studies, and technology 
development needed to improve NOAA's operations. OAR consists of seven 
internal research laboratories and manages extramural research at 30 
National Sea Grant colleges and universities. Therefore, OAR contains 
over half of the research programs at NOAA. The Administration proposes 
to reduce funding for OAR programs by nearly $16 million below the FY08 
enacted funding levels, approximately a four percent reduction.
    The OAR ORF accounts would be reduced by $15.7 million under the 
Administration's proposal with the majority of the reductions coming 
from programs in the Ocean, Coastal, and Great Lakes Research account 
($24.2 million). The proposed funding in FY 2009 for these programs is 
reduced from $130 million to $106 million, an 18 percent decrease for 
these programs. Sea Grant receives a cut of $2 million. The 
Administration's request includes an $8 million increase for Ocean 
Exploration and Research. However, the Administration proposed last 
year to merge the National Undersea Research Program (NURP) with the 
Ocean Exploration Program and this is again reflected in the budget. 
Therefore, the $8 million increase is not an overall increase for Ocean 
Exploration Programs, but reflects the transfer of funds for NURP 
activities to this line of the budget. The FY 2008 enacted budget for 
these two programs included $19.5 million for Ocean Exploration and 
$14.7 million for NURP for a total of $34.2 million. The FY 2009 
proposed funding for these two programs is $6.4 million below the FY 
2008 enacted funding level. The Administration's proposal also 
eliminates $6.9 million in funding from the Aquatic Invasive Species 
program and the Marine Aquaculture Program ($3.6 million and $3.2 
million, respectively). Another $6.6 million dollars is also proposed 
for elimination from ten of the Partnership programs in this account.
    Weather and Air Quality research accounts receive a net increase in 
the FY 2009 request ($5.5 million dollars) in comparison to the FY 2008 
enacted levels. This includes the Laboratories and Joint Institutes 
that would receive an increase ($3 million) above FY 2008 enacted 
levels and an increase for the U.S. Weather Research program of $5.5 
million. These increases are offset by a cut of $3 million for seven 
Partnership Programs funded in the FY 2008 budget by Congress.
    The Climate Research programs receive a proposed net increase of 
$2.7 million. The Administration proposes increases of $4.6 million 
increase for competitive research programs including the National 
Integrated Drought Information (NIDIS) and an increase of $8.3 million 
for Climate Data and Information programs. These proposed increases are 
offset by reductions in the Climate Observations and Services programs 
($8.1 million) and the elimination of two Partnership programs--the 
Abrupt Climate Change Research Program and a Drought Research Study 
($1.1 million) and a decrease in the climate research conducted by 
Laboratory and Joint Institutions ($1.9 million).
    The OAR budget also contains funding for the High-Performance 
Computing and Communication (HPCC) program. NOAA relies upon 
sophisticated computer models to make major improvements in NOAA's 
ability to forecast the weather and climate and to model ecosystems and 
ocean processes. The FY 2009 budget request proposes $13 million, about 
a $369,000 increase for this program.

National Ocean Service:
    The National Ocean Service (NOS) protects the National Marine 
Sanctuaries and is an advocate for coastal and ocean stewardship. It 
also introduced electronic nautical charts which they combine with 
Global Positioning Systems (GPS) to enhance the safety and efficiency 
of navigation of U.S. waterways. The President's FY 2009 request for 
NOS would reduce funding for NOS programs by nine percent or $48 
million as compared to the FY 2008 enacted budget.
    The NOS ORF account is reduced by $18.7 million. Navigation 
Services has a proposed increase of $7.5 million. The Ocean Resources, 
Conservation and Assessment account has a proposed net reduction as 
compared to the FY 2008 enacted budget of $25.7 million. This includes 
a $19.9 million reduction in the Ocean Assessment Program (OAP), $2.8 
million decrease in Response and Restoration, and $2.9 million 
reduction in the National Centers for Coastal Ocean Science (NCCOS). 
The Ocean Assessment Program includes funding for the Integrated Ocean 
Observing System (IOOS) was $26.4 million. The FY 2009 request would 
reduce funding for IOOS by $5.3 million to $21 million. The FY 2008 
enacted budget for the Ocean and Coastal Zone Management accounts would 
receive a slight reduction (approximately $469,000). The NOS-PAC 
accounts are also reduced, by $29.2 million. This includes cuts in both 
the Marine Sanctuaries Construction ($8.3 million) and four 
congressionally mandated construction acquisition projects (a total of 
$23.3 million).

Program Support:
    The Program Support account funds corporate services and agency 
management. This includes the Under Secretary's office, the office of 
the Chief Financial Officer, and the Program, Planning and Integration 
Office. Overall, the Administration requests an increase in the Program 
Support account of $73.4 million (a 16 percent increase) as compared to 
the FY 2008 enacted funding level. Most of this increase is due to 
continued construction of facilities under the PAC accounts ($63.8 
million), in particular the Pacific Regional Center in Honolulu ($40.3 
million).
    The Program Support account also includes the NOAA Education 
Program. The proposed funding for NOAA education programs is again 
reduced significantly below its current funding level of $34 million 
for FY 2008 to a proposed funding level of $17 million for FY 2009. The 
Administration proposes to eliminate completely eleven education 
programs including the JASON education and outreach program. The 
Administration has proposed significant reductions for Competitive 
Education Grants; an 80 percent reduction below the FY 2008 enacted 
funding level.

GAO's Report on Aviation Weather Service

    The National Weather Service (NWS) weather products are a vital 
component of the Federal Aviation Administration's (FAA) air traffic 
control system. NWS provides aviation weather products and services to 
FAA through the Aviation Weather Center and the weather forecast 
offices across the country. The Aviation Weather Center is located in 
Kansas City, Missouri and is staffed by 65 personnel. There are 122 
weather forecast offices, which issue terminal area forecasts for 
approximately 625 locations every six hours and in real time as 
conditions change.
    In addition, NWS provides direct contact with FAA staff through 
individual center weather service units (CWSUs). Under an interagency 
agreement, NWS provides CWSU meteorologists at each of the FAA's 21 en 
route centers in addition to providing products and services developed 
at the other NWS facilities. FAA's en route centers control air traffic 
over the national air space as planes are in transit and on the 
approach to some airports. The CWSU meteorologists provide air traffic 
managers with forecast and weather briefings on regional conditions 
including icing, turbulence, visibility, and freezing precipitation. 
Under the current terms of this interagency agreement, FAA reimburses 
NWS $12 million annually for CWSU support.
    NWS's meteorologists utilize various systems to collect and analyze 
data compiled from both the NWS and FAA weather sensors. Key systems 
used are FAA's Weather and Radar Processor, FAA's Integrated Terminal 
Weather System, and a remote display of NWS's Advanced Weather 
Interactive Processing System (AWIPS). Also, the NWS meteorologists 
provide key services such as meteorological impact statements, center 
weather advisories, periodic briefings, weather information 
interpretations, and on-demand consultations.
    A few years ago, FAA began to explore options to reduce costs 
associated with the aviation weather services provided by NWS at its en 
route centers. In 2005, FAA requested that NWS restructure its aviation 
weather services to consolidate offices, provide remote services, and 
reduce the annual cost of providing services by $2 million. In 
response, NWS offered FAA a proposal to supply aviation weather 
services through the local forecast office closest to the en route 
centers. This proposal removed CWSU meteorologists from the en route 
centers and achieved the cost savings requested by FAA. FAA did not 
accept the proposal and instead initiated a review to more clearly 
define its requirements for weather forecasting at the en route 
centers.
    In October 2006, FAA also explored the possibility of acquiring 
aviation weather services from an organization other than NWS. FAA 
developed and released a market survey to solicit initial information 
from the private sector and other government organizations to determine 
if they could provide remote weather services at a lower cost than NWS. 
Ten organizations, including private sector firms and government-funded 
laboratories, responded that they could provide the services that FAA 
wanted and at a reduced cost.
    One year ago, five Members of the Committee on Science and 
Technology asked the Government Accountability Office (GAO) to evaluate 
the efforts of FAA and NWS to restructure aviation weather technologies 
and services. The Committee wished to ensure that restructure of these 
services would not result in any degradation of services provided to 
guide air traffic management. Problems associated with weather 
conditions contribute to significant delay of air traffic. Also, 
accurate forecasting of weather conditions is essential to maintaining 
safety of aircraft.
    The GAO completed its review in December and will report on its 
findings. Shortly after GAO completed its review, FAA released two 
documents: a Center Weather Service Unit Quality Assurance Surveillance 
Plan and a Requirements Document. FAA provided these documents to NWS 
on December 19 and asked NWS to provide their response to the documents 
within 120 days. The Director of NWS, Dr. Jack Hayes, and the Senior 
Vice President for Finance, Air Traffic Organization of the FAA will 
provide their responses to GAO's recommendations and an update on the 
current status of their joint efforts to restructure aviation weather 
services.
    Chairman Lampson. This hearing will come to order. 
Everyone, good afternoon, and I want to welcome everyone to 
today's Subcommittee hearing on the National Oceanic and 
Atmospheric Administration, or NOAA, fiscal year 2009 budget 
request, and GAO's report on aviation weather services.
    NOAA is an important agency that provides our citizen with 
warnings of severe weather, guides the management of our ocean 
and coastal resources, and conducts research to improve our 
understanding of the environment. NOAA is a diverse agency with 
many important missions and responsibilities. However, issuing 
watches and warnings for severe storms may be the role for 
which NOAA is the most famous.
    I know that in Texas we appreciate their services because 
we experience severe storms every year in the form of tornadoes 
and hurricanes. The watches, warnings, and forecasts issued by 
the National Hurricane Center and the local forecasting offices 
of the National Weather Service contain vital public safety 
information. The partnership between the National Weather 
Service, the media, and the emergency management community is 
essential to protect lives and property damage associated with 
these storms.
    Accurate predication of hurricanes and other severe storms 
and sound management of ocean and coastal resources can only be 
achieved in sound investments in the personnel, equipment, and 
research at NOAA.
    There are some encouraging features of the fiscal year 2008 
budget request for NOAA. For the first time in years, the 
President has requested an increase for this agency over the 
current year's funding level. This is certainly a step in the 
right direction. We are pleased to see additional funds 
requested to restore some climate sensors and to upgrade a 
variety of models, technology and software systems. However, I 
believe the Administration's budget proposal still lacks the 
level of funding needed for his agency to truly fulfill all of 
its diverse missions.
    If NOAA is to continue to provide the array of services we 
need, if it is to advance its capabilities to forecast the 
weather and our understanding of the oceans and the atmosphere, 
if we are to restore our fisheries and coastal ecosystems to a 
productive and healthy state, we must invest additional funds 
in this agency. The Committee will continue to follow closely 
the procurements for the new polar and geostationary weather 
satellite systems. It is essential that we have these new 
systems completed and delivered in time to avoid any gaps in 
coverage of weather data. With respect to the new geostationary 
satellite program, GOES-R, I believe the Agency has acted upon 
the recommendations of the GAO and the experience of the NPOESS 
program in a manner that is moving this procurement in the 
right direction. I remain concerned about the status of the 
NPOESS program, a key instrument, VIIRS, is still not 
completed, and the schedule for launching the preparatory 
mission is, once again, delayed.
    Costs for new satellite systems have grown well beyond any 
recognized figure for inflation. We are going to have to 
address this for the long-term. We have become more dependent 
upon satellite information for our forecasting, observing, and 
understanding climate and weather phenomena.
    The needs are growing, but the budgets are not expanding to 
provide the additional funds necessary to accommodate these 
needs. For example, we still don't have plans or budgets in 
place to accommodate the need for a follow-on operational 
instrument to replace NASA's QuikSCAT satellite, or for the 
full suite of climate instruments that were eliminated from the 
NPOESS program.
    During the second part of today's hearing, GAO will report 
its findings on the current effort by FAA and NWS to 
restructure aviation weather-forecasting services. One year 
ago, five other Members of the Committee joined me in a request 
to GAO to review this effort. As we all know, and have 
personally experienced while traveling by plane, flight delays 
and cancellations due to inclement weather are an all too 
common occurrence, and there is more than convenience at stake 
here. There is a question of safety.
    Severe storms or rapidly changing conditions can create 
serious risks for aircraft. It was a tragic, fatal crash in 
1977 that led to the formation of the Center Weather Forecast 
Units that we still have today. FAA and NWS should be working 
together, cooperatively, to ensure the smooth, safe flow of air 
traffic in our nation. We want to ensure that as these agencies 
evaluate the aviation weather-forecasting program, they keep 
these essential goals in mind.
    Any restructuring of aviation weather-forecasting services 
must be done in a manner that will ensure, at a minimum, that 
there is no degradation in these services going forward. There 
are no cost savings or efficiencies to be found by reducing the 
safety of air travel for the public.
    I look forward to hearing all of the testimony this 
afternoon, and as we discussed, the Administration's budget 
proposal and the aviation weather services, provided by NOAA 
and FAA.
    And at this time, I would like to recognize our 
distinguishing Ranking Member Inglis of South Carolina, for his 
opening statement.
    [The prepared statement of Chairman Lampson follows:]

              Prepared Statement of Chairman Nick Lampson

    Good Afternoon. I want to welcome everyone to today's Subcommittee 
hearing on the National Oceanic and Atmospheric Administration (NOAA) 
FY 2009 Budget Request and GAO's Report on Aviation Weather Services.
    NOAA is an important agency that provides our citizens with 
warnings of severe weather; guides the management of our ocean and 
coastal resources; and conducts research to improve our understanding 
of the environment.
    NOAA is a diverse agency with many important missions and 
responsibilities. However, issuing watches and warnings of severe 
storms may be the role for which NOAA is the most famous.
    I know in Texas we appreciate their services because we experience 
severe storms every year in the form of tornadoes and hurricanes.
    The watches, warnings, and forecasts issued by the National 
Hurricane Center and the local forecasting offices of the National 
Weather Service contain vital public safety information.
    The partnership between the National Weather Service, the media and 
the local emergency management community is essential to protect lives 
and property damage associated with these storms.
    Accurate prediction of hurricanes and other severe storms and sound 
management of our ocean and coastal resources can only be achieved 
through sound investments in the personnel, equipment, and research at 
NOAA.
    There are some encouraging features of the FY 2009 budget request 
for NOAA. For the first time in years, the President has requested an 
increase for this agency over the current year's funding level. This is 
certainly a step in the right direction.
    We are pleased to see additional funds requested to restore some 
climate sensors and to upgrade a variety of models, technology and 
software systems. However, I believe the Administration's budget 
proposal still lacks the level of funding needed for this agency to 
truly fulfill all of its diverse missions.
    If NOAA is to continue to provide the array of services we need, if 
it is to advance its capabilities to forecast the weather and our 
understanding of the oceans and the atmosphere, if we are to restore 
our fisheries and coastal ecosystems to a productive and healthy state, 
we must invest additional funds in this agency.
    The Committee will continue to follow closely the procurements for 
the new polar and geostationary weather satellite systems. It is 
essential that we have these new systems completed and delivered in 
time to avoid any gaps in coverage of weather data.
    With respect to the new geostationary satellite program--GOES-R--I 
believe the Agency has acted upon the recommendations of the GAO and 
the experience of the NPOESS program in a manner that is moving this 
procurement in the right direction.
    I remain concerned about the status of the NPOESS program. A key 
instrument--VIIRS (VEERS)--is still not completed and the schedule for 
launching the preparatory mission is once again delayed.
    Costs for new satellite systems have grown well beyond any 
recognized figure for inflation. We are going to have to address this 
for the long-term. We have become more dependent upon satellite 
information for forecasting, observing and understanding climate and 
weather phenomena.
    The needs are growing, but the budgets are not expanding to provide 
the additional funds necessary to accommodate these needs.
    For example, we still do not have plans or budgets in place to 
accommodate the need for a follow-on operational instrument to replace 
NASA's QuikSCAT satellite or for the full suite of climate instruments 
that were eliminated from the NPOESS program.
    During the second part of today's hearing, GAO will report its 
findings on the current effort by FAA and NWS to restructure aviation 
weather forecasting services.
    One year ago, five other Members of the Committee joined me in a 
request to GAO to review this effort.
    As we all know and have personally experienced when traveling by 
plane, flight delays and cancellations due to inclement weather are an 
all-too-common occurrence. But there is more than convenience at stake 
here. There is also a question of safety.
    Severe storms or rapidly changing conditions can create serious 
risks for aircraft. It was a tragic, fatal crash in 1977 that led to 
the formation of the Center Weather Forecast Units we still have today.
    FAA and NWS should be working together cooperatively to ensure the 
smooth, safe flow of air traffic in our nation. We want to ensure that 
as these agencies evaluate the aviation weather forecasting program, 
they keep these essential goals in mind.
    Any restructuring of aviation weather forecasting services must be 
done in a manner that will ensure at a minimum there is no degradation 
in these services going forward. There are no cost savings or 
efficiencies to be found by reducing the safety of air travel for the 
public.
    I look forward to hearing all of the testimony this afternoon, as 
we discuss the Administration's budget proposal and the Aviation 
Weather Services provided by NOAA and FAA.
    At this time, I would like to recognize our distinguished Ranking 
Member, Mr. Inglis of South Carolina, for his opening statement.

    Mr. Inglis. Thank you, Mr. Chairman. Thank you for holding 
this hearing on the President's fiscal year 2009 request for 
NOAA.
    The accomplishments that you highlighted in your testimony 
are proof that the money Congress spends on science is money 
well spent, and often, its effects go far beyond the 
laboratory. You won't often hear a conservative happy about 
spending more money, but it is good to see that the NOAA 2009 
budget proposal is just as aggressive, if not more so, than 
last year, and rightfully so. We need to continue to make sure 
that NOAA has the resources necessary to continue providing the 
best services possible in hurricane forecasting, climate 
modeling, coastal research, critical satellite technology, and 
many other areas that benefit our country and the world.
    I also look forward to hearing from our second panel of 
witnesses from GAO, the National Weather Service and the 
Federal Aviation Administration. I was an original requester on 
the GAO report on aviation weather because I am concerned about 
the ongoing issues between these two agencies.
    Weather has a significant impact, as the Chairman was 
saying, on our flying public, and there have been numerous 
studies that document the cost of weather delays to the airline 
industry and to the economy at large. GAO report and 
Administrator Hayes' testimony offer an encouraging sign that 
progress is already underway in achieving agreement between the 
FAA and the National Weather Service on much needed performance 
issues.
    In the case of Dr. Hayes, I am especially interested to 
know whether or not the National Weather Service is prepared to 
meet the Federal Aviation Administration's recently imposed 
requirements by the May 2008 deadline, or if more time is 
necessary.
    I thank the witnesses for being here today, and I look 
forward to hearing their testimony, and I yield back the 
balance of my time, Mr. Chairman.
    [The prepared statement of Mr. Inglis follows:]

            Prepared Statement of Representative Bob Inglis

    Good afternoon. Thank you, Chairman Lampson, for holding this 
hearing about the President's Fiscal Year 2009 request for the National 
Oceanic and Atmospheric Administration.
    The accomplishments that you highlighted in your testimony, Admiral 
Lautenbacher, are proof that the money Congress spends on science is 
money well spent, and often its effects goes far beyond the laboratory. 
You won't often hear a conservative happy about spending more money, 
but it's good see that the NOAA FY 2009 budget proposal is just as 
aggressive, if not more so, than last year, and rightfully so. We need 
to continue to make sure that NOAA has the resources necessary to 
continue providing the best services possible in hurricane forecasting, 
climate modeling, coastal research, critical satellite technology, and 
many other areas that benefit our country and the world.
    I also look forward to hearing from our second panel witnesses from 
GAO, the National Weather Service (NWS) and the Federal Aviation 
Administration (FAA). I was an original requester on the GAO report on 
Aviation Weather, because I am concerned about the on-going issues 
between these two agencies.
    Weather has a significant impact on the National Aviation System 
and there have been numerous studies that document the cost of weather 
delays to the airline industry and to the economy at large. The GAO 
report and Assistant Administrator Hayes' testimony offer encouraging 
signs that progress is already underway in achieving agreement between 
the FAA and NWS on much-needed performance measures. Mr. Hayes, I'm 
especially interested to know whether or not the NWS is prepared to 
meet the Federal Aviation Administration's recently proposed 
requirements by the May 2008 deadline, or if you feel more time is 
necessary.
    I thank our witnesses for being here today and I yield back the 
balance of my time.

    Chairman Lampson. Thank you, Mr. Inglis. I ask unanimous 
consent that all additional opening statement be submitted by 
the Subcommittee Members be included in the record. Without 
objection, so ordered.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Mr. Chairman, I would like to thank you for overseeing this budget 
hearing today and I'd also like to thank our panelists who are 
testifying this afternoon. As Chairman of the Aviation Subcommittee of 
the Transportation and Infrastructure Committee, I look forward to 
learning from our witnesses about efforts to improve the weather 
technologies and services provided to guide air traffic management.
    One year ago, I, along with other Members of this committee, asked 
the Government Accountability Office to evaluate the efforts of the 
Federal Aviation Administration and the National Weather Service (NWS) 
to restructure its technologies and services. We asked GAO to pay 
particular attention to the management of the Center Weather Service 
Units, their staffing, and the streamlining of information unit-wide. 
The NWS services, products and information are a vital component of the 
FAA's air traffic control system. As we stated in the letter, I am 
interested in ensuring that any restructuring of the relationship 
between these two agencies will not result in the degradation of 
services provided to guide air traffic management.
    I know that the Members of this committee, like me, are committed 
to ensuring that quality information is provided through an efficient, 
collaborative relationship between the NWS and FAA. I think everyone 
can agree that the management of the Center Weather Service Units and 
the services they provide can be improved. I am pleased that with the 
completion of the GAO study and our Committee hearing today, we can now 
take a further step towards this goal.
    Mr. Chairman, I commend you for your stewardship of this committee 
and I look forward to hearing from our witnesses on this matter. Thank 
you.

    [The prepared statement of Mr. Wu follows:]

             Prepared Statement of Representative David Wu

    I appreciate the opportunity to join the Energy and Environment 
Subcommittee regarding NOAA's Fiscal Year 2009 budget request.
    In 2006, Congress passed and the president signed into law, the 
Tsunami Warning and Education Act--to improve our tsunami warning 
capabilities. We made commitments to improve our detection systems on a 
global level that will improve tsunami forecasting. These systems are 
important, but they are not an end-all to protect communities. These 
communities need to know how to respond to a tsunami quickly. The 
Science Committee determined this legislation relied too heavily on 
detection and too little on preparation. To address this problem, we 
amended the bill to ensure that 27 percent of all funds appropriated 
would be used for the National Tsunami Hazard Mitigation Program.
    The National Tsunami Hazard Mitigation Program helps communities at 
the State, tribal and local level plan and prepare for tsunamis. 
Communities in my district along the Pacific Coast rely on this program 
to help prepare residents quickly and allow them to safely evacuate in 
the event of a tsunami. While a detection system is important, the 
Cascadian subduction zone lies only nine miles off the Oregon and 
Washington Coast. In the event of an earthquake, residents need to 
react immediately because a detection system will not provide 
information in a timely matter.
    However, NOAA has ignored Congressional intent to ensure the 
National Tsunami Hazard Mitigation Program is properly funded. In 
Fiscal Year 2008, NOAA funded the program at $2.085 million. This 
represents 8.9 percent of total funding, 18 percent below the 
statutorily required 27 percent. The legislation and Committee report 
both emphasize the importance and purpose for this level of funding for 
NTHMP.
    Looking forward, NOAA's Fiscal Year 2009 budget request keeps 
funding level for this program. I have serious concerns that NOAA's 
actions will place communities on the Pacific Coast at risk. I hope 
NOAA will address these concerns during today's hearing.

    Chairman Lampson. And it is my pleasure to introduce our 
first witness this afternoon, Vice Admiral Conrad Lautenbacher, 
as the Under Secretary of Commerce for Oceans and Atmosphere 
and Administrator of the National Oceanic and Atmospheric 
Association. Admiral, as always, you will have five minutes for 
your spoken testimony. Your full, written testimony will be 
included in the record for the hearing, and when you have 
completed your testimony, we will begin with questions, and 
each Member will have five minutes to ask those questions. And 
you may begin.

                                Panel I

 STATEMENT OF VICE ADMIRAL CONRAD C. LAUTENBACHER, JR., UNDER 
     SECRETARY OF COMMERCE FOR OCEANS AND ATMOSPHERE; NOAA 
ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, 
                  U.S. DEPARTMENT OF COMMERCE

    Vice Admiral Lautenbacher. Thank you, Chairman Lampson, 
Ranking Member Inglis, Congressman Wu, and distinguished staff 
Members, thank you for the opportunity to appear before you 
this afternoon. And let me begin by giving you my sincere 
appreciation from NOAA for your support and interest in our 
programs. It is only with your help that we are doing as well 
as we are, so thank you very much.
    The President's budget supports NOAA's priority to advance 
mission-critical services. As you mentioned, the request is 
higher than last year. It is $4.1 billion, which is a $200 
million, or a five percent increase, above the 2008 enacted 
level. The increases that are there are essentially in areas 
for satellite facilities, ocean, and fisheries activities. 
While it is an increased budget, I want to emphasize that it is 
the minimum that we need to obtain our current level of 
services and carry out mission, which is to understand and to 
predict changes in the Earth environment and to conserve and 
manage coastal, marine, and Great Lakes resources.
    We have had many notable accomplishments during the past 
fiscal year. I mention some of those in my written testimony. I 
would like to just mention a couple before we move into the 
budget. First of all, I would like to enter for the record how 
proud we are of the NOAA scientists, the ones who had the 
special honor--more than 120 of them recognized by the Nobel 
Peace Prize Committee for their work on the Intergovernmental 
Panel on Climate Change, or IPCC. Many people in the NOAA 
family were intimately involved with the work of the IPCC, even 
beyond the 120 that received recognition. And this 
international recognition highlights the preeminent science 
conducted by our agency.
    Now, in October 2007, a very important one, as you 
mentioned, weather warnings. The weather service began issuing 
more geographically specific warnings for tornadoes, severe 
thunderstorms, floods, and marine hazards. Basically, these 
storm-based warnings allowed forecasters to pinpoint the 
specific area where severe weather threats are the highest. In 
some cases, this reduced the area warned by 70 percent when 
compared to the previously used county-by-county warning 
system. We believe this will cut down on the amount of false 
alarms and improve people's opportunities to understand that it 
is serious and escape harm from severe weather events.
    We continued to expand the overall tsunami-warning 
capability in our country. We deployed 14 more deep ocean 
assessment and reporting buoys, bringing the total stations to 
34. In partnership with the government of Indonesia, we also 
launched a second buoy to warn of approaching tsunamis in that 
region, and four buoys to monitor climate. We are now covering 
the Indian Ocean as well as the Pacific. These buoys are the 
latest additions to the expanding global Earth observation 
system of systems, an international effort to monitor and 
predict changes in the Earth.
    My written testimony presents details of the budget. Again, 
I will move on the 2009 budget. We are requesting almost $931 
million in 2009 for the Weather Service, an increase of just 
over $19 million from 2008. We are requesting restoration of 
critical core weather service accounts that were reduced in the 
fiscal year 2008 omnibus. These restorations at just over $10 
million include almost $7 million to the local warnings and 
forecast-based programs. There is about $11 million in the 
budget that would help enhance the NOAA all-hazard radio 
program. As you know, these radios provide crucial information 
and warnings to the public, 24 hours a day. As we saw recently 
with the outbreak of tornadoes in the Midwest, we must remain 
vigilant at all times.
    To enhance our forecasting abilities and ensure 
consistency, we are requesting a funding increase of $242 
million, for a total of $477 million to continue support of the 
Next-Generation Geostationary Satellite Program, called GOES-R. 
These sentinels in the sky provide the images of severe weather 
you see on TV. This increase will be used continued systems 
engineering, development of instrumentations, and transition to 
acquisitions and operations. We plan to issue the major 
contracts for space and ground segments early in 2009. This is 
a critical time for this program, and we need to work to keep 
it on track.
    We spend more than $300 million a year for hurricane 
warning and forecast effort. In 2009, we will add over $19 
million in new increases, providing $5 million for improvements 
to hurricane forecast and storm-surge modeling; $8 million will 
go towards research in ocean vector wind studies and coastal 
inundation modeling and $6 million to help support operation of 
our hurricane data buoys.
    In 2009, NOAA will invest more than $319 million on 
climate-related activities. This is an increase of $85 million 
over the 2008 enacted. NOAA will support the critical NIDIS 
system, National Integrated Drought Information System, with 
increases of $2 million. We are requesting an increase of $74 
million for climate sensors that were removed from the NPOESS 
satellite program. The money is specifically for the TSIS and 
CERES instruments which measure the Earth's radiation budget.
    Finally, we have modest new investments in our priority 
areas, I believe, while maintaining critical services. We will 
build on the successes from last year. We stand ready to meet 
the challenges that will surface in 2009.
    Again, I thank you for the opportunity to be present with 
you this afternoon, and I am happy to answer any questions you 
may have. Thank you, Mr. Chairman.
    [The prepared statement of Vice Admiral Lautenbacher 
follows:]

     Prepared Statement of Vice Admiral Conrad C. Lautenbacher, Jr.

    Mr. Chairman and Members of the Committee, before I begin my 
testimony I would like to thank you for your leadership and the 
generous support you have shown the National Oceanic and Atmospheric 
Administration (NOAA). Your continued support for our programs is 
appreciated as we work to improve our products and services for the 
American people. Thank you for the opportunity to testify on the 
President's Fiscal Year (FY) 2009 Budget Request for NOAA.
    The FY 2009 President's Budget supports NOAA's priority to advance 
mission-critical services. The FY 2009 request is $4.1 billion, which 
represents a $202 million or 5.2 increase over the FY 2008 enacted 
level. This request includes the level of resources necessary to carry 
out NOAA's mission, which is to understand and predict changes in the 
Earth's environment, and conserve and manage coastal and marine 
resources to meet our nation's economic, social and environmental 
needs. At NOAA we work to protect the lives and livelihoods of 
Americans, and provide products and services that benefit the economy, 
environment, and public safety of the Nation. Before I discuss the 
details of our FY 2009 budget request, I would like to briefly 
highlight some of NOAA's notable successes from the past fiscal year 
(2007).

FY 2007 ACCOMPLISHMENTS

NOAA is Major Contributor to Nobel Prize-Winning Intergovernmental 
                    Panel on Climate Change Reports

    Scientists from NOAA's Earth System Research Laboratory were among 
those sharing in the 2007 Nobel Peace Prize. The scientists were 
recognized for their contributions to the Intergovernmental Panel on 
Climate Change (IPCC). The IPCC was created in 1988 by the World 
Meteorological Organization and the United Nations Environment Program 
to provide regular assessments for policy-makers of the scientific, 
technical and socioeconomic aspects of climate change. IPCC has 
produced its major assessments every five to six years since 1990.
    NOAA scientists served as contributors to and government reviewers 
of the Fourth IPCC Assessment Report. NOAA's Geophysical Fluid Dynamics 
Laboratory provided model runs that enhanced the projections used in 
the IPCC report.

Magnuson-Stevens Act Implementation

    The Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act of 2007 was signed into law on January 12, 2007. 
The reauthorized Act contains significant new provisions to end 
overfishing, promote market-based approaches to fisheries management, 
improve the science used in fisheries management, improve recreational 
data collection, enhance international cooperation in fisheries 
management, and address illegal, unreported, and unregulated fishing, 
as well as by-catch of protected living marine resources. Especially 
notable is the requirement to establish an annual catch limit for each 
fishery, which for the first time creates a mandate with a timetable to 
end overfishing.

Progress on Next Generation Geostationary Satellite Program

    Geostationary satellites remain the weather sentinels for NOAA. The 
next-generation geostationary satellite series, GOES-R, will provide 
new and improved atmospheric, climatic, solar, and space data. In 2007, 
NOAA revised the management and acquisition strategy for the GOES-R 
program, partnering more closely with NASA to take advantage of each 
agency's technical expertise. In February 2007, the Advanced Baseline 
Imager, the main instrument on GOES-R, completed a key milestone, 
enabling the contractor to begin building the first instrument. 
Throughout 2007, NOAA awarded the three remaining instrument contracts 
for the Solar Ultraviolet Imager, Extreme Ultra Violet and X-Ray 
Irradiance Sensors, and Geostationary Lightning Mapper. These 
instruments will help us to understand and forecast solar disturbances 
as well as track lightning strikes from space.

NOAA's National Weather Service Provides More Specific Warning 
                    Information for Severe Weather

    NOAA's National Weather Service (NWS) began issuing more 
geographically specific warnings for tornadoes, severe thunderstorms, 
floods, and marine hazards on October 1, 2007. The new ``storm-based 
warnings'' allow forecasters to pinpoint the specific area where severe 
weather threats are highest, thereby reducing the area warned by as 
much as 70 percent when compared to the previously used county-by-
county warning system. Storm-based warnings are displayed graphically 
and are extremely adaptable to cell phones, PDAs, and the Internet. The 
Emergency Alert System (EAS) is geared toward counties and NOAA Weather 
Radio (NWR) All Hazards will still sound an alarm if there is a warning 
anywhere in a county. However, text and audio messages will provide 
more specific information about the location of the storm in the 
county, and the direction in which it is moving. Storm-based warnings 
will reference landmarks such as highways, shopping centers, and parks, 
and will use directional de-limiters to indicate county location.

Fleet Modernization Moves Ahead

    In June 2007, NOAA celebrated the keel laying of NOAA ships BELL M. 
SHIMADA and FERDINAND R. HASSLER in Moss Point, Mississippi. This 
marked the first time NOAA has celebrated this important construction 
milestone for two ships simultaneously. HENRY B. BIGELOW, second of the 
four fisheries survey vessels of the same class being built by VT 
Halter Marine, was commissioned into the fleet in July before beginning 
operations in New England. In September, Phase I of conversion of NOAA 
Ship OKEANOS EXPLORER (formerly USNS CAPABLE) to an ocean exploration 
ship was completed. NOAA ship PISCES was christened in December and 
subsequently launched in Moss Point, Mississippi.

New State-of-the-Art Satellite Operations Facility Officially Opened

    In June 2007, NOAA and the General Services Administration 
officially opened the new state-of-the-art NOAA Satellite Operations 
Facility (NSOF). NSOF is the new home for NOAA's around-the-clock 
environmental satellite operations, which provides data critical for 
weather and climate prediction. NSOF supports more than $50 million of 
high technology equipment, including 16 antennas monitoring the 
operations of 16 on-orbit satellites.

National Water Level Observation Network Upgraded to Real-time Status

    The National Ocean Service (NOS) completed a three-year effort to 
upgrade the technology of its National Water Level Observation Network 
(NWLON). NWLON stations provide mariners, first responders, and the 
public with real-time tide and water-level information. A major benefit 
of the upgrade is that network stations normally equipped to transmit 
water-level and other environmental data at hourly increments via NOAA 
Geostationary Operational Environmental Satellites now transmit data 
every six minutes, thus enabling users to access data more quickly.

NOAA Aids in the Recovery of Fisheries and Fishing Communities Damaged 
                    by Hurricanes

    NOAA funded and conducted a number of activities aimed at helping 
Gulf Coast fisheries recover from the devastating impacts of Hurricanes 
Katrina, Rita, and Wilma, which struck the Gulf Coast in 2005. The 
states are using these funds to restore and rehabilitate oyster, 
shrimp, and other marine fishery habitats damaged or destroyed by 
hurricane events, and to conduct cooperative research and monitoring 
and other activities designed to recover and rebuild Gulf of Mexico 
fisheries and fishing communities.

NOAA Weather Radio All Hazards Activities: Meeting the Expectations of 
                    the Nation for Weather and All Hazard Warning 
                    Information

    NOAA's National Weather Service added 16 broadcast stations to the 
NOAA Weather Radio (NWR) All Hazards network in 2007. In addition to 
achieving 100 percent coverage of high-risk areas, NOAA refurbished 62 
broadcast stations with technology upgrades that significantly improved 
reliability and availability, while decreasing maintenance costs. This 
allows the network to meet expectations of availability as the Nation's 
weather and all-hazard warning system.
    NWR is a reliable and inexpensive means of communicating weather, 
hazard, and emergency information directly to the public. The network 
infrastructure consists of 986 broadcast stations covering 98 percent 
of the Nation's population and has the ability to deliver messages to 
individuals monitoring their own receivers as well as the ability to 
reach millions of listeners and viewers through the Emergency Alert 
System, which is monitored by television and radio license holders. The 
network is required to broadcast to all areas of the United States 
identified as being at high risk of experiencing severe weather and to 
sustain a high level of reliability and maintainability in those areas.

Marine Reserves Established in Channel Island National Marine Sanctuary

    In 2007, NOS established the federal portion of the marine reserves 
and conservation area network within the Channel Islands National 
Marine Sanctuary. This is the largest network of marine reserves in 
federal waters in the continental United States. This action 
complements the State of California's established network of marine 
reserves and conservation areas within the State waters of the 
sanctuary in 2003.

Expanding U.S. Tsunami Preparedness

    NOAA's National Weather Service (NWS) is responsible for the 
expansion of the U.S. network of tsunami detection sensors. During 
2007, 14 Deep-ocean Assessment and Reporting of Tsunamis (DARTTM) buoys 
were established: four in the western Pacific Ocean, three off the 
Pacific Coast of Central America, five in the northwestern Pacific 
Ocean, and two in the North Atlantic Ocean, bringing the total number 
of U.S. DARTTM stations to 34. The United States, with NOAA as lead 
agency, is currently working with approximately 70 countries, the 
European Commission, and over 50 non-governmental agencies in planning 
and implementing the Global Earth Observation System of Systems 
(GEOSS), which includes a global tsunami warning system. In addition, 
NWS works with communities to prepare for tsunamis through the 
TsunamiReadyTM Program. As of December 12, 2007, there are 47 
TsunamiReadyTM sites in 10 states, Puerto Rico, and Guam. The National 
Weather Service reached its goal of recognizing 10 new TsunamiReadyTM 
communities in fiscal year 2007.

First Buoy to Measure Acidification Launched

    The first buoy to directly monitor ocean acidification was launched 
in the Gulf of Alaska. Ocean acidification is a result of carbon 
dioxide absorbed by the ocean. The new buoy, part of a National Science 
Foundation project awarded to PMEL and the University of Washington in 
Seattle, in collaboration with Fisheries and Oceans Canada and the 
Institute of Ocean Sciences in British Columbia, measures the air-sea 
exchange of carbon dioxide, oxygen, and nitrogen gas, in addition to 
the pH (a measure of ocean acidity) of the surface waters. The buoy is 
anchored in water nearly 5,000 meters deep and transmits data via 
satellite. Rising acidity in the ocean could have a detrimental effect 
on ocean organisms, with resulting impacts on ocean life and the food 
chain.

NOAA Ships Arrive at New Home Port in Hawaii

    NOAA ships OSCAR ELTON SETTE, HI'IALAKAI, and KA'IMIMOANA relocated 
to their new home port at Ford Island, Pearl Harbor, Hawaii, heralding 
the permanent presence of NOAA on Ford Island. This was a major 
milestone in the multi-year, multi-phase construction of the NOAA 
Pacific Regional Center, a project to consolidate NOAA programs and 
operations on the island of Oahu into a single facility on Ford Island.

NOAA's Open Rivers Initiative Completes First Projects

    In its first year, NOAA's Open Rivers Initiative completed three 
projects that restored over 30 miles of spawning and rearing habitat 
for migratory fish. The obsolete Brownsville Dam, located on the 
Calapooia River in Oregon, was removed in August 2007, effectively 
eliminating an obstruction to migratory fish and a safety hazard to the 
local human community. In California, two failing and undersized 
culverts were removed, allowing endangered salmon to reach their 
historic spawning and rearing grounds. In collaboration with local 
communities, NOAA's Open Rivers Initiative will continue to restore 
free fish passage to historic habitat by removing obsolete dams and 
barriers that dot the rivers of coastal states.

Delivering Real-Time Data to Help Shellfish Growers

    Shellfish growers in the Pacific Northwest can now get near real-
time water quality data from the System-wide Monitoring Program 
operating at National Estuarine Research Reserves in Alaska, 
Washington, and Oregon. The data are available through telemetering 
capabilities, which measure, receive, and transmit data automatically 
from distant sources. Water quality data can be viewed on a web site 
jointly sponsored by NOS and the Northwest Association of Networked 
Ocean Observing Systems (http://www.nanoos-shellfish.org/). Water 
quality and weather data are transmitted every 30 minutes via satellite 
from monitoring stations at all 27 National Estuarine Research 
Reserves, providing information to the growing Integrated Ocean 
Observing System (IOOS).

Great Lakes Lab Recognized for `Green' Research Vessels

    NOAA's Great Lakes Environmental Research Laboratory (GLERL) 
converted a fleet of research vessels from petroleum-based to 100 
percent bio-based fuel and lubricants, earning a White House Closing-
the-Circle Award in the green purchasing category. GLERL operates 
research vessels throughout the Great Lakes region as scientific 
platforms for ecosystems research and other NOAA interests in the area. 
The conversion was a result of a call for ``greening'' of government 
agencies through waste reduction, recycling, and the use of 
environmentally friendly and sustainable products including bio-
products.

FY 2009 BUDGET REQUEST HIGHLIGHTS

Supporting the President's Ocean Initiative

    Building on last year's investment in Ocean Initiative related 
activities, the FY 2009 President's Request includes new increases of 
$49.1 million for NOAA over the FY 2008 President's Request to support 
the President's Ocean Initiative. This ocean initiative includes more 
funding to advance ocean science and research; protect and restore 
marine and coastal areas; and ensure sustainable use of ocean 
resources.
    New investments in ocean science are aimed at monitoring and better 
understanding marine ecosystems. Increased funding of $7.0 million is 
included for the Integrated Ocean Observing System (IOOS) to support 
Data Management and Communications, Regional Observations, and the Data 
Assembly Center (DAC), which delivers real-time, quality controlled 
data from NOAA and regional observing systems. An increase of $1 
million is requested to manage the escalating size and quantity of 
hydrographic data sets collected by NOAA and other providers. This 
increase in funding will help NOAA update the nautical charts provided 
to mariners navigating on U.S. waters in a more timely fashion. In 
addition, NOAA is requesting $2 million in increased funding for the 
PORTS program, to improve and expand the delivery of real-time and 
forecasted navigation information. A recent economic benefits study of 
the Houston/Galveston PORTS program, released in May 2007, showed that 
the program brought the Houston/Galveston area significant economic 
benefits and has helped to achieve a 50 percent reduction in 
groundings.
    Projects to protect and restore valuable marine and coastal areas 
include funding of $4 million to implement the newly enacted Marine 
Debris Research, Prevention, and Reduction Act. This funding will allow 
NOAA to provide competitive grants and to develop the first federal 
clearinghouse on marine debris. NOAA also requests increased funding of 
$5.4 million for the Open Rivers program to restore stream miles of 
fish habitat through watershed-level projects with multiple fish 
passage opportunities.
    Finally, the budget provides support to ensure sustainable access 
to seafood through the development of offshore aquaculture and better 
management of fish harvests. In direct support of new provisions of the 
MSRA, and to provide better management of fish harvests, NOAA requests 
increased funding of $31.8 million over the FY 2008 enacted level. Of 
this amount, $5.1 million is requested to enhance the independent peer-
review process for scientific data required to appropriately set the 
annual catch limits for all managed fisheries; $8.5 million will 
initiate and expand existing sampling programs and management 
procedures in order to end overfishing by 2011, as mandated by the 
MSRA; and $3.0 million will complete the final implementation phase of 
a new registry system for recreational fishermen and for-hire fishing 
vehicles. An additional $1.5 million increase is requested in support 
of deep sea coral research, allowing NOAA to begin identifying, 
understanding, and providing the information needed in order to protect 
deep coral habitats.

Sustaining Critical Operations

    As always, I support NOAA's employees by requesting adequate 
funding for our people, infrastructure, and facilities. NOAA's core 
values are people, integrity, excellence, teamwork, ingenuity, science, 
service, and stewardship. Our ability to serve the Nation and 
accomplish the missions outlined below is determined by the quality of 
our people and the tools they employ. Our facilities, ships, aircraft, 
environmental satellites, data-processing systems, computing and 
communications systems, and our approach to management provide the 
foundation of support for all of our programs. Approximately $42.0 
million in net increases will support our workforce inflation factors, 
including $37.5 million for salaries and benefits and $4.5 million for 
non-labor-related adjustments, such as fuel costs.
    This year we have focused our increases on satellite continuity and 
operations and maintenance support for our aircraft and NOAA vessels. A 
funding increase of $242.2 million is requested to continue support of 
the Geostationary Operational Satellites (GOES)-R program. GOES 
satellites provide critical atmospheric, oceanic, climatic, and solar 
products supporting weather forecasting and warnings, climatologic 
analysis and prediction, ecosystems management, and safe and efficient 
public and private transportation. This increase will be used for 
continued systems engineering, development of satellite instruments, 
risk reduction activities, and transition to the systems-level 
acquisition and operations phase of the program.
    Funding of $6.1 million is also requested in support of a Major 
Repair Period for the RAINIER, NOAA's most productive hydrographic 
vessel. At 39 years old, the RAINIER requires a major capital 
investment in its mechanical and electrical systems in order to 
maintain its current operational tempo and reduce risks to personnel, 
property, and mission capability.
    Finally, NOAA requests an increase of $4.0 million in support of 
additional flight hours and operations and maintenance for our 
aircraft. The requested funds will provide an additional 1,295 flight 
hours for hurricane research, surveillance, and reconnaissance, as well 
as for other research and forecasting requirements. NOAA also asks this 
year for restoration to several of our base programs, most notably in 
the National Weather Service and the National Marine Fisheries Service. 
These requested increases in our base accounts will allow NOAA to 
sustain on-going programs and projects at the levels recommended in the 
FY 2008 President's Budget.

Improving Weather Warnings and Forecasts

    Severe weather events cause $11 billion in damages and 
approximately 7,000 weather-related fatalities yearly in the United 
States. Nearly one-third of the U.S. economy is sensitive to weather 
and climate. Realizing this, NOAA seeks to provide decision-makers with 
key observations, analyses, predictions, and warnings for a variety of 
weather and water conditions to help protect the health, life, and 
property of the U.S. and its economy. Land-falling hurricanes are one 
of the most physically destructive and economically disruptive extreme 
events that impact the United States, often causing billions of dollars 
of damage in their wake. In FY 2009, NOAA will continue to improve our 
hurricane research and modeling capabilities with a requested increase 
of $4.0 million for operational support and maintenance of the next-
generation Hurricane Weather Research and Forecasting model and storm 
surge prediction system, as well as accelerated improvements to that 
system. Increased funding of $3.0 million will support the operations 
and maintenance of 15 hurricane data buoys in the Caribbean, Gulf of 
Mexico, and the Atlantic Ocean, enhancing our real-time hurricane storm 
monitoring and observations. NOAA also continues to improve and 
maintain our weather warning infrastructure, with requested funding of 
$6.6 million to upgrade the Advanced Weather Interactive Processing 
System, the Nation's weather and flood warning system. Increased 
funding of $4.8 million will be used to upgrade twelve NOAA Wind 
Profilers and to perform a tech-refresh on this twenty-year-old radar 
system. Finally, NOAA is requesting $2.9 million in increased funding 
for modernization of the NOAA Weather Radio network.

Climate Monitoring and Research

    Society exists in a highly variable climate system, and major 
climatic events can impose serious consequences on society. Preliminary 
estimates of the impact of the severe drought which affected the Great 
Plains and the Eastern United States throughout 2007 are in the range 
of $5 billion, with major reductions in crop yields and low stream and 
lake levels. Continued drought and high winds in the Western United 
States in 2007 resulted in numerous wildfires, with 3,000 homes and 
over 8.9 million acres burned, and at least 12 deaths. The FY 2009 
Budget Request contains investments in several programs aimed at 
increasing our predictive capability, enabling NOAA to provide our 
customers (farmers, utilities, land managers, weather risk industry, 
fisheries resource managers and decision-makers) with assessments of 
current and future impacts of climate events such as droughts, floods, 
and trends in extreme climate events. NOAA continues to build a suite 
of information, products, and services that will enable society to 
respond to changing climate conditions. In FY 2009, NOAA will support 
the critical National Integrated Drought Information System with 
increases of $2 million to develop and bring into operation by FY 2010 
the next-generation Climate Forecast System, leading to improved 
climate forecasting products. An increase of $74 million will be used 
to develop Clouds and the Earth's Radiant Energy System (CERES) and 
Total Solar Irradiance Sensor (TSIS) climate sensors to preserve 
decades long climate data records. The CERES sensor will measure the 
Earth's radiation budget, an essential measurement for determining the 
causes of climate variability and change. The TSIS sensor measures the 
total energy of the sun falling on the Earth, a measurement used to 
identify and isolate natural solar variations that impact climate in 
contrast to other factors, such as human influences on climate.

Critical Facilities Investments

    The FY 2009 President's Budget Request also includes important 
increases for critical facilities, necessary to provide a safe and 
effective working environment for NOAA's employees.
    For FY 2009, NOAA will concentrate their modernization efforts on 
three main projects. NOAA requests an increase of $40.2 million for the 
continued construction of the new Pacific Region Center on Ford Island 
in Honolulu, Hawaii. This increase in funding will support the 
continued construction and renovation of two buildings, enabling NOAA 
to reduce expenditures for rent and relocate operations from their 
current location in the deteriorating Kewalo Basin and Dole Street Lab 
Facilities. An increase of $12.1 million will complete the design and 
initial preparations for a replacement facility for the Southwest 
Fisheries Science Center. Finally, $11.7 million is requested to 
support the installation of a semi-permanent replacement structure for 
the at-risk Operations Complex at the NESDIS Command and Data 
Acquisition Station in Fairbanks, Alaska. The current facility is at 
risk to experience a major structural failure in the next five years. 
The requested funding will ensure that NOAA maintains crucial mission 
operations support for the polar-orbiting satellites, as well as backup 
support for others.

CONCLUSION

    NOAA's FY 2009 Budget Request provides essential new investments in 
our priority areas while maintaining critical services, reflecting 
NOAA's vision, mission, and core values. The work NOAA accomplished in 
2007 impacted every U.S. citizen. We will build on our successes from 
last year, and stand ready to meet the challenges that will surface in 
FY 2009 and beyond. NOAA is dedicated to enhancing economic security 
and national safety through research and accurate prediction of weather 
and climate-related events, and to providing environmental stewardship 
of our nation's coastal and marine resources. That concludes my 
statement, Mr. Chairman. Thank you for the opportunity to present 
NOAA's FY 2009 Budget Request. I am happy to respond to any questions 
the Committee may have.

         Biography for Vice Admiral Conrad C. Lautenbacher, Jr.

    A native of Philadelphia, Pa., retired Navy Vice Admiral Conrad C. 
Lautenbacher, Ph.D., is serving as the Under Secretary of Commerce for 
Oceans and Atmosphere. He was appointed Dec. 19, 2001. Along with this 
title comes the added distinction of serving as the eighth 
Administrator of the National Oceanic and Atmospheric Administration. 
He holds an M.S. and Ph.D. from Harvard University in applied 
mathematics.
    Lautenbacher oversees the day-to-day functions of NOAA, as well as 
laying out its strategic and operational future. The agency manages an 
annual budget of $4 billion. The agency includes, and is comprised of, 
the National Environmental Satellite, Data and Information Services; 
National Marine Fisheries Service; National Ocean Service; National 
Weather Service; Oceanic and Atmospheric Research; Marine and Aviation 
Operations; and the NOAA Corps, the Nation's seventh uniformed service. 
He directed an extensive review and reorganization of the NOAA 
corporate structure to meet the environmental challenges of the 21st 
century.
    As the NOAA administrator, Lautenbacher spearheaded the first-ever 
Earth Observation Summit, which hosted ministerial-level representation 
from several dozen of the world's nations in Washington July 2003. 
Through subsequent international summits and working groups, he worked 
to encourage world scientific and policy leaders to work toward a 
common goal of building a sustained Global Earth Observation System of 
Systems (GEOSS) that would collect and disseminate data, information 
and models to stakeholders and decision-makers for the benefit of all 
nations individually and the world community collectively. The effort 
culminated in an agreement for a 10-year implementation plan for GEOSS 
reached by the 55 member countries of the Group on Earth Observations 
at the Third Observation Summit held in Brussels February 2005.
    He also has headed numerous delegations at international 
governmental summits and conferences around the world, including the 
U.S. delegation to 2002 Asia-Pacific Economic Cooperation Ocean 
Ministerial Meeting in Korea, and 2002 and 2003 meetings of the World 
Meteorological Organization and Intergovernmental Oceanographic 
Commission in Switzerland and France, as well as leading the Commerce 
delegation to the 2002 World Summit on Sustainable Development in South 
Africa.
    Before joining NOAA, Lautenbacher formed his own management 
consultant business, and worked principally for Technology, Strategies 
& Alliances Inc. He was President and CEO of the Consortium for 
Oceanographic Research and Education (CORE). This not-for-profit 
organization has a membership of 76 institutions of higher learning and 
a mission to increase basic knowledge and public support across the 
spectrum of ocean sciences.
    Lautenbacher is a graduate of the U.S. Naval Academy (Class of 
1964), and has won accolades for his performance in a broad range of 
operational, command and staff positions both ashore and afloat. He 
retired after 40 years of service in the Navy. His military career was 
marked by skilled fiscal management and significant improvements in 
operations through performance-based evaluations of processes.
    During his time in the Navy, he was selected as a Federal Executive 
Fellow and served at the Brookings Institution. He served as a guest 
lecturer on numerous occasions at the Naval War College, the Army War 
College, the Air War College, The Fletcher School of Diplomacy, and the 
components of the National Defense University.
    His Navy experience includes tours as Commanding Officer of USS 
HEWITT (DD-966), Commander Naval Station Norfolk; Commander of Cruiser-
Destroyer Group Five with additional duties as Commander U.S. Naval 
Forces Central Command Riyadh during Operations Desert Shield and 
Desert Storm, where he was in charge of Navy planning and participation 
in the air campaign. As Commander U.S. Third Fleet, he introduced joint 
training to the Pacific with the initiation of the first West Coast 
Joint Task Force Training Exercises (JTFEXs).
    A leader in the introduction of cutting-edge information 
technology, he pioneered the use of information technology to mount 
large-scale operations using sea-based command and control. As 
Assistant for Strategy with the Chief of Naval Operations Executive 
Panel, and Program Planning Branch Head in the Navy Program Planning 
Directorate, he continued to hone his analytic skills resulting in 
designation as a specialist both in Operations Analysis and Financial 
Management. During his final tour of duty, he served as Deputy Chief of 
Naval Operations (Resources, Warfare Requirements and Assessments) in 
charge of Navy programs and budget.
    Lautenbacher lives in Northern Virginia with his wife Susan who is 
a life-long high school and middle school science teacher.

                               Discussion

    Chairman Lampson. Thank you, Admiral. Let me start. We will 
go into our five-minute questions, and I will yield myself the 
first five minutes.

                         GOES-R Budget Estimate

    As you are well aware, the satellite procurement programs 
represent a significant portion of your agency's budget. GAO 
made the recommendation that the agency obtain independent cost 
estimates for these programs at the outset. You implemented 
this recommendation for GOES-R, and we believe that was the 
right decision. Are you now confident that the new estimate for 
GOES-R is realistic, and that the technical challenges are 
manageable?
    Vice Admiral Lautenbacher. I believe that we have. It is 
always hard to say is this estimate going to be good until the 
end of the program, but we have created as good a change as we 
are ever going to get. We have had several independent looks at 
it. We created independent looks outside of the program office. 
We have had an independent review team come in with experts in 
the satellite acquisition and management community. We have 
worked through differences in the original estimates, which 
contractors provided during our risk-analysis part of the 
program, and we have gone to the point where the estimates are 
within four percent of each other. We believe that the $7.7 
billion that we have at this point is a very good estimate and 
well ahead of anywhere that we were in the NPOESS program, for 
instance, at this point of validity of the estimate.
    Chairman Lampson. You made the decision to include an 
option for two additional satellites in the GOES-R series, 
restoring the program closer to the original plans. Obviously, 
exercising that option would raise the current estimates for 
the program. Did the independent cost estimation include an 
estimate for this, and what is NOAA's estimate for these two 
additional satellites?
    Vice Admiral Lautenbacher. The independent cost estimate 
focused on the program of record, which we have submitted in 
our budget, which is a two-satellite program. We have some 
estimates of what the two additional options would cost, but 
they are not to the degree of confidence that we have in the 
first two that we have put together. But I believe that we have 
estimates that are pretty good at this point of what it might 
cost. Obviously, this depends on what the contractor will 
provide to us when they provide their initial bids.
    Chairman Lampson. Do you have at least some kind of concept 
of what it would be, and is there going to be an opportunity to 
see, if we indeed do choose to go with the option, is it going 
to significantly lower the cost for all four in the event that 
that is what happens. Can you give me some kind of indication 
of what that might----
    Vice Admiral Lautenbacher. Yes, sir, and we can provide 
that. We believe at this point that that is probably, at this 
point, the most cost-effective option for continuing service 
for geostationary satellites, but again, we need to make sure 
that we provide detailed cost-benefit analysis that convinces 
Congress as well as the Administration that this is the way to 
go.
    Chairman Lampson. Do you have any kind of number 
preliminary----
    Vice Admiral Lautenbacher. We do have numbers. I don't 
have----
    Chairman Lampson. Okay.
    Vice Admiral Lautenbacher.--here with me today, but we can 
provide them----
    Chairman Lampson. If you would, do that.
    Vice Admiral Lautenbacher.--of what we do know at this 
point.
    Chairman Lampson. If you would do that, we would appreciate 
it.
    Vice Admiral Lautenbacher. Yes, sir.
    [The information follows:]
                       Information for the Record
    ``The total ballpark estimate for contract options for two 
additional GOES-R series satellites is expected to fall between $2.5 to 
$3.0 billion dollars based on preliminary estimates.''

                          The VIIRS Instrument

    Chairman Lampson. Can you please explain why, with the 
level of attention that has been focused on the VIIRS 
instrument? It is, once again, responsible for a delay in a 
launch of the NPOESS Preparatory Project, NPP, mission.
    Vice Admiral Lautenbacher. The VIIRS instrument has been a 
technical challenge to build, and it has had, I would say, one 
problem after another. But each of those problems has been 
solved, so I have confidence that we are going to solve these 
problems. It has just taken more than the contractor had 
indicated it would take. We have put a schedule in place at 
this point that I believe gives them more than sufficient time. 
In fact, they say that they can beat the estimate that we are 
allowing them at this time by several months. They need to 
prove it to us, but essentially, towards the end of building 
this instrument. We are just about there, and I think that we 
can, you know, see the light at the end--we can see more than 
the light; we can see the end of the tunnel, so I have 
confidence that we are going to get there, but we are going to 
slug it out.
    Chairman Lampson. What is the estimated date of the launch 
right now? Do you know that offhand, or----
    Vice Admiral Lautenbacher. We are waiting for NASA to give 
us an estimate on it. We have added about eight months to the 
scheduled from the VIIRS instrument, and NASA will give an 
estimate of what it takes to put that on the NPP, but it will 
be delayed from 2009 to 2010. That we can say at this point.
    Chairman Lampson. Okay, with the latest launch-schedule 
slip, does the NPP still have any value in its original 
mission, in providing a chance for exercising the new NPOESS 
instruments before they become operations, or is it now 
serving, primarily, as a gap-filler for the Earth observing 
instruments on NASA satellites?
    Vice Admiral Lautenbacher. It will have use as a mitigation 
for risk reduction for the--it still has, remember--because the 
date of the NPOESS satellite is now 2013, so if we can't launch 
this in 2010 as we have suggested, it is still going to have 
value for risk reduction for NPOESS, and it is needed for 
continuity of the climate mission, as well as a gap-filler. It 
will fill all three purposes.
    Chairman Lampson. Thank you, sir, and I will now recognize 
the Ranking Member, Mr. Inglis, for questions.
    Mr. Inglis. Thank you, Mr. Chairman.

               Funds for the Hurricane Supplemental Buoys

    Admiral Lautenbacher, the President's fiscal year 2009 
budget includes a request for tripling the funds for the 
hurricane supplemental buoys. How does this work? Described as 
a front line for hurricane forecasting, there are 15 of them--
--
    Vice Admiral Lautenbacher. Yes, sir.
    Mr. Inglis. Does that bring them to 15?
    Vice Admiral Lautenbacher. Yes, this brings it to 15. The 
money that we have asked for here will allow us to position the 
last three, and then provide the operating money. Last year, we 
were unable to get operating money for them, and we believe 
these need to be maintained. This needs to be a consistent 
observing system.
    These buoys are in strategic positions out in the Atlantic 
and in the Gulf, and they provide an early-warning sentinel of 
precise information on wave heights, wind speeds, critical data 
that is needed to inform our models and ensure we understand 
where the hurricanes are going.
    Mr. Inglis. I guess the question, maybe you just answered 
it, is that you need money to operate them, because if they are 
going to 15, and there are three left to go out, that means the 
expense is in locating them. Is that why there is a significant 
increase?
    Vice Admiral Lautenbacher. Most of the expense was in 
building them and locating them. The operating money is 
significantly less, but we, fortunately, thanks to Congress in 
helping us to get supplemental money several years ago to start 
this program of having warning sentinels on station, have been 
successful in doing that. As you say, 12 of the 15 are out 
there. This finishes the program and allows us to operate them, 
but they will require a small operating increment every year to 
keep them going.
    Mr. Inglis. How does that compare to the tsunami kind of 
buoys? Are they the same kind of concept?
    Vice Admiral Lautenbacher. These are much different buoys 
than the tsunami buoys. First of all, these are very big, so 
they are large, more stable platforms. And in fact, during some 
of the hurricanes that we have had, these buoys have survived, 
so they are big. The DART buoys, as we call them, are really 
transmission buoys. They are small. They look a lot like the 
navigation buoys in the channel that you see. So they are small 
buoys. They are anchored at the bottom of the ocean as well, 
and the instrumentation that is on them is basically to taken 
an acoustic signal that comes from the ocean, translate it to 
an electronic signal, send it up to a satellite and back, so 
they are an intermediate transmitting point. That is the 
difference. The weather buoys have weather instrumentation on 
them as well as transmitting equipment.

                       The Tsunami Warning System

    Mr. Inglis. You said, now, the tsunami warning system, when 
the big tsunami occurred several years ago, a lot of those were 
disabled or not functioning properly, right?
    Vice Admiral Lautenbacher. We had six--well, first of all, 
they are up and down like any other equipment. They go down and 
they need to be maintained. We had six, what I would call 
experimental buoys, in the water at the time. Three of them 
were operating, and three weren't at the time of that. But that 
record could vary anywhere from three to six fully operational, 
so we repair them as schedules allow. And now we will have 35 
of these.
    Mr. Inglis. That was my next question. So we have got 35. 
Is that in the budget request as well?
    Vice Admiral Lautenbacher. Yes, sir, and we have doubled up 
on them, so in the areas of concern to our west coast, 
essentially, and the Aleutians, there are several spots that 
are doubled, so we are increasing the likelihood that we will 
have a complete array of buoys operational all year long. The 
problem being that in the Gulf of Alaska, you have to repair 
them in the spring and summer, because in the winter, it is 
virtually impossible to do the maintenance on them.

                        Coral Reef Watch Program

    Mr. Inglis. In a Science Committee CODEL recently was 
topped in Australia. I was tremendously impressed by the work 
you all are doing with the Coral Reef Watch Program. A very 
impressive foreign policy angle there that NOAA has with 
cooperating with the Australian government in creating goodwill 
for the U.S. as we help predict coral bleaching and things like 
that. I was very impressed at the work going on there.
    Vice Admiral Lautenbacher. Thank you. It is important. We 
use the satellites to be able to warn for coral bleaching, and 
we have a strong partnership with the managers of the Great 
Barrier Reef Marine Park in Australia. Yes, it is a very 
important part of our international scene.
    Mr. Inglis. Yes, that became apparent when we were there. 
It is very impressive.
    Thank you, Mr. Chairman.
    Chairman Lampson. Thank you, Mr. Inglis, and I recognize 
Dr. David Wu for five minutes.

                Tsunami Education and Mitigation Funding

    Mr. Wu. Thank your, Mr. Chairman. I now chair the 
Technology and Innovation Subcommittee, another Subcommittee of 
this Full Committee. In the prior incarnation of that 
Subcommittee, I served as Ranking Member, and we have 
jurisdiction, at that time, over NOAA. It is an agency which I 
respect for the importance of its work, and you all handle a 
large number of very important tasks.
    I have, today, an unfortunate duty, to refer back to a 
prior statute, which this committee, and the full Congress 
passed, which requires NOAA to spend 27 percent of certain 
tsunami monies on education on education and mitigation. That 
was a negotiated number, and some of us wanted a higher 
percentage on education and mitigation. Then-Chairman Boehlert 
prevailed upon all parties to settle on a 27 percent number, 
and as it has been said in business negotiations, it was a 
highly negotiated number. So those of us who were part of that 
negotiation place great store in spending that 27 percent in 
education and mitigation, and the reason why it has very 
important real-world significance is because while the ocean 
buoys are important and are important for warning in other 
parts of the world, we on the Oregon and Washington coast have 
a 250 subduction zone. The Cascadian fault is locked, and every 
200 to 1,200 years, and on average, ever 300 years, we have a 
9.0 to 9.5 earthquake off our coast, and there will be no 
warning. The hardware that you all have deployed around the 
oceans of the globe serve a very important purpose, but those 
buoys will provide no warning for a Cascadian subduction-zone 
earthquake. The only warning that will occur is the earthquake 
itself. Fifteen to thirty minutes later, the tsunami will roll 
ashore. The education money is the part of the program which 
would benefit the citizens of Oregon, Washington, and 
California, and provide a real service.
    Now, Mr. Under Secretary, your agency had a clear statutory 
mandate to allocate 27 percent of these funds to education and 
mitigation. Can you explain why that number did not come to 
pass, and my understanding from the staff is that it is closer 
to 8.9 percent, rather than 27 percent actually being allocated 
to education and mitigation.
    Vice Admiral Lautenbacher. Yes, sir. I think it is a little 
higher than that, but I don't want to argue about the 
percentage. Basically, we have had to sort of manage the 
conflicting requirements of getting a system set up and meeting 
the percentages, and it has not always worked out as well as we 
have liked, so as I have looked at it today, we have not met 
the percentage that is required in the law, and I would 
certainly agree with that, and we need to fix that. And I have 
been sworn to uphold the laws of the country, and I will do 
that. I was not aware of that particular issue until this 
morning.
    But let me just tell you what we have done. First of all, 
the program itself is a great triumph. The President provided 
extra money. Congress, where we had zero, we now have $23 
million to produce awareness and a system, and we do have money 
going to mitigation and education. It is not the percentage, 
but we have allocated----
    Mr. Wu. Mr. Under Secretary, just to be clear, the $23 
million that you are referring to is for the entire tsunami-
warning network, and it is 27 percent of that particular line 
item that we are talking about, and it is that 27 percent of 
that particular line item, the $23 million that you all didn't 
hit. My understanding is that there is $2.9-some-odd million 
for education, and at least the arithmetic on this side of the 
table shows that to be about 8.9 percent, or thereabouts, and 
you are saying that that shouldn't have happened. And 
furthermore, you are saying that won't happen going forward.
    Vice Admiral Lautenbacher. I am saying that I want to take 
a good look at this. I don't have enough information to sit 
here and promise the moon, so to speak. I will tell you our 
priority has been to try to get the system going first. We 
can't get the system----
    Mr. Wu. Mr. Under Secretary, with all due respect, there 
are times when you all have administrative discretion, but when 
it is a clear, statutory requirement--I mean this was 
negotiated in this committee, passed by the entire Congress, 
and this is not, you know, reading between the lines on 
Congressional intent. This is a very clear statutory 
requirement, and when I took our conversation to mean earlier 
was that I had a clear commitment that this would be fixed 
going forward.
    Vice Admiral Lautenbacher. Yes, sir, this will be fixed 
going forward. I thought the question was on '08. I mean we are 
talking about what we are trying to do right now, at this--
well, the budget has already passed. The year is half-gone, 
that sort of thing.
    Mr. Wu. Well, now that I have a commitment to going 
forward, when we come back----
    Vice Admiral Lautenbacher. Yes, sir.
    Mr. Wu.--we can listen to you further about what might have 
happened in times back.
    Vice Admiral Lautenbacher. And we have another option to 
provide money this year, too, from the frequency auction money. 
We believe that is coming in at the end of the--in a few 
months, and we will be able to use that for the education part. 
So we have two ways to work at this, sir.
    Chairman Lampson. Thank you, Mr. Wu. Ms. Hooley, the 
gentlelady from Oregon, five minutes.
    Ms. Hooley. Thank you very much, Mr. Chair, for allowing me 
to participate in this hearing today.
    You might be surprised since both Representative Wu and I 
are from Oregon that my question might be very similar to him, 
but I have a question to ask you. Are you aware of the letter 
dated January 25 that the State Geologists from Oregon and 
Washington and Alaska and California sent to the Congressional 
delegates from the Pacific and Northwest Coastal States. Are 
you aware of that letter?
    Vice Admiral Lautenbacher. I was not aware until about an 
hour before this hearing, so I would love to have it referred 
to me to help be able to work the problem.
    Ms. Hooley. Okay, and I will make sure that you get a copy 
of that letter.
    Vice Admiral Lautenbacher. Thank you.
    Ms. Hooley. All right, and I just want to know, again, and 
I think I have already heard your commitment that you will 
fully fund what the statutory requirement is, which is 27 
percent for the fiscal funds. Okay, another question is when 
were you planning on informing the State geologists of the plan 
to provide the States with their full 27 percent share? I had 
staff speak to our State geologists last Wednesday, and she 
wasn't aware of any funding plan at this time. Can you--when do 
you expect to tell the State geologists what you are going to 
do?
    Vice Admiral Lautenbacher. And I am not prepared to answer 
that today----
    Ms. Hooley. Okay.
    Vice Admiral Lautenbacher.--since I only saw this letter an 
hour before the hearing, and I would like to have an 
opportunity to--I understand the--I have read the letter, and 
there is a dispute on how this is being done in terms of 
consultation and who makes the decisions, and we will get 
together, and we will provide an answer that everybody will 
like.
    Ms. Hooley. And sort of on the same line, and then I am 
going to get off on a different subject, because I think 
Representative Wu did a good job of asking and you answering 
the question. There is supposed to be a coordinating committee 
comprised of Federal, State, local, and tribal government 
agencies with some recommendations on this money. Are you aware 
of that, and are you going to use that coordinated committee, 
or do you know what is happening there, Admiral?
    Vice Admiral Lautenbacher. I don't know why it is not 
working properly. I can tell from the letter that it is not 
working properly, and I will look into it personally, and the 
goal is to make it work in accordance with the legislation.

                     Disaster Relief for Fisheries

    Ms. Hooley. Next in line is I am going to talk about 
fisheries, and by the way, thank you very much for--you were 
very helpful last year for our fisheries problem, and I 
appreciate that. In 2005, the commercial salmon fishing season 
was reduced by 60 percent due to the portion examined at the 
Klamath River. Again, several of us wrote to NOAA fisheries 
asking them to expedite the disaster-relief process so that a 
decision and a declaration could be made prior to the 
appropriation process. At first, there was no response, and 
then long after the disaster was made apparent, and then you 
stepped in and helped us out. It looks like this next year is 
going to be the worst year of all, so I am really concerned 
about how quickly we can get this process going, and again, it 
is important for us as we look at appropriations and putting a 
budget together, and I mean the Budget Committee is meeting 
tomorrow, I know, and I will be winding up its business in the 
next couple of months.
    So can you assure us that knowing ahead of time that these 
are going to be some of the worse salmon runs of all, at least 
on the Oregon coast, the Southern Washington coast, and 
Northern California coast, that you can declare a disaster 
earlier and quicker than you have in the past so that people 
can be assure that they are going to get some kind of relief?
    Vice Admiral Lautenbacher. We have--we are very well aware 
of the situation, and we have started work right now to get 
everyone together to ensure that the data can be produced an 
gotten to us as quickly as possible, and our goal is to try to, 
certainly, beat the record that we established two years ago, 
and do a much better job this year in terms of----
    Ms. Hooley. Okay, because it took two years for the checks 
to get out the door.
    Vice Admiral Lautenbacher. I understand. I have alerted the 
Administration, and I am prepared to work as hard as I can with 
the----
    Ms. Hooley. Because the states have a lot of information 
already that I don't think it is necessary to gather that 
information again, and so I would hope that you would work 
closely with the states. Anything we can do to help expedite 
that process, let us know. We want to work with you to make 
that happen, an in a much more timely manner.
    Vice Admiral Lautenbacher. I appreciate that, and I look 
forward to working with you, and we will do our best to meet 
the needs.
    Ms. Hooley. Yes, just remember their mortgages. Their banks 
don't wait for two years for a house payment.
    Again, thank you very much for allowing me to participate 
today, and thank you for answering my questions, and I am 
looking forward to working with you, both on the tsunami and 
the fisheries issues.
    Vice Admiral Lautenbacher. Thank you.
    Chairman Lampson. We have, actually, two series of votes 
that are coming up. We have two votes and then a ten-minute 
debate, and then two more votes following that. That will 
probably take an hour away from here. So let me quickly ask a 
couple of questions. We will be able to dismiss you, Admiral, 
but if the other in the second panel don't mind being patient 
and waiting for us, we will come back and get this done.

                Ocean Surface Winds Vector and QuikSCAT

    I see the budget includes a requested increase for ocean 
vector wind studies. How do these studies relate to the study 
that NASA was supposed to complete last month for options for 
replacing the data we now acquire with QuikSCAT, and given the 
long lead time for developing new operational satellites and 
instruments and the need to identify additional resources to 
finance the acquisition, what is the plan for obtaining these 
if QuikSCAT satellite fails?
    Vice Admiral Lautenbacher. This is the issue of continuity 
of ocean surface winds vector. And first of all, let me say 
that the basic coverage for hurricane warnings is in our 
budget. I want to make sure people understand that we have 
covered the main satellites and the radars, the buoys and 
everything that provides hurricane warnings, so it is all 
there, and advances are made.
    Now in terms of ocean surface winds vector, we have the 
study. It was just delivered. Right now, we are working through 
a cost-benefit analysis. We have been given some information 
from the JPL study, which works for NASA, but they worked for 
us in this case to produce that study. I have looked at it 
preliminarily, and I have asked people to get out to make a 
really detailed cost-benefit analysis and look at all of the 
options for ocean surface wind vector.
    Now, we have two things in place. First of all, QuikSCAT is 
still operating. We have the ASCAT instrument, which is on 
Metop, and that will be operating up to 2020, so that system, 
while it is not perfect, neither is QuikSCAT. QuikSCAT is not 
what our people want. They want something better than QuikSCAT.
    I have negotiated with the Indians, and we are looking at 
the Chinese as well. The Indians are going to launch a 
satellite with a scatterometer on board, so we have ways of 
getting that information. But in the meantime, we are going to 
be doing a cost-benefit analysis, to see whether this 
capability can be put on an airplane, whether you can put it on 
another satellite. Before we come and tell you that we need $3 
billion for a satellite, I want to be sure that we have every 
bit of information that can assure that we have taken the needs 
of the taxpayer and the cost of the system into place.

                 Rule Changes for Red Snapper Fisheries

    Chairman Lampson. Thanks. One final question: as you know, 
a number of my constituents are being impacted by the rule 
changes being implemented for the red snapper fisheries. There 
are apparently very different views on the current status of 
this fishery and real impact of the rules changes on 
maintaining its long-term viability. Is the agency planning to 
undertake new studies to reconcile or resolve some of these 
questions, and how is the information from fishermen in the 
area incorporated into the decisions about how to best manage 
the red snapper fishery?
    Vice Admiral Lautenbacher. Obviously, we are going to 
continue what I would called detailed surveys to ensure that we 
monitor the stocks and the level stocks and the age and the 
distribution of the stocks to ensure that the rules that are in 
place make sense. That will be done continuously and in close 
cooperation with the Gulf Fishery Management Counsel.
    We have asked for more money this year to help get better 
surveys from the recreational fish part of the industry, 
because that is an area of the industry that is not as detailed 
as the commercial side. So I believe that when that is in 
place, that will help us quite a bit to explain the rules that 
we have and why they are important.
    And so we plan to have an all-out press in terms of--we 
also have money for cooperative research in here, which allows 
us to have fishermen do some of the research for us, to make 
sure that they feel part of the system for which they are 
subject for regulation, and that will be another critical part 
of the red snapper issue in the Gulf, which is a big one.
    Chairman Lampson. Thank you very much. Mr. Inglis, you get 
the last word.
    Mr. Inglis. Thank you, Mr. Chairman.

                             NPOESS Funding

    Admiral, last year, if I have got this right, for NPOESS, 
you didn't get an appropriation right, and so this year, it is 
a much larger request. It is $74 million or something?
    Vice Admiral Lautenbacher. That is for the climate sensors.
    Mr. Inglis. Climate sensors, yes.
    Vice Admiral Lautenbacher. We didn't have--because we 
didn't have a plan. I hate to ask people for money before I 
have something I can justify. The White House got NASA and NOAA 
all together and worked together to have a plan. We have the 
plan, and that is why we are asking for the $74 million for the 
climate sensors. We believe we have a justifiable plan that 
will allow for continuity of the instruments and do it in the 
most cost effective way.
    Mr. Inglis. So it is just a matter that this year we have 
got the plan and we are ready to go, and that will make it--and 
does the $74 million put you on track to accomplish what you 
hope to accomplish?
    Vice Admiral Lautenbacher. The $74 million, obviously, is a 
down payment, because we will have to continue the program, but 
that will get us started. We have a program, and we have an 
option for every one of the sensors that was taken off of 
NPOESS. These are the two that we have to do, right now, in one 
way or another. Actually, we have three. We put OMPS-Limb back 
on. I don't want to get too technical, but this is the 
beginning of what I would call a comprehensive program to make 
sure that all of the climate variables that we were unable to 
accommodate at first, because we need that NPOESS satellite up 
as quickly as possible. We are on track to do that. Seventy-
four million dollars, we have to get started with this.
    Mr. Inglis. Got you. Thank you. Thank you, Mr. Chairman.
    Chairman Lampson. Mr. Wu, follow up?
    Mr. Wu. Thank you very much, Mr. Chairman.
    And at this point, I would like to submit for the record a 
written statement. And I would also like to, in addition to 
making the State geologist letter from Oregon, Washington, and 
the State of California available, as Ms. Hooley referred, to 
NOAA, I would also like to submit that letter to the hearing 
record.
    Chairman Lampson. So ordered.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
               Fixing Fiscal Year 2008 Budget Allocations

    Mr. Wu. Mr. Under Secretary, I find it a matter of relief 
that you and NOAA are committed to making this appropriate 
split going forward, the statutorily required 27 percent for 
mitigation and education and other purposes, as specified in 
the statute that we passed in 2006.
    I do want to point out to you that in the Administration 
fiscal year 2009 request--this is going forward now--if--even 
when we back out any funds for the deployment of new buoys, the 
National Tsunami Mitigation Program, the program that we 
specified at 27 percent of this overall line item, it is slated 
to be at less than half the statutorily mandated amount, and I 
just wanted to point that out to you in the forward-going 
fiscal year 2009 budget request.
    Now, the Congress appropriates this money as one unified 
line item, and in the last fiscal year, it was $23 million. But 
I just want to very clearly point out that there is a very 
clear statutory mandate that 27 percent be spent on the 
National Tsunami Mitigation Program, and that we seem to have 
at the least the beginnings of a problem going forward into 
fiscal year 2009, and I want to point that out to you and 
permit you to address any issues you can in fixing fiscal year 
2008 or before, and also anything further you want to say about 
fiscal year 2009.
    Vice Admiral Lautenbacher. And we will, obviously, have a 
better chance of fixing 2009 than I do of fixing 2008, but I am 
committed to fixing both to the best of my ability.
    Mr. Wu. I just want to point out again, best of one's 
ability is not the criterion of success. This is a statutory 
requirement, and this is a black-letter law requirement.
    Vice Admiral Lautenbacher. I understand what you are 
saying. Let me just say for one--it is very difficult to take 
the requirements of a program and deliver something that 
actually does what it is supposed to do, and over here have 
something that, well, five percent has to go there. 27 percent 
has to go there. Sometimes those don't quite match. But I 
understand the 27 percent, and obviously if appropriations and 
Congress want the 27 percent, they are getting 27 percent.
    Mr. Wu. None of these decisions, yours or ours, are easy, 
and that is why the taxpayers sent us here, to deal with some 
of these very difficult issues, and I prefer the first two 
words of your answer. Thank you very much, Mr. Under Secretary. 
Thank you for being here.
    Vice Admiral Lautenbacher. Thank you, Mr. Wu.
    Chairman Lampson. Thank you very much, Mr. Under Secretary. 
This hearing will standing in recess pending the votes. Thank 
you very much.
    [Recess.]
    Chairman Lampson. The Subcommittee on Energy and the 
Environment is back into session, and I want to welcome our 
second panel of witnesses. And thank you very much for your 
patience. Sorry that we had that interruption.
    Mr. David Powner is Director of Information Technology 
Management Issues at the Government Accountability Office. Dr. 
Jack Hayes is the Assistant Demonstrator for the National 
Weather Service at the National Atmospheric Administration. Mr. 
Eugene Juba is Senior Vice President for Finance or the Air 
Traffic Organization at the Federal Aviation Administration. We 
welcome you, gentlemen, and you each have five minutes to 
present your spoken testimony. Your written testimony will be 
included in the record for the hearing, and when you have made 
all of your testimonies, we will begin with questions, and each 
Member will have five minutes to question the panel.
    Mr. Powner, you may begin.

                                Panel II

    STATEMENT OF MR. DAVID A. POWNER, DIRECTOR, INFORMATION 
 TECHNOLOGY MANAGEMENT ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                          OFFICE (GAO)

    Mr. Powner. Thank you, Chairman Lampson and Ranking Member 
Inglis. We appreciate the opportunity to testify this afternoon 
on our report on aviation and weather services completed at 
your request.
    The National Weather Service supports the Federal Aviation 
Administration by providing aviation-related forecasts and 
warnings at air traffic control and route centers across the 
country. These forecasts and warnings include information on 
thunderstorms, air turbulence and icing. These services are 
provided through an interagency agreement that FAA reimburses 
NWS approximately $12 million annually. As requested, I will 
summarize our findings and recommendations from our report 
being released today. Specifically, I will discuss FAA's recent 
efforts to explore options for enhancing these services, FAA's 
efforts to convey to NWS its needs, both agencies efforts to 
ensure quality and measure performance, and our recommendations 
for improvements.
    First, FAA has found, through multiple studies over the 
past several years, that the services provided to them are 
inconsistent, non-standardized, and that collaboration between 
the two agencies has been poor. Given this, FAA has asked NWS 
to explore options to restructure how it provides services and 
to reduce the number of locations that provide them. Clearly, 
FAA is interested in more consistent and improved services and 
has threatened to use private-sector firms and government-
funded laboratories instead of NWS if such services could be 
provided at lower costs. NWS, in response to FAA, has conducted 
prototypes, demonstrating that remote operations are possible 
and effective, but difficult due to cultural and technological 
challenges. In April of last year, these exploratory 
improvement efforts were put on hold while FAA decided to 
better define the services it wants from NWS. In December, at 
the conclusion of our review, FAA delivered a comprehensive set 
of requirements that reiterate existing requirements like daily 
briefings and weather advisories and provide new ones like on-
demand and new forecasting products. NWS is currently 
responding to this set of requirements.
    Turning to quality and performance measurement, our 
findings here are surprising. While interagency agreements 
state that both NWS and FAA have responsibility for assuring 
and controlling the quality of aviation weather observations, 
neither does so consistently. Specifically, neither NWS or FAA 
has developed performance measures and metrics, evaluated 
performance and made improvements. Although some evaluations of 
services are done anecdotally and rated on a rough, zero-to-
four scale, quantitative and objective performance measures, 
such as timeliness, accuracy and false-alarm rates do not 
exist. I say this is surprising because NWS is one of the 
better federal agencies when it comes to performance 
measurement, but NWS does not measure performance for weather 
products and services provided at en route centers.
    We, therefore, made recommendations to both the Secretaries 
of Commerce and Transportation to direct the head of the 
Weather Service and FAA to develop performance measures and 
metrics, conduct evaluations of performance and take the 
necessary action to improve performance. The set of 
requirements that FAA delivered in December have begun to 
define some of these performance measures, but additional work 
is needed here, and baselines will need to be established to 
measure performance.
    Mr. Chairman and Ranking Member Inglis, before summarizing, 
I would like to thank you for your oversight of this important 
issue. Your inquiry into this has resulted in FAA better 
defining its needs from NWS to accomplish its mission, 
improvements in executive-level dialogue between FAA and NWS, 
and it has highlighted a critical area in our government that 
has not been effectively measured and improved, despite this 
arrangement being in operation for over 25 years. Going 
forward, it is essential that FAA and NWS work collaboratively 
to work on future requirements, aggressively work to address 
them, agree on an operational model and a reasonable transition 
timeline, develop additional performance measures, establish 
baselines to measure performance, and aggressively measure and 
make improvements so that FAA has the information it needs to 
effectively manage air traffic.
    Mr. Chairman, this concludes my statement. I would be 
pleased to respond to questions.
    [The prepared statement of Mr. Powner follows:]

                 Prepared Statement of David A. Powner

Aviation Weather: Services at Key Aviation Facilities Lack Performance 
            Measures, But Improvement Efforts Are Under Way

Abstract

    Although interagency agreements between the National Weather 
Service (NWS) and the Federal Aviation Administration (FAA) state that 
both agencies have responsibilities for assuring and controlling the 
quality of aviation weather observations, neither agency consistently 
does so for weather products and services produced at the en route 
centers. In its report being issued today, GAO is making 
recommendations to the Secretaries of Commerce and Transportation to 
ensure that NWS and FAA develop performance measures, evaluate the 
services against those measures, and provide feedback to NWS. FAA has 
begun to address GAO's recommendations. In late December 2007, FAA 
released new requirements for the aviation weather services provided at 
en route centers. These requirements included performance measures and 
methods for evaluating performance and providing feedback to NWS. FAA 
directed NWS to respond by May 2008 and include plans in its response 
for three operational concepts--in its existing configuration located 
at the 21 en route centers, through remote services provided by a 
reduced number of regional facilities, and through remote services 
provided by a single centralized facility. FAA stated that NWS should 
assume a transition time of 90 days for the existing configuration, 180 
days for regionalized services, and one year for a single facility. NWS 
plans to respond to FAA by the May 2008 deadline, but FAA's estimated 
time frames for transitioning to a new operational concept may be 
overly ambitious. Given the importance of accurate and timely weather 
information in air traffic control, it will be important for NWS to 
conduct a thorough evaluation before it transitions to a new 
operational concept in order to ensure that there are no impacts on the 
continuity of air traffic operations and no degradation of weather 
service.

Mr. Chairman and Members of the Subcommittee:

    We appreciate the opportunity to participate in today's hearing to 
discuss our work on the National Weather Service's (NWS) aviation 
weather services. NWS is responsible for providing storm and flood 
warnings and weather forecasts for the United States, its territories, 
and adjacent oceans and waters. NWS's weather products are also a vital 
component of the Federal Aviation Administration's (FAA) air traffic 
control program, providing weather information to local, regional, and 
national air traffic management, navigation, and surveillance systems. 
NWS aviation weather products include forecasts and warnings of 
meteorological conditions that could affect air traffic, including 
thunderstorms, air turbulence, and icing. In addition to providing 
aviation weather products developed at its own facilities, NWS also 
provides staff on-site at each of FAA's en route centers--the 
facilities responsible for controlling high-altitude air traffic 
outside the tower and terminal areas.
    Over the last few years, FAA has been exploring options for 
enhancing the efficiency of the aviation weather services provided at 
its en route centers. In September 2005, the agency asked NWS to 
restructure its services to be more efficient; in response, NWS 
conducted a prototype and proposed restructuring its offices to provide 
services remotely. FAA declined this proposal in favor of making its 
existing requirements more precise. In late December 2007, FAA 
delivered its revised requirements to NWS to improve these services.
    As requested, our testimony summarizes our report being released 
today on NWS's aviation weather services\1\ and provides an update on 
recent efforts to develop aviation weather requirements and performance 
measures. Specifically, we discuss both agencies' efforts to ensure the 
consistency and quality of these services, our recommendations to 
improve these services, FAA's recent efforts to establish requirements 
and performance measures, and NWS's plans for responding to these 
requirements.
---------------------------------------------------------------------------
    \1\ GAO, Aviation Weather: FAA Is Re-evaluating Services at Key 
Centers; Both FAA and the National Weather Service Need to Better 
Ensure Product Quality, GAO-08-258 (Washington, D.C.: Jan. 11, 2008).
---------------------------------------------------------------------------
    The information in this statement is based largely on our work 
supporting the report being released today. In addition, to provide an 
update on the agencies' recent efforts, we reviewed key documents 
completed in December 2007, including a new interagency agreement, 
FAA's requirements, and the accompanying quality assurance plan. We 
compared NWS's tentative next steps with best practices for validating 
requirements and interviewed the NWS official responsible for 
responding to the new requirements. We conducted our work on the report 
and testimony between May 2007 and February 2008, in accordance with 
generally accepted government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives. Additional details on our objectives, 
scope, and methodology are provided in Appendix I.

Results in Brief

    Although interagency agreements between NWS and FAA state that both 
agencies have responsibilities for assuring and controlling the quality 
of aviation weather observations, neither agency consistently does so 
for weather products and services produced at the en route centers. 
Specifically, neither has implemented performance measures and metrics, 
regularly evaluated weather service unit performance, or provided 
feedback to improve these aviation weather products and services. 
Because of this lack of performance tracking and oversight, NWS cannot 
demonstrate the quality or value of its services, and FAA cannot ensure 
the quality of the services it funds. Until both agencies are able to 
measure and ensure the quality of the aviation weather products and 
services at the en route centers, FAA may not be getting the 
information it needs to effectively manage air traffic.
    In our report being released today, we are making recommendations 
to the Secretaries of Commerce and Transportation to ensure that NWS 
and FAA develop performance measures for aviation weather services 
provided at en route centers, evaluate the services against those 
measures, and provide feedback to the NWS staff on how to improve 
services. The Secretary of Commerce agreed with our recommendations and 
stated that the National Oceanic and Atmospheric Administration (NOAA) 
would work with FAA to develop methods for performance monitoring and 
evaluation. The Department of Transportation did not agree or disagree 
with our recommendations, but stated that FAA's revised requirements 
would establish performance measures and evaluation procedures, and 
that FAA would negotiate with NWS to implement them.
    FAA has already begun to address the recommendations noted in our 
report; specifically, in late December 2007, FAA finalized its new 
aviation weather requirements, which include proposed performance 
measures and methods for evaluation. In its requirements, FAA provides 
NWS with an overall vision for aviation weather services that are 
performance-based, standardized, continuous, and have a national scope. 
FAA reiterates its need for existing products and services (such as 
twice-daily briefings), provides revisions to some existing 
requirements, and defines a new graphical forecast product for terminal 
radar approach control facilities. In addition, FAA identifies 
performance measures--such as customer satisfaction and forecast 
accuracy--and processes for evaluating performance and providing 
feedback to NWS. FAA expects NWS to respond as to whether it is able to 
meet the requirements by early May 2008, and has directed NWS to 
include plans for three operational concepts to fulfill the 
requirements--in its existing configuration located at the 21 en route 
centers, through remote services provided by a reduced number of 
regional facilities, and through remote services provided by a single 
centralized facility. FAA plans to select one of the operational 
concepts and NWS will immediately begin to transition to the new 
concept. FAA required that NWS assume a transition time of 90 days if 
it selects the existing configuration, 180 days if it selects the 
regionalized remote services concept, and one year if it selects the 
single facility concept.
    NWS plans to respond to FAA by the May 2008 deadline, but FAA's 
estimated time frames for providing the revised services may be overly 
ambitious. NWS created a team to analyze FAA's requirements and to 
develop a response package for all three operational concepts. The NWS 
official responsible for aviation services reported that the agency is 
on track to respond by FAA's deadline of May 2008. However, FAA's 
estimated time frames for transitioning to a new operational concept 
may be overly ambitious. Given the importance of accurate and timely 
weather information in air traffic control, it will be important for 
NWS to conduct a thorough evaluation before it transitions to a new 
operational concept in order to ensure that there are no impacts on the 
continuity of air traffic operations and no degradation of weather 
service.

Background

    FAA is responsible for ensuring safe, orderly, and efficient air 
travel in the national airspace system. NWS supports FAA by providing 
aviation-related forecasts and warnings at air traffic facilities 
across the country. Among other support and services, NWS provides four 
meteorologists at each of FAA's 21 en route centers to provide on-site 
aviation weather services. This arrangement is defined and funded under 
an interagency agreement.

FAA's Mission and Organizational Structure

    FAA's primary mission is to ensure safe, orderly, and efficient air 
travel in the national airspace system. The agency's ability to fulfill 
its mission depends on the adequacy and reliability of its air traffic 
control systems, as well as weather forecasts made available by NWS and 
automated systems. These resources reside at, or are associated with, 
several types of facilities: air traffic control towers, terminal radar 
approach control facilities, air route traffic control centers (en 
route centers), and the Air Traffic Control System Command Center. The 
number and functions of these facilities are as follows:

        <bullet>  517 air traffic control towers manage and control the 
        airspace within about five miles of an airport. They control 
        departures and landings, as well as ground operations on 
        airport taxiways and runways.

        <bullet>  170 terminal radar approach control facilities 
        provide air traffic control services for airspace within 
        approximately 40 miles of an airport and generally up to 10,000 
        feet above the airport, where en route centers' control begins. 
        Terminal controllers establish and maintain the sequence and 
        separation of aircraft.

        <bullet>  21 en route centers control planes over the United 
        States--in transit and during approaches to some airports. Each 
        center handles a different region of airspace. En route centers 
        operate the computer suite that processes radar surveillance 
        and flight planning data, reformats them for presentation 
        purposes, and sends them to display equipment that is used by 
        controllers to track aircraft. The centers control the 
        switching of voice communications between aircraft and the 
        center, as well as between the center and other air traffic 
        control facilities. Two en route centers also control air 
        traffic over the oceans.

        <bullet>  The Air Traffic Control System Command Center manages 
        the flow of air traffic within the United States. This facility 
        regulates air traffic when weather, equipment, runway closures, 
        or other conditions place stress on the national airspace 
        system. In these instances, traffic management specialists at 
        the command center take action to modify traffic demands in 
        order to keep traffic within system capacity.

    See Figure 1 for a visual summary of the facilities that control 
and manage air traffic over the United States.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


NWS's Mission and Organizational Structure

    The mission of NWS--an agency within the Department of Commerce's 
NOAA--is to provide weather, water, and climate forecasts and warnings 
for the United States, its territories, and its adjacent waters and 
oceans to protect life and property and to enhance the national 
economy. In addition, NWS is the official source of aviation- and 
marine-related weather forecasts and warnings, as well as warnings 
about life-threatening weather situations.
    The coordinated activities of weather facilities throughout the 
United States allow NWS to deliver a broad spectrum of climate, 
weather, water, and space weather services in support of its mission. 
These facilities include 122 weather forecast offices located across 
the country that provide a wide variety of weather, water, and climate 
services for their local county warning areas, including advisories, 
warnings, and forecasts; nine national prediction centers\2\ that 
provide nationwide computer modeling to all NWS field offices; and 21 
center weather service units that are located at FAA en route centers 
across the Nation and provide meteorological support to air traffic 
controllers.
---------------------------------------------------------------------------
    \2\ These centers include the National Centers for Environmental 
Prediction Central Operations, Aviation Weather Center, Environmental 
Modeling Center, Hydrometeorological Prediction Center, Ocean 
Prediction Center, Storm Prediction Center, Tropical Prediction Center/
National Hurricane Center, Climate Prediction Center, and Space 
Environment Center.
---------------------------------------------------------------------------

NWS Provides Aviation Weather Services to FAA

    As an official source of aviation weather forecasts and warnings, 
several NWS facilities provide aviation weather products and services 
to the FAA and aviation sector. These facilities include the aviation 
weather center, weather forecast offices located across the country, 
and center weather service units located at FAA en route centers. See 
Table 1.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Center Weather Service Units: An Overview of Current Requirements

    FAA's existing requirements for the center weather service units 
are broadly outlined in an interagency agreement that is updated every 
few years. The interagency agreement specifies that NWS is to provide 
meteorological advice and consultation to en route center operations 
personnel and other designated FAA air traffic facilities within the en 
route area of responsibility. This agreement establishes specific terms 
that govern the number of NWS staff, their working hours, and cost 
reimbursement details. It does not specify the contents, quality, or 
frequency of weather products.
    An NWS directive, signed in May 2006 and intended for NWS's weather 
forecast offices and center weather service units, provides more 
specific information regarding the content of weather products and 
services, including center weather advisories, daily briefings, on-
demand consultations, and meteorological impact statements. These 
products and services are described in Table 2. In addition, center 
weather service unit meteorologists can provide input every two hours 
to the Aviation Weather Center's creation of the Collaborative 
Convective Forecast Product; train FAA personnel on how to interpret 
weather information; and, if warranted, provide weather briefings to 
nearby terminal radar approach control facilities.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


FAA Sought to Improve Aviation Weather Services Provided at En Route 
                    Centers

    In recent years, FAA has sought to assess and improve the 
performance of the center weather service units.\3\ For example, FAA 
performed multiple studies on the current services provided by the 
center weather service units that noted the lack of standardization of 
products and services. In addition, FAA conducted a study to determine 
if remote operations were feasible, and requested that NWS restructure 
its aviation weather services to provide improved services more 
efficiently. In response to this request, NWS conducted a prototype of 
remote operations in which center weather service unit products and 
services were prepared by the closest weather forecast office. NWS 
proposed expanding this prototype to FAA, but the agency declined this 
proposal. Instead, FAA stated that it would redefine its requirements 
for the functions provided by center weather service units. Table 3 
provides more information about the agency's assessment and improvement 
efforts.
---------------------------------------------------------------------------
    \3\ FAA is also involved in a longer-term initiative to increase 
the efficiency of the national airspace system and to improve its 
overall safety. This initiative, called the Next Generation Air 
Transportation System, is a joint effort of the Department of 
Transportation, the National Aeronautics and Space Administration, the 
White House Office of Science and Technology Policy, and the 
Departments of Homeland Security, Defense, and Commerce. FAA 
anticipates that this initiative may lead to major changes in the 
aviation weather program that would supersede its current efforts.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


FAA Found Its Requirements Were Not Sufficiently Precise and Worked to 
                    Develop New Ones

    When FAA declined NWS's proposal for restructured aviation weather 
services, it did so in part because it considered its existing 
requirements governing NWS's center weather service units to be too 
broad to ensure the efficiency and cost-effectiveness of the services. 
FAA then worked for several months to redefine these requirements. In 
April 2007, FAA's Air Traffic Organization began refining its 
requirements for aviation weather services at the en route centers. To 
do this, FAA collected relevant NWS and FAA orders and directives and 
developed a list of over 100 products and services that the different 
service units provide. FAA then sent this list to traffic managers in 
each of the en route centers, asking them to specify the products and 
services that they need, the ones they do not need, and any new 
products or services that they would like. Traffic managers were also 
able to determine if they would want some of the more customized 
weather products that are currently available at selected en route 
centers. Using results from this survey, FAA developed a revised list 
of requirements and performance measures, which it provided to NWS in 
late December 2007.

Neither NWS nor FAA Currently Ensures the Quality of Aviation Weather 
                    Services at En Route Centers

    While interagency agreements between NWS and FAA state that both 
agencies have responsibilities for assuring and controlling the quality 
of aviation weather observations, neither NWS nor FAA consistently does 
so for weather products produced at the en route centers. Leading 
organizations use quality assurance to provide staff and management 
with objective insights into processes and associated work products.\4\ 
Generally, quality assurance includes objectively evaluating performed 
processes, work products, and services against applicable process 
descriptions, standards, and procedures; identifying and documenting 
noncompliance issues; providing feedback to project staff and managers 
on the results of quality assurance activities; and ensuring that 
noncompliance issues are addressed. However, neither NWS nor FAA has 
developed and implemented performance measures and metrics, regularly 
evaluated weather service unit performance, or provided feedback to 
improve these aviation weather products and services.
---------------------------------------------------------------------------
    \4\ The Carnegie Mellon University's Software Engineering Institute 
is recognized for its expertise in software and system processes. See 
Carnegie Mellon University Software Engineering Institute, Capability 
Maturity Model Integration for Development Version 1.2 (Pittsburgh, 
PA: August 2006).
---------------------------------------------------------------------------
    Because of this lack of performance tracking and oversight, NWS 
cannot demonstrate the quality or value of its services, and FAA cannot 
ensure the value of the services it funds. As a result, it is not clear 
that FAA is getting the information it needs to effectively manage air 
travel. FAA officials stated that they intend to establish performance 
measures for their redefined requirements and to improve their 
oversight against these measures. However, FAA has not worked with NWS 
to define a comprehensive set of measures for its requirements, and it 
is unclear how the agency would develop a performance baseline for 
comparison to actual performance because many of the products and 
services have not previously been measured.

NWS Does Not Measure or Evaluate Aviation Weather Products and Services 
                    at En Route Centers

    NWS does not measure or evaluate the aviation weather services it 
provides at en route centers. Under existing interagency agreements, 
NWS is responsible for controlling the quality of its aviation weather 
observations. Specifically, the agency is responsible for monitoring 
and evaluating the quality and effectiveness of its aviation weather 
services, including the services provided at the weather forecast 
offices, the Aviation Weather Center, and the en route centers.
    While NWS has developed and continues to monitor performance 
measures for aviation weather forecasts provided by its weather 
forecast offices and the Aviation Weather Center, the agency has not 
done so for the weather products and services provided at the en route 
centers. Specifically, NWS has not developed performance measures for 
aviation weather products and services at en route centers, evaluated 
the aviation weather products and services developed at the en route 
centers, or provided feedback for those services. NOAA and NWS 
officials declined to explain why the agency does not have performance 
measures for aviation weather products or services at en route centers, 
but they noted that neither FAA nor NWS has required or funded such an 
effort. Further, the aviation services branch chief told us that he had 
planned to begin evaluations for weather unit services at the en route 
centers but decided to wait because of the potential for large-scale 
changes to the services.
    Until NWS establishes performance measures and evaluates the 
quality and effectiveness of its products against these measures, the 
agency will remain unable to ensure that it provides consistent quality 
products and to effectively demonstrate the value it provides to FAA.

FAA Does Not Consistently Evaluate or Provide Feedback on Aviation 
                    Weather Services at En Route Centers

    FAA has not consistently evaluated NWS services at its en route 
centers or adequately provided feedback on the results of its few 
evaluations. Under interagency agreements, FAA is responsible for 
ensuring that aviation weather services meet its requirements. In 
addition, it requires the traffic management officer within each 
traffic management unit to evaluate the aviation weather services at 
the en route centers annually and to provide feedback to the resident 
meteorologist-in-charge.
    FAA has not consistently ensured the quality of aviation weather 
services at en route centers. Specifically, it currently does not have 
any quantitative and objective performance measures--such as 
timeliness, accuracy, or false alarm rate--by which to evaluate these 
services. Agreements between the agencies broadly specify the types of 
aviation weather products to be developed at the en route centers but 
do not provide criteria by which these products can be evaluated. In 
addition, FAA has not consistently performed its annual evaluations of 
these products and services. According to the contracting officer's 
technical representative responsible for the evaluations, the last 
evaluation was performed in 2006, and its results were largely 
anecdotal. Specifically, the evaluation called for the traffic 
management officer to rate the weather unit on a scale of 0 to 4 in 
different categories, including quality and timeliness of products and 
services, knowledge of air traffic control, and participation in 
training. The technical representative could not find any evaluations 
in 2005, evaluations of only three service units in 2004, and 
evaluations of a similarly small number of service units in 2003.
    Further, FAA is not consistently providing feedback to weather 
staff at the en route centers. According to the technical 
representative, the evaluations from 2006 were not compiled or analyzed 
because the evaluations contained no glaring problems or issues that 
needed additional attention. In addition, the NWS aviation services 
chief told us that FAA had sent him copies of the evaluations from 2006 
but did not offer analysis of these evaluations, express concerns about 
the services, or send the results to the individual center weather 
service units. This official also stated that he was not aware that FAA 
had performed any annual evaluations of the center weather service 
units prior to 2006.
    Because FAA has not established performance requirements or 
consistently and thoroughly evaluated the aviation weather services at 
en route centers, the agency cannot be sure that the products and 
services provided by the weather unit meteorologists are adding value, 
and it cannot provide feedback to NWS meteorologists in order to 
improve the services. To address this shortfall, FAA officials stated 
that they intend to establish performance measures for aviation weather 
services at en route centers when they revise their requirements and to 
improve their oversight of NWS against these measures. However, FAA has 
not worked with NWS to develop measures for the products and services 
it will require from NWS, and it is unclear how the agency would 
develop a performance baseline for comparison to actual performance 
because many of the products and services have not previously been 
measured.

Implementation of GAO Recommendations Should Help Address Performance 
                    Measurement Shortfalls

    While many steps remain in defining the future of aviation weather 
services at en route centers--including negotiations between FAA and 
NWS on the provision of these services and FAA's subsequent decision on 
whether to obtain selected services from alternative sources--there are 
steps both agencies can take to ensure that the quality of future 
aviation weather products and services is measured and evaluated. In 
our accompanying report released today,\5\ we made two recommendations 
to the Secretary of Commerce and three recommendations to the Secretary 
of Transportation to improve the quality of aviation weather products 
and services at en route centers.
---------------------------------------------------------------------------
    \5\ GAO-08-258.
---------------------------------------------------------------------------
    We recommended that the Secretary of Commerce direct the Assistant 
Administrator for the National Weather Service to

        <bullet>  assist FAA in developing performance measures and 
        metrics for the products and services to be provided by center 
        weather service units, and

        <bullet>  perform annual evaluations of aviation weather 
        services provided at en route centers and provide feedback to 
        the center weather service units.

    Further, we recommended that the Secretary of the Department of 
Transportation direct the FAA Administrator to

        <bullet>  work with NWS to define performance measures and 
        metrics for aviation weather services provided by 
        meteorologists,

        <bullet>  evaluate the services it receives against those 
        measures and metrics, and

        <bullet>  ensure that results of these evaluations are provided 
        to staff stationed at center weather service units so that they 
        can improve performance, where applicable.

    In written comments on a draft of our report, the Secretary of 
Commerce agreed with our recommendations to assist FAA in developing 
performance measures and metrics, and to perform annual evaluations of 
aviation weather services and provide feedback to the center weather 
service units. The department stated that after FAA provides its 
revised requirements, it would work with FAA to develop methods for 
performance monitoring and evaluation. Subsequently, on December 19, 
2007, FAA provided its revised requirements to NWS.
    The Department of Transportation's Director of Audit Relations 
provided comments on a draft of the report via e-mail. In those 
comments, the department did not agree or disagree with our 
recommendations. The department stated that FAA's revised requirements 
are consistent with our recommendations in that they establish 
performance measures and evaluation procedures, and that FAA would 
begin to negotiate with NWS to implement them. In addition, in late 
December 2007, after reviewing our draft report, FAA and NWS signed a 
new interagency agreement that requires FAA to develop performance 
standards and measures for the assessment of center weather service 
units, and requires NWS to develop and track metrics to support FAA's 
performance measures.

FAA Identified New Aviation Weather Requirements and Performance 
                    Measures

    FAA has already begun to address our recommendations; specifically, 
in late December 2007, FAA finalized its new requirements for the 
aviation weather services to be provided by center weather service 
units, which include proposed performance measures and methods for 
evaluation. In its requirements, FAA provides NWS with its overall 
vision for aviation weather services, revises existing requirements, 
and defines a requirement for a new product for terminal radar approach 
control facilities. In addition, FAA identifies performance measures 
and processes for evaluating performance and providing feedback to NWS.
    FAA envisions services that are performance-based, standardized, 
continuous, and have a national scope. Specifically, FAA requires 
performance-based services that are measurable and allow for 
identifying both successful performance and any performance problems. 
In addition, FAA requests that the center weather service units provide 
standardized services to all en route centers and increase their 
service coverage from 16 hours a day to 24 hours a day. Finally, FAA 
calls for transitioning the scope of the center weather service units 
to monitor the entire national airspace system, rather than the 
respective en route center regions. This national scope is expected to 
allow more integrated decision-making at the national level while 
continuing to provide specialized products at the regional and local 
levels.
    In its new requirements, FAA also reiterates its need for existing 
products and services and provides revisions to some of these 
requirements. Specifically, FAA continues to require products such as 
twice-daily briefings, center weather advisories, and the Collaborative 
Convective Forecast Product. In addition, center weather service units 
will continue to provide forecast coordination with other NWS offices, 
on-demand advice and consultation, emergency planning, training, and 
dissemination of a number of weather advisories into both NWS and FAA 
systems. Daily briefings, however, will now be recorded, verified, and 
disseminated to other facilities that do not receive an in-person 
briefing. In addition, on-demand consultation will be provided to en 
route centers, terminal radar approach control facilities, towers, and 
the Air Traffic System Command Center. According to the aviation 
services branch chief, this consultation is currently provided only to 
en route centers, selected terminal radar approach control facilities, 
and a small number of towers.
    Further, the revised requirements define a new product: the 
terminal radar approach control forecast product. This product is based 
in part on decision aids currently used in select center weather 
service units, and on requirements developed by a team consisting of 
aviation meteorological stakeholders from industry and FAA. This 
forecast, which describes the next six hours and is updated at least 
every two hours, will be presented in a graphical format and include 
convection, winds, ceilings, and visibilities for the area around 
terminal radar approach control facilities. FAA also expects this 
product to include methods for verification and the systematic 
collection of user feedback.
    In addition to these requirements, FAA identifies performance 
measures as well as processes for evaluating performance and providing 
feedback to the forecasters. These performance measures include 
customer satisfaction, forecast accuracy, and the aggregate of aircraft 
incidents attributed to inaccurate aviation weather forecasts. 
Baselines for all of these measures have not yet been developed. 
According to the chief of the aviation services branch, NWS will 
propose additional performance measures and develop baselines as it is 
able. To measure against these performance measures, FAA has identified 
methods by which to evaluate NWS. For example, to determine customer 
satisfaction, FAA plans to develop a questionnaire for traffic 
management unit staff to be filled out quarterly; to determine the 
aggregate of aircraft incidents attributed to inaccurate aviation 
weather forecasts, FAA is to use safety statistics currently tracked by 
the Air Traffic Organization. In addition, FAA is planning to draw on 
NWS's subject matter expertise to record and analyze information to 
determine the accuracy of forecasts.
    FAA expects NWS to respond as to whether it is able to meet the 
requirements by early May 2008. In addition, FAA directed NWS to 
include plans for three operational concepts (including technical and 
cost information) for fulfilling the requirements--in its existing 
configuration located at the 21 en route centers, through remote 
services provided by a reduced number of regional facilities, and 
through remote services provided by a single centralized facility. 
According to the requirements, NWS's response should assume a 
transition time of 90 days for the existing configuration, 180 days for 
regionalized remote services, and one year for a single facility. For 
each of these concepts, FAA has requested that NWS include a technical 
plan, a facilities plan, a quality management plan, and a plan for 
transitioning to the new approach. In addition, FAA asked that NWS 
include cost plans for each of the concepts with the assumption of one 
base year and four one-year options thereafter. The cost plan is also 
expected to include estimated annual cost savings over this five-year 
period. FAA plans to select one of these operational concepts.

NWS Plans to Respond to FAA's Requirements, But Proposed Transition 
                    Timeframes May Be Overly Ambitious

    NWS plans to respond to FAA by the May 2008 deadline, but FAA's 
estimated time frames for providing the revised services may be overly 
ambitious. NWS plans to submit its proposals for the three operational 
concepts--the existing configuration located at the 21 en route 
centers, remote services provided by a reduced number of regional 
facilities, and remote services provided by a single centralized 
facility. FAA directed NWS to assume a transition time of 90 days for 
the existing configuration, 180 days for regionalized remote services, 
and one year for a single facility. To respond, NWS management created 
a team to analyze the requirements, gain clarification on the 
requirements from FAA, and develop the response. The NWS aviation 
services branch chief reported that the agency is on track to respond 
by May 2008.
    However, FAA's proposed time frames for transitioning to a new 
operational concept may be overly ambitious because of the activities 
that NWS should perform before any transition. In accordance with best 
practices and the opinion of the National Transportation Safety Board, 
NWS intends to validate that the organization can provide these new 
requirements--through a prototype or similar demonstration--before 
transitioning to a new approach. Leading organizations validate 
requirements to determine what impact the intended operational 
environment will have on the ability to satisfy the stakeholders' 
needs, expectations, constraints, and interfaces. As part of this 
validation, organizations explore the adequacy and completeness of 
requirements by developing prototypes or simulations and by obtaining 
feedback about them from relevant stakeholders. Given the importance of 
accurate and timely weather information in air traffic control, it will 
be important for NWS to conduct a thorough evaluation before it 
transitions to a new operational concept in order to ensure that there 
are no impacts on the continuity of air traffic operations and no 
degradation of weather service.
    In addition, NWS has agreed to negotiate with its employees' union, 
the National Weather Service Employees Organization, whenever 
organizational changes could affect working conditions--unless the 
union has sufficient pre-decisional involvement. NWS's employees' union 
has a representative on the team that is responding to FAA's 
requirements, so that later negotiations may be unnecessary. However, 
it is too soon to determine whether negotiations will be needed and how 
long they will take.
    NWS's aviation services branch chief agreed that FAA's transition 
time lines would be challenging. This official estimated that it could 
take over two years to transition to a new operational concept. To 
address this disconnect between NWS's capabilities and FAA's 
expectations, NWS plans to propose more feasible time frames in its 
response to FAA. FAA officials reported that the agency will be open to 
NWS's proposal.
    In summary, even though center weather service units have been in 
operation for over two decades, neither FAA nor NWS has implemented 
performance measures and metrics, regularly evaluated weather service 
unit performance, or provided feedback to improve these aviation 
weather products and services. Until the agencies establish a system of 
performance tracking and oversight, NWS will not be able to demonstrate 
the quality or value of its services, and FAA will not be able to 
ensure the value of the services it funds. To address these shortfalls, 
FAA has defined more precise requirements that include performance 
measures and evaluation methods, and NWS is working to respond to these 
requirements. In its response, NWS is expected to prepare plans for 
three alternative operational concepts for fulfilling these 
requirements. FAA will choose one of the concepts. However, FAA's 
proposed time frames for transitioning to a new operational concept may 
be overly ambitious. Given the potential for major changes to services 
and structure, NWS may require additional time to properly validate the 
requirements, plan for any necessary operational transitions, and 
ensure that aviation weather services are not degraded by any potential 
changes.
    Moving forward, it is important that FAA and NWS work together to 
ensure that NWS's aviation weather services address requirements and 
that effective performance measures and evaluation methods are 
established. This collaboration will help both agencies ensure the 
quality and consistency of these services, and ensure that FAA has the 
information it needs to effectively manage air traffic.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you or Members of the Subcommittee may have 
at this time.

Appendix I:

                   Objectives, Scope, and Methodology

    The objectives of this statement were to summarize selected 
sections of our report\6\ being released today, including National 
Weather Service (NWS) and Federal Aviation Administration (FAA) efforts 
to ensure the consistency and quality of aviation weather services at 
en route centers, and our recommendations to improve these services. In 
addition, we were asked to provide an update on FAA's recent efforts to 
develop aviation weather requirements and performance measures, and 
NWS's plans for responding to these requirements.
---------------------------------------------------------------------------
    \6\ GAO, Aviation Weather: FAA Is Re-evaluating Services at Key 
Centers; Both FAA and the National Weather Service Need to Better 
Ensure Product Quality, GAO-08-258 (Washington, D.C.: Jan. 11, 2008).
---------------------------------------------------------------------------
    To summarize selected sections of our report, we relied on the work 
supporting that report. That report contains a detailed overview of our 
scope and methodology.
    In addition, to provide an update on FAA's recent efforts to 
establish requirements, we reviewed the new interagency agreement 
signed by both agencies in late December 2007; FAA's requirements sent 
to NWS on December 19, 2007; and the accompanying quality assurance 
plan. We also interviewed NWS's aviation services branch chief to 
clarify which of these requirements were new and which were revisions 
of current requirements.
    To determine NWS's plans for responding to these requirements, we 
reviewed the new interagency agreement, FAA's requirements, and the 
accompanying quality assurance plan. We also interviewed the aviation 
services branch chief, who is serving in an oversight role for NWS's 
response to FAA. We compared NWS's tentative next steps with best 
practices for validating requirements from the Capability Maturity 
Model Integration for Development.
    We performed our work on the report and testimony from May 2007 to 
February 2008. All of the work on which this testimony is based was 
performed in accordance with generally accepted government auditing 
standards. Those standards require that we plan and perform the audit 
to obtain sufficient, appropriate evidence to provide a reasonable 
basis for our findings and conclusions based on our audit objectives. 
We believe that the evidence obtained provides a reasonable basis for 
our findings and conclusions based on our audit objectives.

                     Biography for David A. Powner
    Dave is currently responsible for a large segment of GAO's 
information technology (IT) work, including systems development, IT 
investment management, and cyber critical infrastructure protection 
reviews. He has nearly 20 years of both public and private information 
technology-related experience. In the private sector, he held several 
executive-level positions in the telecommunications industry, including 
overseeing IT and financial internal audits, and software development 
associated with digital subscriber lines (DSL). At GAO, he has led 
reviews of major IT modernization efforts at Cheyenne Mountain Air 
Force Station, the National Weather Service, the Federal Aviation 
Administration, and the Internal Revenue Service. These reviews covered 
many information technology areas including software development 
maturity, information security, and enterprise architecture. Dave has 
an undergraduate degree from the University of Denver in Business 
Administration and is a graduate of the Senior Executive Fellows 
program at Harvard University's John F. Kennedy School of Government.

    Chairman Lampson. Thank you, Mr. Powner. Dr. Hayes, you are 
recognized for five minutes.

  STATEMENT OF DR. JOHN L. HAYES, ASSISTANT ADMINISTRATOR FOR 
WEATHER SERVICES; DIRECTOR, NATIONAL WEATHER SERVICE, NATIONAL 
  OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF 
                            COMMERCE

    Dr. Hayes. Thank you, Mr. Chairman and Ranking Member 
Inglis for the opportunity to testify on the National Weather 
Service provision of aviation weather information to the 
Federal Aviation Administration.
    The Weather Service has a critical role in providing 
weather information to the FAA in support of their mission to 
ensure safe and efficient operation of the national airspace 
system, and we are committed to providing quality aviation 
services. We provide warnings, forecasts, meteorological 
advice, and consultation throughout all phases of flight, 
including preflight, planning and operations. These services 
come from many weather service office, including our weather 
forecast offices, the Alaska Aviation Weather Office, the 
Volcanic Ash Advisory Centers, the Aviation Weather Center in 
Kansas City, and the center weather service units, or CWSUs for 
short.
    Let me focus on CWSUs. Weather service forecasters at these 
units provide aviation advisories, forecasts and advice to air 
traffic controllers. The CWSUs are located at each of 21 FAA 
air traffic control centers. CWSUs operate 16 hours per day, 
when air traffic is at its peak, and that is typically between 
5:00 a.m. and 9:30 p.m., local time, seven days a week.
    If weather conditions pose a threat to a center's area of 
responsibility, additional hours may be required, and we 
provide the necessary staff and service. In 2007, the 
Government Accounting Office reviewed aviation weather services 
provided to the FAA through our CWSUs. Its draft report 
provides a status of NWS plans for aviation weather services at 
FAA air-route traffic control centers. The GAO report states 
that we do not have formal performance measure or a formal 
quality-assurance program for our CWSU products and services.
    It is important to note that the Weather Service does 
monitor and evaluate aviation products and services. Though we 
agree with the GAO that there are shortfalls at our CWSUs, our 
program does include two aviation Government Performance and 
Results Act, GPRA measures, one for ceiling and one for 
visibility forecasts, both of which can have a primary impact 
on takeoff and landing operations, and we have other product 
and service quality metrics. We also have in place a subjective 
assessment of CWSU operations, conducted by the local FAA 
traffic-management unit. These assessments are provided to FAA 
and weather service management.
    Now, the GAO analysis also identified shortcomings and 
variability in some of the existing weather support for the 
FAA. Prior to the GAO's review, we were taking steps to improve 
CWSU products and services, and we had made good progress at 
our unit in Dallas-Fort Worth in the ARTCC. And we are using it 
as a model for where to take all CWSUs.
    We are also taking immediate action to address issues 
identified in the GAO report. We will implement changes in the 
coming year to improve CWSU services to the FAA. Some specific 
include formal site visits and new standardized weather service 
equipment and forecast applications together with collaboration 
tools, which will address product and service consistency 
shortfalls. We have already begun working to implement CWSU 
best practices at all CWSUs, and we are focused on improving 
consistency between the various aviation forecast warnings and 
advisories.
    The GAO has made two recommendations to NOAA. First, assist 
the FAA in developing performance measures and metrics for 
products and services to be provided by center weather service 
units. Second, perform annual evaluations of aviation weather 
services provided to en route centers and provide feedback to 
Center Weather Service Units. We agree with these 
recommendations.
    Though we have measures and metrics to assess aviation 
products and services, which think the improvements which the 
GAO recommends will improve CWSU products and services, and we 
are currently working with the FAA to develop additional 
performance measures and metrics and to improve our annual 
evaluation of aviation weather services at the Weather Service 
units.
    On January 10, 2008, the FAA submitted to the Weather 
Service specific requirements for CWSU support. I chartered a 
team to develop solution to meet the FAA requirements, and we 
are conducting a comprehensive analysis. As part of this 
process, we have an ongoing dialogue with the FAA at various 
levels to ensure that we are correctly interpreting their 
requirements and to ensure that our response is optimally 
focused on meeting the aviation need. The Weather Service 
response is due to the FAA by May 7, 2008, and the FAA has 
promised us they will reply by August 7, 2008.
    In addition to looking at the future of our roles and 
services at CWSUs, NOAA, through the Weather Service, is also 
actively engaged in the Next Generation Air Transportation 
System, NextGen for short. We participate on the joint planning 
and development office board and provide leadership for the 
weather working group. We recognize that NextGen will result in 
a system-wide transformation. This includes the manner by which 
weather-related information is collected, managed, decimated, 
and used in decision-making. We also recognize the need for 
close coordination within the federal weather community to meet 
the NextGen weather support needs.
    NOAA is committed to a long-term partnership with the FAA 
and the rest of the federal community to make this happen. The 
support NWS provides helps FAA create a national airspace 
system that is safe, efficient, and cost effective for the 
people of this country. Thank you for the opportunity, and I am 
happy to answer any questions you might have.
    [The prepared statement of Dr. Hayes follows:]

                  Prepared Statement of John L. Hayes

    Thank you, Mr. Chairman and Members of the Committee, for this 
opportunity to testify on the National Weather Service's provision of 
aviation weather information to the Federal Aviation Administration 
(FAA). I am Jack Hayes, Assistant Administrator for Weather Services 
and the Director of the National Weather Service (NWS). The Weather 
Service is a line office of the National Oceanic and Atmospheric 
Administration (NOAA), within the Department of Commerce (DOC).
    The NWS has a long history of providing weather support for 
aviation. In 1914, eleven years after the first manned flight by the 
Wright brothers, the U.S. Weather Bureau, the predecessor agency to 
NOAA's NWS, established an aerological section to provide weather 
forecasts specifically to meet the growing needs of aviation. In 1918 
the Weather Bureau issued its first aviation weather forecast--for the 
Aerial Mail Service route from New York to Chicago. Today, forecasters 
across the Nation comprise the aviation weather forecast team, 
including meteorologists at 122 local Weather Forecast Offices (WFOs), 
21 Center Weather Service Units (CWSUs), the Aviation Weather Center 
(AWC) in Kansas City, Missouri; and the Alaska Aviation Weather Unit 
(AAWU) in Anchorage, Alaska.
    In 1994, Public Law 103-272 directed the Secretary of Commerce to 
provide weather support for aviation and to give complete consideration 
to the recommendations of the FAA Administrator in doing so (49 USC 
44720, Sec. (a) ):

         ``The Administrator of the Federal Aviation Administration 
        shall make
    recommendations to the Secretary of Commerce on providing 
meteorological services necessary for the safe and efficient movement 
of aircraft in air commerce. In providing the services, the Secretary 
shall cooperate with the Administrator and give complete consideration 
to those recommendations.''

    The NWS has an extensive infrastructure supporting its products and 
services. NWS issues more than a trillion forecasts, and 10,000 
warnings annually. Every day we process 1.7 billion surface and upper 
air observations from across the country and around the globe. These 
data are assimilated into complex computer models providing the 
backbone of weather information for all--government and private weather 
forecasters both nationally and internationally. The aviation industry 
is but one user of this vast array of weather information used for 
flight planning and safety.
    The National Airspace System (NAS) is comprised of a system of 
airports, control towers, and other control centers, including Air 
Route Traffic Control Centers (ARTCC), working around the clock, 365 
days a year, moving the country's people and goods around the United 
States. On an average day, nearly 50,000 flights transit the NAS. 
Flights include general aviation, commercial air carrier, air taxi, 
military, and cargo flights. Depending on the departure point, the 
length of time in flight, and the destination, each flight will 
encounter a variety of meteorological conditions.
    Keeping aircraft away from hazardous weather in all phases of 
flight is a key to air safety. The NWS has a critical role in providing 
weather information for safe and efficient operations in the NAS and in 
support of the FAA's mission. NWS provides warnings, forecasts, 
meteorological advice, and consultation for partners and customers 
throughout all phases of flight--pre-flight, planning, and operations. 
In order to mitigate weather-induced disruptions to the NAS, the FAA, 
in conjunction with other NAS stakeholders, relies on this information 
as one of the elements in the traffic flow management planning process.
    NWS and the Meteorological Office of the United Kingdom provide 
international flight planning forecasts and internationally required 
meteorological forecast parameters for global aeronautical operations 
via the World Area Forecast System as requested by the International 
Civil Aviation Organization. We operate three Meteorological Watch 
Offices: in Kansas City, Missouri; in Anchorage, Alaska; and in 
Honolulu, Hawaii--to help provide these warning, forecast, and advisory 
services for the national and international aviation community. The 
Alaska Meteorological Watch Office is part of the Alaska Aviation 
Weather Office (AAWU). Also part of the AAWU is the Alaska Volcanic Ash 
Advisory Center. NOAA operates two of the nine worldwide Volcanic Ash 
Advisory Centers, one in Washington, D.C. and the other in Anchorage, 
Alaska. Volcanic Ash Advisory Centers are the focal points for 
gathering and evaluating information on volcanic eruptions that could 
affect air travel. The Volcanic Ash Advisory Center in Anchorage, 
Alaska is managed and staffed by the NWS. The Volcanic Ash Advisory 
Center in Washington, D.C. is jointly managed and staffed by the NWS 
and the National Environmental Satellite Data and Information Service, 
a sister line office within NOAA.
    The Aviation Weather Center (AWC) in Kansas City, Missouri, 
operates 24 hours a day, seven days per week, throughout the year 
providing aviation warnings and forecasts of hazardous flight 
conditions at all levels within domestic and international air space 
including turbulence, icing, and convection forecasts. The 
Collaborative Convective Forecast Product, a graphical representation 
of expected convective occurrence at two, four, and six hours, is 
produced by the AWC after collaboration with Meteorological Service of 
Canada, Center Weather Service Units, and meteorological offices of 
airlines and service providers. Its primary users are air traffic 
management which includes both FAA and the airline industry.
    The number of cross-polar flights is increasing sharply. With less 
protective atmosphere above the polar regions, these flights are more 
susceptible to the effects of radiation. The NWS Space Weather 
Prediction Center (SWPC) in Boulder, Colorado, continually monitors and 
forecasts Earth's space weather environment and provides solar-
radiation information and alerts.
    On the local scale, 122 Weather Forecast Offices provide terminal 
area forecasts for approximately 625 locations every six hours, with 
updates as conditions change. These forecasts consist of the expected 
weather that is significant to a given airport or terminal area.
    Center Weather Service Units (CWSU) were established in 1977 in 
response to National Transportation Safety Board recommendation A-77-
68, resulting from a serious weather related accident over New Hope, 
Georgia, which caused numerous fatalities. This recommendation called 
for the FAA to ``Formulate rules and procedures for the timely 
dissemination by air traffic controllers of all available severe 
weather information to inbound and outbound flights in the terminal 
areas.'' Based on this recommendation, FAA, with the assistance of NWS, 
formed the CWSUs.
    NWS forecasters at CWSUs provide advisories and forecasts to the 
aviation community as well as advice and consultation to air traffic 
controllers in maintaining an efficient national airspace. These CWSUs 
are located at each of the 21 FAA ARTCCs. CWSU meteorologists provide 
Meteorological Impact Statements, Center Weather Advisories, periodic 
face-to-face briefings, and on-demand consultations. CWSU 
meteorologists also provide briefings, as needed, to FAA Terminal Radar 
Approach Control personnel and tower personnel, and they train 
controllers on the interpretation of weather information.
    Under an interagency agreement, the FAA provides basic equipment, 
communications, space and supplies at the CWSUs, and currently 
reimburses the NWS about $12M per year, for staff. Based on local 
requirements, CWSUs operate 16 hours per day, typically between 5:00 
a.m. and 9:30 p.m. local time, seven days a week, when air traffic is 
at its peak. If weather conditions pose a threat to an ARTCC's area of 
responsibility at other times, the Traffic Management Officer, in 
conjunction with the CWSU Meteorologist-In-Charge, has the option to 
retain CWSU forecasters on overtime.
    The NWS has a long history of working in partnership with the FAA 
and the aviation community to define requirements for the provision of 
aviation weather services. In that vein FAA's System Operation Services 
sent NWS a letter dated September 23, 2005, requesting NWS restructure 
its CWSU support. FAA requested NWS reduce the number of CWSUs in the 
contiguous states, reduce personnel costs by 20 percent, increase 
coverage to 24 hours a day, seven days a week, and provide improved 
products, services, collaboration and training, as well as create 
national standards. NWS chartered a team to examine options to meet the 
FAA request. NWS presented its proposal for restructuring its aviation 
weather services to FAA in October 2006. A second letter from FAA in 
April 2007 stated it would not adopt the NWS restructuring plan, but 
instead had begun a process of refining requirements for weather 
services provided by the CWSUs.
    On January 10, 2008, FAA submitted to NWS specific requirements for 
CWSU support, asking NWS to provide three business case solutions to 
meet those requirements: support from a single, central site; regional 
support from several sites; and CWSU service support from the existing 
21 ARTCCs. I chartered a team to develop solutions to meet FAA's 
requirements and we have made progress with our comprehensive analysis. 
The NWS response is due to FAA by May 7, 2008. FAA promises to reply by 
August 7, 2008.
    In 2007, the Government Accountability Office (GAO) conducted a 
review of aviation weather services between the FAA and NOAA. The draft 
report, entitled Aviation Weather: FAA is Reevaluating Services at Key 
Centers; Both FAA and the National Weather Service Need to Better 
Ensure Product Quality, does a fair job in assessing the status of the 
NWS's plans for providing aviation weather services at FAA's en route 
centers and evaluating current abilities to ensure consistency and 
quality of these services. In its draft report, the GAO made two 
recommendations to NOAA: (1) ``Assist FAA in developing performance 
measures and metrics for the products and services to be provided by 
center weather service units; and (2) ``Perform annual evaluations of 
aviation weather services provided to en route centers and provide 
feedback to the center weather service units.'' NOAA agrees with 
Recommendation 1 and we are currently working with the FAA to develop 
performance measures and metrics for the Center Weather Service Unit 
products and services. We believe subsequent collaboration between NOAA 
and FAA should lead to a shared service level agreement on milestones, 
performance measures and goals. With regard to Recommendation 2, NOAA 
will work with the FAA to develop methods for performance monitoring 
and evaluation based upon the FAA's service requirements. We expect 
these methods will involve annual evaluations, at a minimum.
    We believe GAO is on target with its analysis identifying 
shortcomings and variability in some of the existing CWSU support for 
FAA. We are taking action to improve CWSU services to the FAA and are 
working toward taking the best ideas from all of our CWSUs and creating 
a more consistent and responsive customer service oriented program. 
Furthermore, we are also working toward consistency between various 
aviation related forecasts, warnings, and advisories issued by the NWS. 
We drafted a plan to evaluate the CWSUs and have begun coordination 
with the FAA.
    As you know, the Next Generation Air Transportation System 
(NextGen) is intended to meet projected 2025 U.S. air transportation 
demands for significant growth in air traffic and airport services. 
NOAA/NWS is actively involved in NextGen through its participation on 
the Joint Planning and Development Office (JPDO) Board and in providing 
leadership for the JPDO Weather Working Group.
    NOAA/NWS recognizes that NextGen will result in a system-wide 
transformation including the manner by which weather-related 
information is collected, managed, disseminated, and utilized in 
decision-making. To that end, NOAA/NWS plans to fully integrate NOAA's 
weather development activity into NextGen development; link NOAA 
funding requests for acquisition and development of weather information 
needed to support NextGen to FAA NextGen funding requests; design 
NOAA's contributions for NextGen-era weather support to meet FAA's 
requirements; and ensure NOAA's contributions are compatible with 
NextGen dissemination and display systems.
    Finally, NOAA/NWS recognizes the need for extraordinarily close 
coordination within the federal weather community to meet NextGen 
weather support needs and believes it is essential that the federal 
community bring all of our assets together effectively, along with 
strong private sector participation, to ensure success. NOAA is 
committed to a long-term partnership with FAA, and the rest of the 
federal community, to make this happen.
    The support NWS provides--whether it is a terminal forecast from a 
WFO, a Center Weather Advisory from a CWSU, an icing warning from the 
AWC, or a radiation alert from our SWPC--all help FAA create a National 
Airspace System that is safe, efficient and cost effective for the 
people of this country.

                      Biography for John L. Hayes

    John L. ``Jack'' Hayes is the NOAA Assistant Administrator for 
Weather Services and National Weather Service Director. In this role, 
he is responsible for the day-to-day civilian weather operations of 122 
local Weather Forecast Offices, 13 River Forecast Centers, nine 
National Centers for Environmental Prediction, and 21 Aviation Weather 
Service Units in the United States, Puerto Rico, Hawaii, and Guam.
    The National Weather Service (NWS) provides daily weather forecasts 
and warnings to the American media, emergency managers, fire land 
managers, commercial weather partners, and the general public for 
weather and natural hazards such as hurricanes, tornadoes, severe 
thunderstorms, flash floods, winter storms, extreme fire weather 
conditions, tsunamis, and solar flares.
    Dr. Hayes rejoined the National Weather Service after serving as 
the director of the World Weather Watch Department at the World 
Meteorological Organization (WMO), a specialized agency of the United 
Nations located in Geneva, Switzerland. In that position, he was 
responsible for the global observing, global telecommunications, and 
global data processing and forecasting systems that provide the 
foundation for operational weather forecasting and warning services for 
188 WMO member countries worldwide. During this period, he led the 
development of the WMO Strategic Plan which was approved by WMO's 15th 
Congress in May 2007.
    Before joining the WMO, he served in several senior executive 
positions at NOAA. As the deputy assistant administrator for NOAA 
Research, he was responsible for the management of research programs. 
As Deputy Assistant Administrator of the National Ocean Service (NOS), 
he was the chief operating officer dealing with a multitude of ocean 
and coastal challenges, including NOS's response to the Hurricane 
Katrina disaster in August 2005. As Director of Office of Science and 
Technology for the NWS, he was responsible for the infusion of new 
science and technology essential to weather service operations; he was 
recognized as one of the Federal Government's Top 100 IT Executives for 
his leadership of programs to improve information processing and 
dissemination supporting NWS's weather forecast and warning mission.
    Dr. Hayes was also an executive in the private sector and the 
military. He was general manager of the $500 million Automated Weather 
Interactive Processing System program at Litton-PRC from 1998 through 
2000. AWIPS is the interactive computer system utilized by all weather 
service forecasters. From 1970 through 1998, he held a variety of 
meteorological positions with the United States Air Force, beginning as 
a weather forecast officer in 1970 and culminating his career as 
Commander of the Air Force Weather Agency and Air Force Global Weather 
Center.
    He received both his Ph.D. and Master of Science degrees in 
meteorology from the Naval Post Graduate School in Monterey, 
California. He is a graduate of Bowling Green State University, with a 
Bachelor's degree in mathematics. He is a Fellow in the American 
Meteorological Society.

    Chairman Lampson. Thank you, Dr. Hayes. Mr. Juba, you are 
recognized for five minutes.

  STATEMENT OF MR. EUGENE D. JUBA, SENIOR VICE PRESIDENT FOR 
 FINANCE SERVICES, AIR TRAFFIC ORGANIZATION, FEDERAL AVIATION 
                         ADMINISTRATION

    Mr. Juba. Good afternoon, Chairman Lampson and Congressman 
Inglis. My name is Gene Juba, and I am the Senior Vice 
President for Finance at the ATO, the Air Traffic Organization, 
part of the FAA. I spent the past 20 years in the aviation 
industry, first with the airlines, and now in my position here 
at the FAA. I am pleased to be here today to discuss the 
findings and the recommendations of the GAO regarding FAA's 
provision of aviation and weather services from the National 
Weather Service.
    The Federal Aviation Administration is responsible for 
ensuring safe, orderly, and efficient air travel in the 
national airspace system. We safely guide over 50,000 aircraft, 
per day, through the Nation's skies. FAA and NWS have worked 
together for many years to provide weather forecast services 
for pilots, controllers, and all users of the Nation's 
airspace. The National Weather Services began providing 
aviation meterologics at the FAA's en route centers following 
the NTSB's report on the crash in 1977 of Southern Airways 
Flight 242. The FAA with the assistance of the NWS created 
Center Weather Service Units, or CWSUs, that are located at 
each of the FAA's 21 en route centers.
    In recent years, FAA has taken action to assess and improve 
the performance of the Center Weather Service Units. FAA found 
that the CWSUs were not providing the same level of services at 
all of its locations, and that the services and forecasts were 
not standardized across the 21 centers, the results of low 
collaboration or communication between the CWSUs at each of the 
stations. Neither the FAA nor the NWS had a formal quality-
assurance program for weather products and services. To address 
these concerns, the FAA requested the NWS restructure its 
aviation weather services, improve the capability and delivery 
of weather information, and to transform the current collection 
of isolated units to a national program for support of all FAA 
field units or field sites.
    The NWS submitted its restructuring proposal to the FAA in 
October 2006. In addition to the Weather Service effort, the 
FAA conducted a market survey to determine private-sector 
capability in delivering those weather services needed by its 
controllers. Organizations, including a government laboratory, 
responded to that survey. The FAA reviewed both NWS's proposal 
and the results of the market survey. Based on that review, the 
FAA chose to refine its requirements for the CWSU service. They 
completed this exercise and provided new requirements to the 
Weather Service last month.
    The performance-based requirements suggest a new approach 
as to how weather services are generated and delivered. The 
requirements addressed deficiencies the FAA has identified in 
its CWSU service, such as a fragmented approach to aviation 
weather forecasting. They have requested that forecasts across 
regional boundaries be more consistent and that more attention 
and resources be devoted to area where active weather 
conditions exist and less to where weather is of less impact on 
aviation. The requirements also request that NWS provide 
services on a 24-hour-a-day, seven-day-a-week basis, rather 
than the current 16 hours per day. We must evolve our delivery 
of weather information to support the Next Generation Air 
Traffic System, and these requirements set us on that path.
    I thank the GAO for their careful analysis and positive 
recommendations. The FAA agrees with their recommendations, and 
in building the requirements for the CWSU service, it has added 
a component for performance evaluation. We are asking for a set 
of negotiated performance metrics that match aviation weather 
services being provided. Oversight will be done jointly between 
the FAA and the national weather service.
    In conclusion, Mr. Chairman, the FAA and the Weather 
Service are doing their utmost to improve the CWSU service. FAA 
has continuously held meeting with the Weather Service, 
throughout the requirement-development phase, and continues to 
hold biweekly meetings during the proposal-development process, 
to ensure that the NSW is provided sufficient information and 
the opportunity to develop an improved service. The FAA looks 
forward to the NSW's future concept of operations for the 
central weather service units and hopes to continue our 
cooperative relations well into the future to reduce the impact 
weather has on aviation.
    We also welcome Congress's advice and counsel as we work 
with the National Weather Service to improve the efficiency and 
effectiveness of the center weather service unit services.
    This concludes my remarks, and I would be happy to answer 
any questions the Committee might have.
    [The prepared statement of Mr. Juba follows:]

                  Prepared Statement of Eugene D. Juba

    Good Afternoon, Chairman Lampson, Congressman Inglis, and Members 
of the Subcommittee, my name is Gene Juba, and I am the Senior Vice 
President for Finance in the FAA's Air Traffic Organization. I am 
honored to be here today to discuss the findings and recommendations of 
the GAO regarding FAA's provision of aviation weather services from 
NOAA's National Weather Service. FAA believes that working together 
with NWS, we will be able to fulfill the new requirements for aviation 
weather services which FAA recently sent to the NWS, and move towards a 
better alignment of current services with the future requirements 
envisioned in the NextGen Concept of Operations.
    The Federal Aviation Administration is responsible for ensuring 
safe, orderly, and efficient air travel in the National Airspace 
System. The legislative foundation of the Federal Government's 
regulation of civil aviation was the Air Commerce Act of 1926. This 
landmark legislation was passed in the belief that the aviation 
industry could not reach its full potential without federal action to 
establish and maintain safety standards. The Act charged the Secretary 
of Commerce with fostering air commerce, issuing and enforcing air 
traffic rules, licensing pilots, certifying aircraft, establishing 
runways and operating and maintaining aids to navigation.
    The Department of Commerce continued oversight and regulation of 
civil aviation until 1938, when the Civil Aeronautics Act transferred 
federal civil aviation responsibilities to a new independent agency, 
the Civil Aeronautics Authority. In 1958, passage of the Federal 
Aviation Act transferred the CAA's functions to the newly created 
Federal Aviation Agency, and the FAA was born. The FAA became the 
Federal Aviation Administration upon the creation of the Department of 
Transportation in 1967, and the FAA's becoming one of the modal 
organizations within the new Department.
    All through these years, the FAA and the Weather Bureau cooperated 
to provide weather forecast services for pilots to improve the safety 
of the Nation's aviation system. A formal arrangement by which the 
National Weather Service would provide aviation weather services 
directly through co-location of NWS meteorologists at FAA facilities 
was established following the NTSB's report on the 1977 crash of 
Southern Airways flight 242. The NTSB's recommendation called for the 
FAA to, ``formulate rules and procedures for the timely dissemination 
by air traffic controllers of all available severe weather information 
to inbound and outbound flights in the terminal areas.'' Based on this 
recommendation, the FAA, with the assistance of the NWS, created the 
Center Weather Service Units (CWSU), which are located at each of the 
FAA's 21 Air Route Traffic Control Centers (ARTCC) across the United 
States.
    This relationship between the FAA and the NWS was codified in 1994, 
when Public Law 103-272 directed that, ``The Administrator of the 
Federal Aviation Administration shall make recommendations to the 
Secretary of Commerce on providing meteorological services necessary 
for the safe and efficient movement of aircraft in air commerce. In 
providing the services, the Secretary shall cooperate with the 
Administrator and give complete consideration to those 
recommendations.'' (49 U.S.C. 44720(a) )
    Presently, the FAA alone spends over $200 million a year on 
aviation weather services, through over 40 observing systems, processes 
and communications services. This is independent of the NWS spending 
for aviation weather forecasting and research. FAA spends approximately 
$12 million a year to support the 84 NWS employees located at 21 CWSUs 
to provide services to FAA traffic management personnel located at the 
air traffic control facilities throughout the National Airspace System 
(NAS). The NWS also provides aviation weather services through entities 
such as the Alaska Aviation Weather Office, the Volcanic Ash Advisory 
Centers, the Aviation Weather Center in Kansas City, Missouri, and 
Weather Forecast Offices. NWS provides warning, forecasts, 
meteorological advice and consultation for FAA and other customers 
throughout all phases of flight; pre-flight, planning, and operations.
    In recent years, the FAA has undertaken a number of initiatives to 
assess and improve the performance of the Center Weather Service Units. 
FAA found that the CWSUs were not providing the same level of services 
at all of its locations, and the services and forecasts were not 
standardized across the 21 locations. There was also little 
collaboration or communication between the different CWSUs. In 
addition, neither the FAA nor the NWS had a formal quality assurance 
program for CWSU products and services.
    To address these concerns, FAA requested that the NWS restructure 
its aviation weather services to provide improved services in a more 
efficient, performance-based process. While the NWS was developing its 
proposal for restructuring its aviation weather services, FAA conducted 
a market survey to determine if the private sector could provide the 
weather services FAA needed. Ten organizations, including government 
laboratories and private sector firms, responded to the market survey 
that they could provide the services FAA requested. The NWS submitted 
its restructuring proposal to FAA in October 2006. In April 2007, FAA 
declined the NWS proposal for restructuring its aviation weather 
services provided to FAA, primarily because, in the intervening time, 
we had initiated an internal review of our requirements, and had not 
yet completed this review. The results of that review are the new 
requirements which were provided to the NWS in January 2008.
    However, we are serious about effective interagency cooperation and 
continue to work with the NWS on improving CWSU services. We decided 
that we would refine our requirements for the services provided by the 
CWSUs because our existing requirements were too broad to ensure the 
efficiency and cost effectiveness of the services. Also, as GAO found, 
FAA did not have a system in place to provide quality assurance of the 
services provided by the NWS, and thus could not objectively evaluate 
the accuracy, efficiency and cost effectiveness of the Center Weather 
Service Units.
    The FAA agrees with the recommendations of the GAO, and in building 
the new requirements for the CWSU service, added a component of 
performance evaluation. The performance mechanism calls for setting up 
a team of individuals from both FAA and NWS, which will convene 
regularly and monitor and provide recommendations on CWSU services 
based upon a negotiated set of performance metrics. The goal of this 
team is to install a mechanism that will improve CWSU service on a 
continuing basis and enhance the FAA-NWS aviation weather relationship 
at the same time. Most importantly, we must ensure that aviation 
weather services meet the needs of the aviation community.
    In January 2008, FAA provided NWS with revised and clarified 
requirements. The new performance based requirements request a new 
approach to how the products are generated and delivered. The 
requirements address deficiencies the FAA has identified with CWSU 
service, such as a fragmented approach to aviation weather forecasting, 
with 21 aviation weather forecasts developed independently of one 
another, and sometimes producing inconsistent products across the NAS. 
FAA has requested that forecasts across regional boundaries be 
consistent and that more attention be devoted to areas with ``active'' 
weather conditions, and less to areas where weather patterns are having 
less impact on aviation operations. The new requirements also request 
CWSU services on a 24 hour a day, seven days a week basis, rather than 
the current 16 hours a day, seven days a week services. Planes are 
increasingly operating on a 24/7 basis, and aviation weather services 
need to evolve to meet that demand.
    FAA views the new requirements as moving current aviation weather 
services towards the FAA's future requirements envisioned in the 
NextGen Concept of Operations. The NWS is the team lead for developing 
the aviation weather services observing systems, forecasting services, 
and communications delivery systems for the interagency NextGen system 
effort, and FAA believes that the new requirements for CWSU services 
will help NWS better align itself with the NextGen requirements.
    In conclusion, Mr. Chairman, the FAA and the NWS are doing their 
utmost to improve the CWSU service. FAA has continuously held meetings 
with the NWS throughout the requirements development process, and 
continues to hold bi-weekly meetings with NWS during the proposal 
development process to ensure that the NWS is provided sufficient 
information and opportunity to develop an improved CWSU service. We 
believe the NWS is committed to providing their best response to these 
requirements. The FAA looks forward to the NWS's future concept of 
operations for the Center Weather Service Units, and hopes to continue 
our cooperative relationship well into the future to reduce the impact 
weather has on aviation.
    We thank the GAO for their careful analysis and positive 
recommendations to institute performance measurements and metrics to 
improve the quality and cost effectiveness of aviation weather 
services. We also welcome Congress' assistance and counsel as we work 
with the National Weather Service to improve the efficiency and 
effectiveness of Center Weather Service Unit services.
    This concludes my remarks, and I would be happy to answer any 
questions the Committee may have.

                      Biography for Eugene D. Juba

    Eugene D. Juba is a finance professional with 15 years experience 
in the private sector. Prior to joining the ATO, he was working as an 
independent consultant and as the CFO for a technology startup in the 
Washington, DC area. Prior to this assignment, he worked at two major 
commercial airlines.
    In 1999, he joined U.S. Airways as Vice President of Financial 
Planning and Analysis. There he led a group of finance, operations 
research and industrial engineering professionals and was responsible 
for the development of operating budget and providing analytic support 
of other departments on key strategic initiatives. His group also led 
process re-engineering efforts in all parts of the operation.
    Prior to going to U.S. Airways, Juba spent 11 years at United 
Airlines in a number of roles including Director of Financial Analysis, 
Assistant Treasurer and Corporate Development. The breadth of 
activities he was involved in included labor negotiations, financing of 
aircraft and facilities, stakeholder presentations, structuring of the 
United ESOP and the development of the original business plan for 
Shuttle by United.
    Juba attended the U.S. Naval Academy graduating in 1981 with a 
Bachelor's of Science degree in Electrical Engineering. Upon 
graduation, he served as a naval officer aboard the nuclear submarine 
USS Benjamin Franklin. Upon leaving the Navy, he attended the Wharton 
School at the University of Pennsylvania earning a Master in Business 
Administration degree in Finance in 1988.
    Juba resides with his wife, Dianne, and two sons, Warren and 
Collin, in McLean, Va.

                               Discussion

    Chairman Lampson. Thank you, Mr. Juba. I will now entertain 
questions from the panel of Members, and I will recognize 
myself for the first five minutes.

                    Relationship Between FAA and NWS

    I will start, Mr. Powner, with you and ask you how you 
would characterize the relationship between the FAA and the 
National Weather Service in the context of this program? It 
just seems to me that the problem here is attributable to poor 
communication between the two agencies. Would improvement in 
this area help to move this program in the right direction?
    Mr. Powner. Clearly, I would characterize it with one word: 
improving. I think, historically, the collaboration and 
coordination between the two agencies, at the working level, 
there may have been a lot going on, but clearly, at the 
executive level, it is improving, and that is a good thing to 
move forward, that we clearly understand the requirements going 
forward. We have agreement on that, and we also have agreement 
on how we are going to measure it to constantly improve these 
services.
    Chairman Lampson. There are a lot of issues. Are the steps 
that are being taken to address the issues between the FAA and 
NSW, are they reasonable steps?
    Mr. Powner. Yes, I believe the delivery of the requirements 
was a very positive step at the conclusion of our review. You 
know, going forward, now there is some hard work ahead of us to 
get agreement on that, to establish additional measures, to 
establish clear baselines, and then to actually implement this. 
So yes, right now, we are moving in the right direction, but 
there is clearly a lot of work ahead.

                  Evaluating the Performance of CWSUs

    Chairman Lampson. FAA's testimony refers to several studies 
that they did to evaluate CWSUs, and your report indicates that 
FAA had never specified requirements for the services to be 
delivered to them, and neither FAA or NWS have any system to 
evaluate the performance of the CWSUs. Would you elaborate on 
that apparent discrepancy?
    Mr. Powner. Well, clearly, FAA has studied the situation, 
and it has been widely acknowledged here on this panel that the 
services have been, you know, inconsistent and not 
standardized. We have heard that, clearly, there were some en 
route centers that they were more pleased with than others with 
the services, and the requirements, to date, have not been 
specified to the level that have recently been delivered. And I 
think with that specificity comes, you know, improvement in an 
understanding in what needs to be delivered, and ultimately, 
hopefully, an improvement in the services that NWS provides.

                   Responding to New FAA Requirements

    Chairman Lampson. Thank you. Dr. Hayes, what are your plans 
for responding to FAA's new requirements?
    Dr. Hayes. Well, as I mentioned in testimony, I formed a 
team, and there are three scenarios that they would like us to 
propose to, involving how we would meet their requirements, and 
they have been very detailed in their requirements, and so I 
have a team, and there are three subsets of that team, each one 
focused on optimizing products and services in support of 
aviation for that particular scenario. And then there is cross-
talk between the teams.
    As Mr. Juba has mentioned, there has been an ongoing 
dialogue between my team and the FAA. In fact, within the next 
week, they are going to go over it, because I have just seen a 
rough draft of the proposal. We are going to run the proposal 
by them within the next one--I would say a week to ten days, in 
time to get feedback that if we are in the wrong operating 
quadrant, if we are missing the mark, then, we have time to 
recover, and we intend to meet the date that they have given 
us, which is May 7.
    So I think there is a good dialogue going on at the worker 
level. I have also, at my level, have been talking with Mr. 
Juba, with Mr. Cox, who is the Vice President for Flight 
Operations. I have, on my March calendar, Mr. Sam Martino, who 
is VP for Systems Operation. So I am going to engage at all 
levels, from my level on down to the people on the team, and 
Congressman, I am hoping with that we will meet the need.

         Ensuring Consistency of Weather Products and Services

    Chairman Lampson. How can you better ensure consistency 
among aviation weather products and services provided by the 
Center Weather Service Units, weather forecast offices and the 
Aviation Weather Center?
    Dr. Hayes. We have three initiatives going on at the 
present time. One of them is, clearly, what the GAO said, 
metrics. The FAA has a metric referred to as the weather impact 
traffic index. If you look at the output of that metric, it 
tells us when we are over-forecasting for an air route or 
under-forecasting. That, we are going to use as the basis, so 
we have an ongoing effort to develop a standardized metric 
within the Weather Service of our products and services. It 
relates directly to what the FAA is using to measure what its 
air route traffic controllers do.
    That is one. There will be other metrics that we will 
incorporate that are product related from our center units. We 
also are going to implement by the end of the year a field 
visit program. And it is not going to be a subjective one. We 
are going to have somebody from the FAA on the team; and we 
will have somebody from my headquarters. We will assure that 
there is a report written with findings and recommendations, 
and that will come to senior leadership of the Weather Service.
    And then, the last thing that I will tell you is I am aware 
of the feedback we get on the operation at Dallas-Fort Worth. 
The FAA tells me this is a top-tier operation, and they have 
told me that there are others that aren't so good. And so what 
I have done is I have been out to Dallas-Fort Worth, seen the 
operation. My deputy has been out there, and I have sent one of 
my regional directors out there to see it, and we are going to 
focus on another ARTTC and how I can migrate some of those best 
practices right into that, and then we are going to broaden 
them across the Weather Service. So I think, in my mind, that 
will take a big bite out of the consistency program, and there 
are other measures that we have in mind as well.
    Chairman Lampson. Figure out what they are doing right, and 
bottle it.
    Dr. Hayes. Yes, sir.
    Chairman Lampson. I am going to stop for just a minute and 
recognize Mr. Inglis for his questions, and I will come back 
with a few others.

                     NWS Communication With the FAA

    Mr. Inglis. Thank you, Mr. Chairman.
    Dr. Hayes, are there other customers of the National 
Weather Service that want information delivered in a different 
way? Is that correct? Or is FAA a major customer of the 
National Weather Service.
    Dr. Hayes. Sir, I would say FAA is a major customer of the 
Weather Service. We have emergency managers that want 
information, and our mission is to protect life an property, 
and so we take it very seriously, and we listen to them, and so 
my aim is to do the same to another very important customer of 
the Weather Service, and that is the FAA.
    Mr. Inglis. Is that the organization--it sounds like this 
may be relatively recent. We have been talking about exactly 
how to deliver it the way that FAA wants it. Is that a new 
thing, or has that been an ongoing conversation?
    Dr. Hayes. I think it has been ongoing. I think to a 
certain extent, senior leadership in the Weather Service bears 
some responsibility for not hearing what the FAA is saying, and 
I think there is no way to candy-coat that. I think it is 
important to recognize that, and then just to focus on doing a 
better job listening and dialoguing, and that is what I hope to 
do on an executive level.
    Mr. Inglis. I wonder if--was shipping, for example, 
something about the way the National Weather Service delivers 
it, more designed for shipping interests or----
    Dr. Hayes. Sir, I think if there are differences, what we 
did when we created the Center Weather Service Units. In an 
effort to ensure customer responsiveness to the FAA and the 
ARTTCs, we integrated the IT that does the delivery into their 
architecture. We have a separate weather service architecture 
that we use for the public, and while take great effort to 
ensure consistency, there are differences because you have two 
different architectures that are going to occur.
    It is our intent to work with the FAA to make sure that 
where there are differences, there are good reasons, and where 
there are differences, they do not have any significance to the 
quality of the products and services we provide.

                        FAA Weather Contracting

    Mr. Inglis. Mr. Juba, could you go somewhere else to get 
weather information? Contract with somebody else besides the 
National Weather Service?
    Mr. Juba. Just look at our weather portfolio today. We 
actually get weather information from a number of different 
people and services out there. Obviously, the National Weather 
Service is an important part of that, but today, we have 
weather-sensing equipment. We have what we call the automated 
ASOS, which are equipment at airports that give us information 
on ceiling and on temperature. Some are maintained by us, and 
some are maintained by the Weather Service. So there are a 
number of different areas where we can get weather information.
    When we did the market survey last year, too, there was--we 
did get ten people, including one government laboratory that 
was actually interested in--or that had the capability or 
thought they had the capability to provide that service. On the 
CWSUs, specifically, we are working with National Weather 
Service, today, to hope get deliver of information in a manner 
that meets both of our needs.
    Mr. Inglis. If it doesn't, do you have statutory authority 
to go deal with somebody else? The second part of that 
question, do you pay National Weather Service, or does money 
move from FAA to National Weather Service?
    Mr. Juba. To answer the latter question, we pay the 
National Weather Service about $12 million for the center 
weather service units. On the first part, we are optimistic in 
getting to an agreement with the Weather Service on how to 
evolve the CWSUs. What makes me optimistic is I look at another 
important thing we are doing within the agency, which is 
looking to the next generation concept of operations. There is 
a working group there, the weather working group, of which the 
Weather Service, ourselves, DOD and some other agencies 
actually sit on, so we are actually getting a common view of 
where we want to take weather information, collection, 
generation, dissemination. So we have that goal we are looking 
to get to. That is part of the reason why we put together our 
new requirements because we need to head towards that goal. It 
makes me optimistic, because the Weather Service has the same 
goal. I am optimistic that we will get there.
    Mr. Inglis. Now, do you share the optimism that the 
deadline will be met?
    Mr. Juba. The May deadline? Well, if Dr. Hayes says he will 
meet the date, then I assume he will meet the date. I mean 
there is a lot that the Weather Service has done and has 
stepped up since the report came out and the time of this 
hearing, and I have been impressed with the actions to date, so 
yes, I am optimistic, cautiously optimistic, but I am hopeful 
that he meets the date.
    Mr. Inglis. Thanks. Thank you, Mr. Chairman.
    Chairman Lampson. Thank you, Mr. Inglis. I recognize myself 
for five minutes.
    And Dr. Hayes, if the FAA considered out-sourcing the 
Weather Services NWS provides, do you thin these services can 
be achieved either at a comparable level or better than the 
National Weather Service products and services? Can you make 
it--and could it be made to be more cost efficient?
    Dr. Hayes. Congressman, I am going to give you a biased 
answer. The government has given us the mission and 
responsibility to provide aviation services to the FAA. And if 
weather forecasts and warnings have the potential to impact 
public safety, we think we need to be involved, and I intend to 
show with our actions that we can do better than what they can 
do elsewhere.
    I will say--and I guess I will just leave it at that, sir.
    Chairman Lampson. Let me take it back for just a second. 
Cost efficiency: the first question that comes to mind, if they 
are going to provide, essentially, the same service as what 
your service is providing, can it be done for the same cost? 
Would it be more cost efficient to have a private entity to do 
it as opposed to a public entity?
    Dr. Hayes. That is a difficult question to answer in the 
fact that I don't know of a private-sector company out there 
that can do everything we do. And we do everything from the 
observing--that is the balloons we launch every 12 hours--to 
the model runs, processing of the data on high-performance 
computing systems. And so if they were to take on that entire 
mission, there is no way that I believe that they could.
    I believe that we have shown with our support to emergency 
managers that we are the most effective supplier of that 
information, and I think that we can do the same thing for the 
FAA far more efficiently than can be done in the private 
sector.
    Chairman Lampson. Thank you. Mr. Juba, do you want to 
comment on that?
    Mr. Juba. It would be premature for me to comment, you 
know, before we see the proposal put together, but they are 
looking at--they are taking a hard look at how they provide the 
service.
    And you get back to the expertise. It is not a question on 
expertise. The Weather Service has that. I think what we are 
looking at is the, you know, are we doing the best we can to 
deliver weather information. This is--the CWSUs have been in 
place for a number of years, and technology has evolved over 
that time. We saw that through our market survey, and I think 
with use of that technology and increasing capability, I think 
the Weather Service can get to it.

                          More on CWSU Support

    Chairman Lampson. Is it your plan to seek weather service 
support for the Center Weather Service Units from outside 
sources? Will you all go forward with your request?
    Mr. Juba. Right now, we are talking solely with the Weather 
Service on that. We provided the requirements that we put 
together that we provided them last month, and they only went 
to the Weather Service.
    Chairman Lampson. What are your time frames for--let me go 
back. CWSUs arrangement has been in place for some two decades, 
over two decades. Why haven't you implemented performance 
measures for these weather services before now?
    Dr. Hayes. I think, Congressman, I should answer that 
because here are units, and I would say that we did have 
metrics evaluating our primary products and services. They were 
being produced outside of the CWSUs, and the primary focus of 
the CWSUs was originally decision assistance, and it was taking 
products produced elsewhere and conveying those to controllers 
in the FAA. We have evolved the mission. There is production 
going on at CWSUs, and I say that we need to develop those 
measures now, and we will.

                        Evaluating NWS Proposals

    Chairman Lampson. Mr. Juba, how do you plan to evaluate the 
proposals that NWS will submit?
    Mr. Juba. One of the things we noted earlier, the 
deficiencies we saw with the service being delivered today, so 
we are looking at how the Weather Service changed what they do 
with the CWSUs in those specific areas, those areas being, you 
know, fragmented approach, the inconsistency across regional 
lines, you know, one en route center versus another, you know, 
having two different forecasts conflicting. We need that 
standard product, that nationwide look at how weather 
information is delivered and a consistent product, so we will 
be looking in those areas. We have expertise, you know, within 
the FAA that deals with air traffic measuring units that are 
actually the customers of that service that will be involved in 
the evaluation of the proposal. Plus, we are advantaged also, 
having done the market survey a year ago, we know what is out 
there in the market and what the capabilities are. We also, a 
year ago, did a prototype of remote delivery of weather 
information from a remote location to a customer organization 
or customer site, so we know that is available and that it does 
work.
    Chairman Lampson. Mr. Juba, the requirements were produced 
after the survey, were they not? And if so, how can that be 
used to really make a good decision with the services?
    Mr. Juba. That is correct. The survey was put out last 
year, and our new requirements came out last month. What was 
referred to on the surveys, we, through the survey, it gave us 
an idea of what can be done, you know, what capabilities are 
out there, currently, in the commercial world, for delivery of 
weather information. I mean that is a benchmark, if you will, 
on the possible, but I mean there is no--you know, it is not a 
price comparison or anything.

                   NWS and FAA Working Cooperatively

    Chairman Lampson. To both Dr. Hayes and Mr. Juba, the 
picture GAO paints of the past working relationship between 
your two organizations is not an attractive one. Your 
relationship appears to have been characterized by a lack of 
coordination and cooperation. I believe you and your agencies 
are now moving in the right direction. The safety of the public 
and the effective management of our air traffic system are, 
obviously, paramount concerns, so please fix the problem. FAA 
needs to define their need and communicate them effectively to 
the National Weather Service. The National Weather Service 
needs to do a better job of ensuring consistency in service 
delivery and should be responsive to FAA's need for cost-
effective, high quality forecasting information. Both agencies 
should work together in a cooperative fashion to design and 
implement a high quality aviation weather service--or weather 
forecast system that we need. So would you care to comment? 
Both of you?
    Dr. Hayes. Sir, you have my strongest commitment to do what 
you just said, because that is what our intent is to do.
    Chairman Lampson. Thank you. Mr. Juba.
    Mr. Juba. Yes, we are committed, also. We have worked with 
the Weather Service, again, to develop our requirements and 
actually meet with them biweekly, today, as they put together 
their proposal. We are committed to working with them.
    Chairman Lampson. Excellent. I think that we have developed 
such a feeling among the public, I think, that our bureaucracy 
is getting such to the point where we are not capable of 
providing services, and that there is such a lack of 
communication. I was in a meeting this morning that had to do 
with the area from which I come in Texas, and the agency with 
whom--several Members from our area were meeting and said that 
it was the first time they had seen a unified support for a 
project, and it is strange that we have to have comments made 
like that, that it is out of the ordinary for us to actually 
work together.
    It has been disheartening to me for a long period of time, 
but I see the opportunity for things to change, and with those 
kinds of commitments, we really can be responsive to the needs 
of our people, not responsive to the needs of the politics of 
some. And it would be nice when we can say that about everybody 
and we quit playing some of the games that we seem to have been 
playing over time.
    Mr. Inglis, that is all I have to say. If you have----
    Mr. Inglis. I have no further questions, Mr. Chairman.
    Chairman Lampson. Well, then, I certainly want to thank the 
panel, and I thank all of you for coming and appearing before 
our subcommittee.
    Under the Rules of the Committee, the record will be held 
open for two weeks for Members to submit additional statements 
and any additional questions that they might have for the 
witnesses. If we have those, we will mail them to you. And with 
that, this hearing is adjourned. Thank you.
    [Whereupon, at 4:25 p.m., the Subcommittee was adjourned.]

                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions
Responses by Vice Admiral Conrad C. Lautenbacher, Jr., Under Secretary 
        of Commerce for Oceans and Atmosphere; NOAA Administrator, 
        National Oceanic and Atmospheric Administration, U.S. 
        Department of Commerce

Questions submitted by Representative Bob Inglis

Q1a.  When the Administration was developing its FY09 budget request, 
was it assumed that the $25 million included in the FY08 CJS 
Appropriations bills in both the House and Senate for climate sensors 
would pass?

A1a. Since such funds were included in both the House and Senate marks, 
the Administration thought it was possible at one point, but by the 
time the Administration concluded development of its 2009 request the 
2008 appropriation bill had been finalized without the funding.

Q1b.  How was that FY 08 funding to be used?

A1b. If the approximately $25 million had been provided, it would have 
been used to support work on restoring CERES and TSIS instruments. It 
should be noted that NOAA and NASA have identified funding within their 
FY 2008 resources that will be used to initiate the CERES and TSIS 
efforts.

Q1c.  How has the elimination of this $25 million from the FY08 Omnibus 
Appropriations bill affected development of key climate sensors for the 
NPOESS satellite program?

A1c. As reported previously, the Administration has developed a cost-
effective, prioritized package of steps to preserve data continuity for 
certain key climate measurements that were removed from the NPOESS 
program during the 2006 restructuring of that effort. Such steps relate 
to the required sensor analysis and development work to sustain two 
important climate measurement capabilities: total solar irradiance 
(measured by the Total Solar Irradiance Sensor, or TSIS) and earth 
radiation budget data (from the Clouds and Earth Radiant Energy System 
sensor, or CERES). This initiative is supported by $74 million in funds 
contained in the President's FY 2009 Budget request, and it represents 
the Administration's principal plan for addressing these important 
measurements in the near-term. As such, the Administration believes 
that full funding of NOAA's FY 2009 President's Budget request is 
required to ensure uninterrupted access for these important data.
    Within this context, the elimination of the $25 million in FY 2008 
climate sensor funds had the potential to postpone necessary analysis 
and design efforts and potentially lead to scheduling challenges in 
terms of adding the sensors to other spacecraft. However, as noted 
earlier, NOAA and NASA have identified funding within their FY 2008 
resources that will be used to initiate the CERES and TSIS efforts in 
the required time frames.

Q1d.  How effective will the $74 million request for climate sensors in 
FY09 be in the development of these instruments and maintenance of the 
launch timeline?

A1d. The President's FY 2009 Budget request for $74 million will allow 
NOAA and NASA to continue the necessary work to place the Total Solar 
Irradiance Sensor (TSIS) and Clouds and Earth Radiant Energy System 
(CERES) instrument onto available satellites in the timeframe required 
to prevent data continuity gaps. With this funding, NOAA and NASA will 
be in a position to address these deadlines and potential data gaps.

Q1e.  If this Congress once again fails to make climate sensors a 
priority in the FY 09 appropriations bill, how can the U.S. best 
utilize data from international sensors to meet climate change data 
requirements?

A1e. If the FY 2009 budget request is not funded, the United States 
will be required to utilize data from international sensors through 
collaborative partnerships as the data becomes available. However, 
establishing these partnerships will take time and access to these data 
is not guaranteed. Moreover, the data are likely to be incomplete and 
not fully compatible with U.S. models and algorithms, which could 
result in harmful gaps in the data record.
    Furthermore, not funding the request for climate sensors and 
climate data records in the President's FY 2009 Budget request would 
require NOAA to cancel any TSIS instrument development in FY 2009 and 
impair our ability to fly a replacement CERES instrument on the first 
NPOESS satellite (NPOESS-CI). The cancellation of TSIS development 
would create a data gap in total solar irradiance measurements (a 
Global Essential Climate Variable), thus disrupting a data record that 
is approximately thirty years old.

Q2.  The President's budget request includes money to study risk 
reduction measures for ocean vector winds. If this money is not 
appropriated, how does NOAA intend to analyze QuikSCAT follow-on 
options? Is NOAA considering observation methods other than satellites 
to meet this data requirement?

A2. The President's FY 2009 Budget request includes a $3 million 
initiative to continue studies for ocean surface vector winds, 
including options for addressing this requirement from satellite and 
non-satellite sources. If the FY 2009 funds are not appropriated, NOAH 
will be unable to undertake the necessary studies to further refine and 
analyze mission concepts, including studies to define and reduce the 
risk of likely options. In the interim, NOAA will continue to use 
QuikSCAT measurements until the satellite fails. NOAA is also 
collaborating with our partners in Europe to determine how to best use 
data from European satellites. We are also talking with India and China 
about obtaining data from their proposed satellites that will carry 
similar technologies.
    Non-satellite options include but are not limited to the use of 
buoys, aircraft, and fixed platforms in coastal areas that measure wind 
vectors near the ocean surface. NOAA will continue to work on improving 
the number and quality of observations from aircraft and research the 
use of unmanned aerial systems. With the requested funding, NOAA will 
study space-based and nonspace-based alternatives to meet the 
requirement.

Q3.  I understand that in FY08, the GOES-R program suffered a $44 
million cut from the original budget request that caused a three- to 
four-month delay in the launch schedule. If NOAA is not appropriated 
the President's full budget request for FY09, what will be the impact 
on the 2015 launch date? How will such a slip affect existing satellite 
capabilities?

A3. If the FY 2009 Congressional appropriation does not fully fund the 
President's Budget request, NOAA would carefully assess how to 
distribute the funding reduction. Potential options include further 
delays to the launch schedule and a reassessment of the sensor suite. A 
delay to GOES-R would increase the risk to overall geostationary 
satellite data continuity for the United States in the event of a 
failure of one of the nearly completed GOES satellites. GOES-O or GOES-
P. Without the imagery from GOES satellites, the Nation's view of 
severe weather, including hurricanes, would be severely hampered 
reducing warning lead times for the Nation.
    The President's FY 2009 Budget request for the GOES-R program is 
$477 million, a $242.2 million increase over FY 2008 enacted amounts. 
This request will fund spacecraft and ground system contracts, continue 
development of the major GOES-R instruments that already are under 
contract. NOAA and NASA system engineering and integration, and program 
management. GOES-R is at a critical point in its development process, 
and full funding of these activities is essential to meet a launch date 
of no later than April 2015 while actively managing technical, cost, 
and schedule risk.

Q4.  How would a 2009 continuing resolution affect the anticipated 
GOES-R satellite acquisition?

A4. The impact of a continuing resolution would depend on the 
particulars as to the funding level provided and its duration. Assuming 
a full-year continuing resolution at the FY 2008 funding level, NOAA 
would consider whether to postpone awarding contracts for the 
spacecraft and ground segments. The contract for the spacecraft is 
currently expected to be awarded in the first quarter of FY 2009, with 
the ground segment expected to be awarded in the second quarter of FY 
2009. If the program is delayed, significant costs increases would be 
introduced, as well as increased risk to NOAA's ability to maintain 
continuity in geostationary satellite coverage.

Q5.  In February, the Committee was informed that there was a 
potentially serious battery problem on the GOES-11 satellite, one of 
the two primary weather satellites over the U.S. This satellite is 
supposed to be operational until 2011. Although we have an on-orbit 
spare, how would the loss of GOES-11 affect the importance of the GOES-
R launch timeline? How does this affect the anticipated mission life of 
the on-orbit spare? Will a new reserve satellite be needed for the out-
years?

A5. Engineers at NOAH and NASA have been monitoring the GOES-11 battery 
issue very carefully and have developed operational procedures to 
ensure that critical instruments receive the necessary power during the 
eclipse cycle that is scheduled to end in mid-April.
    At this time, NOAA does not believe that the battery issue will 
adversely affect the planned operational life of GOES-11, nor do we 
believe that a new reserve satellite in the GOES-N series is required. 
NOAA believes that the funding in the President's FY 2009 Budget 
request is adequate to support GOES-R satellite development and launch 
in sufficient time to ensure uninterrupted satellite data continuity 
following the GOES-N series.

Q6.  What steps has NOAA taken to make sure that the GOES-R program 
does not repeat the mistakes of the NPOESS satellite program, 
particularly with regards to delays and cost overruns?

A6. NOAA has thoroughly reviewed and applied lessons learned from the 
National Polar-orbiting Operational Satellite System (NPOESS) and other 
space acquisition programs to ensure that the GOES-R Program does not 
repeat the same mistakes. NOAA has put a number of management and 
systems engineering processes in place to implement these lessons 
learned. Specific initiatives taken to keep the GOES-R development 
effort on schedule and within budget include:

        <bullet>  Risk Reduction: The procurement strategy has been 
        structured to address the highest risk areas of the GOES-R 
        program early and to ensure that the technology required for 
        GOES-R is sufficiently mature. NOAA recognized early that the 
        GOES-R instruments are a technical risk area for the program. 
        To address this, NOAA partnered with NASA to leverage its 
        strength: NOAA has placed NASA in charge of acquiring the space 
        segment (spacecraft, instruments, and launch) while NOAA is in 
        charge of the fielding the ground system. In addition, the 
        GOES-R program initiated instrument development efforts prior 
        to committing to full scale system procurement to lower the 
        risk of instrument development issues affecting the larger 
        program's cost and schedule. In addition, the GOES-R program 
        had prototype test models developed for the two most complex 
        instruments (Advanced Baseline Imager and Geostationary 
        Lightning Mapper) to ensure that the technology and 
        manufacturing processes were proven prior to building flight 
        instruments.

        <bullet>  Management Oversight: NOAA studied a number of 
        management strategies and commissioned independent reviews to 
        develop the management approaches that best suit the program 
        and NOAA's ability to manage the risk to overall program 
        success. This approach is documented in a GOES-R Management 
        Control Plan (MCP) and patterned off-proven NASA space 
        acquisition processes. In implementing the MCP, NOAA has 
        established a robust program office that uses the expertise and 
        experience of both NOAA and NASA, their support contractors, 
        and the best of each agency's processes to ensure active and 
        in-depth oversight of the development contractors. Key elements 
        of this program office include:

                1)  Fully integrated NOAA and NASA program personnel 
                located at Goddard Space Flight Center,

                2)  Significant systems engineering and other technical 
                and programmatic oversight resources to oversee 
                contractor activities,

                3)  On-site representatives at the prime and 
                subcontractor facilities to increase awareness of 
                program status,

                4)  NOAA System Program Director that aggressively 
                manages NOAA and NASA Project Managers to ensure key 
                risks and technical challenges are identified and dealt 
                with early, before they create a risk to overall cost, 
                schedule and performance of the program.

        <bullet>  External Reporting: The MCP also describes routine 
        reporting by the program to NOAA and NASA management regarding 
        program status. The program has already begun conducting 
        regularly-scheduled contractor technical and program management 
        reviews and presenting program status updates to DOC, NOAA, and 
        NASA leadership at a series of management reviews. NOAA has 
        established a Program Management Council (PMC) to provide 
        oversight to the major acquisition programs, and the GOES-R 
        program is periodically reviewed by the PMC. The GOES-R program 
        is implementing the program control directive contained in the 
        FY 2008 Omnibus Appropriations Act and will provide annual 
        program reports and quarterly program status reports to 
        Congress.

        <bullet>  Realistic Cost Estimating and Budget: GOES-R has 
        developed a realistic Program Office Estimate (POE) and 
        reconciled this estimate with a separate NOAA Independent Cost 
        Estimate (ICE) effort. An important feature and lesson learned 
        from NPOESS was to use an 80 percent confidence level rather 
        than a 50 percent confidence level estimate as used in the 
        Department of Defense. This means the budget requests will more 
        likely cover expected costs without requiring additional budget 
        allocations to deal with unforeseen issues.

        <bullet>  Incentive Structure: GOES-R intends to pursue a mixed 
        incentive and award fee incentive structure to provide the 
        Government the flexibility to adjust the incentive priorities 
        as the program progresses in response to specific issues that 
        may arise. Applying an important lesson from NPOESS, there is 
        no base fee associated with the GOES-R program. The GOES-R fee 
        structure includes incentives that aim to minimize cost growth 
        while providing incentive to the contractors to meet major 
        program milestones.

        <bullet>  Independent Reviews: NOAA has used and will continue 
        to use an independent team of experienced space program experts 
        that will regularly review the GOES-R program to ensure program 
        readiness at key decision points and program execution status 
        on an annual basis.

Q7.  The Administration's FY09 budget request includes doubling of 
funds for the NOAA Profiler Network, the severe weather detection 
network in ``Tornado Alley.'' What activities will this increase 
support? How effective has the Profiler Network been in the forecasting 
of tornadoes?

A7. The FY 2009 program increase for the NOAA Profiler Network (NPN) is 
a planned Procurement, Acquisition and Construction (PAC) investment to 
(1) convert the existing frequency of the NPN to avoid frequency 
interference with the European Space Agency GPS Satellites (Galileo), 
which will cause the loss of data from the NPN and (2) provide a 
technology refresh to the 20-year-old observing system.
    The NPN has been effective in forecasting tornadoes and has, 30 
operational wind profilers located in the central U.S. along ``tornado 
alley.'' Studies have shown the following improvements in tornado 
detection as a result of wind profiler data:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Accuracy Performance Measures for NOAA Weather Forecast Offices (WFOs), 
1999 through 2003 (Wolf, 2004).
*Selected Weather Forecast Offices in areas where tornadoes occur 
often.

Q8.  No funding was appropriated in FY08 for water vapor research and 
the Administration's budget request includes only $0.9 million for 
FY09.

Q8a.  Was any money requested for water vapor research in FY08?

A8a. NOAA is committed to enhancing climate research. In the FY 2008 
budget request, the Administration requested $0.9 million to support 
water vapor process research.

Q8b.  Considering water vapor accounts for most of the greenhouse 
effect in our atmosphere, is the requested amount of funding for FY09 
really sufficient to properly investigate the effect this greenhouse 
gas may have on the continued warming of our climate?

A8b. The funding requested in FY 2009 is sufficient to initiate and 
enhance measurements of water vapor in the lower atmosphere 
(specifically the upper troposphere and the lower stratosphere between 
approximately 3 to 15 miles above the surface) to be able to better 
understand the processes that lead to the current distributions and lay 
the foundation for future predictions of water vapor distributions. 
Accurate measurement of water vapor abundances and its distribution in 
this region are an essential first step in better understanding the 
role of water vapor in the climate system. NOAA has a diverse mission 
ranging from managing fisheries to predicting severe weather and 
providing climate services. The Administration's request provides a 
balanced set of priorities to sustain core mission services and address 
our highest priority program needs. Even within a restrained fiscal 
environment, the FY 2009 President's Budget Request includes over $319 
million in NOAA for climate-related activities. This is an increase of 
$53.3 million over the FY08 enacted level.

Q8c.  By contrast, how much money goes toward the research of carbon 
dioxide effects?

A8c. In FY 2007, NOAA spent approximately $20 million on carbon dioxide 
research as part of its climate related activities, and it expects to 
spend approximately the same amount in FY 2008. This amount includes 
several activities and projects that are most directly related to 
carbon dioxide research, such as ocean carbon monitoring, the Global 
Carbon Cycle program, and climate research done at the Global 
Monitoring Division of the Earth System Research Laboratory. It is 
important to note that the study of carbon dioxide effects is a 
fundamental part of NOAA's climate observations, research and modeling, 
and there are additional carbon dioxide related activities that are 
part of a larger project or program where the dollars specifically 
aligned with only carbon cycle research cannot be as easily quantified.

Q8d.  What are the relative concentrations of water vapor and carbon 
dioxide in our atmosphere?

A8d. By quantity, there is much more water vapor than carbon dioxide in 
the atmosphere. Water vapor varies from trace amounts in extremely cold 
and dry air to about four percent in extremely warm and humid air. The 
average amount of water vapor in the lowest part of the atmosphere 
averaged for all locations is between two and three percent. In the 
upper troposphere and the lower stratosphere, the amount of water vapor 
is much less. Carbon dioxide levels are near 0.04 percent everywhere in 
the atmosphere. That means there is more than 60 times as much water 
vapor in the atmosphere than carbon dioxide in average conditions. Both 
water vapor and Carbon dioxide are greenhouse gases. They both trap 
outgoing long wave (infrared) radiation between the Earth and the 
atmosphere. This has an effect of keeping temperatures warmer than they 
otherwise would be. It should be noted, however, that increased 
concentrations of water vapor and carbon dioxide alone do not create 
proportionate increases in warming, as the relative effectiveness of 
each greenhouse gas is dependent on more than just general 
concentration in the atmosphere.

Questions submitted by Chairman David Wu and Representative Darlene 
                    Hooley

Q1.  States, Tribes and local communities are supposed to receive 27 
percent of funds from the Tsunami Warning and Education Act (Public Law 
109-464) for the National Tsunami Hazard Mitigation Program. Please 
provide a state-by-state breakdown of all funds that went to these 
entities for Fiscal Years 2006, 2007, 2008, and Fiscal Year 2009 based 
on the President's budget request.

A1. The Tsunami Warning and Education Act (TWEA; Public Law 109-464) 
for the National Tsunami Hazard Mitigation Program states that 27 
percent of funds appropriated under this program are to go to the 
National Tsunami Hazard Mitigation program (NTHMP), not necessarily to 
the states, tribes, and local communities. TWEA defines the components 
of the NTHMP to include:

        1)  Inundation mapping and models for hazard assessment

        2)  Community outreach and education programs to ensure 
        community readiness

        3)  Tsunami preparedness and mitigation programs

        4)  Promotion of adoption of tsunami warning and mitigation 
        measures

        5)  Periodic external review of the program.

    The NTHMP Coordination Committee was formed on April 2, 2008 to 
conduct the program as specified in Section 5 of P.L. 109-424. The 
committee is chaired by NOAA's National Weather Service. To fulfill its 
specific responsibilities identified by law, the Coordination Committee 
will:

        (1)  Recommend how funds appropriated for carrying out the 
        program under [Section 5] will be allocated;

        (2)  Include representatives from Federal, State, local and 
        tribal governments;

        (3)  Provide recommendations to the National Weather Service on 
        how to improve the TsunamiReady program, particularly on ways 
        to make communities more tsunami resilient through the use of 
        inundation maps and other mitigation practices; and

        (4)  Ensure that all components of the program are integrated 
        with ongoing hazard warning and risk management activities, 
        emergency response plans, and mitigation programs in affected 
        areas, including integrating information to assist in tsunami 
        evacuation route planning.

    Below is the requested state-by-state breakdown of all NTHMP 
funding provided to the states for FY 2006 and FY 2007. In FY 2006, 
NOAA was directed in the conference report for the FY 2006 
Appropriation to fund approximately $500K each for Tsunami sirens for 
the states of Washington and Oregon. This $1.0 million addition is not 
reflected in the chart below. Funding distribution for FY 2008 is 
planned as indicated below. The FY 2009 President's Budget NTHMP Spend 
Plan by Agency is still being determined by the NTHMP Partners. In 
addition to the proposed FY 2008 allocation to the States, as much as 
$1.0 million of WARN Act grant funding could be used to support outdoor 
(Tsunami) alerting technologies for the four Western States 
(California, Washington. Oregon, and Alaska). These grants ($250K each) 
are not reflected in the chart below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q2.  NOAA has included programs such as the International Tsunami 
Information Center, the NESDIS/National Geodetic Data Center and the 
NOAA PMEL Inundation Mapping and Modeling Program as funding that 
counts towards the 27 percent funding that is required to go towards 
the National Tsunami Hazard Mitigation Program. What justification did 
NOAA use to include these programs? Please provide a justification for 
each program. What dollar amount from each of these programs goes to 
states, tribes and local communities that would count as ``community 
based'' programs as expressed in Public Law 109-464 Sec. 5(a)?

A2. As indicated in the previous response above NOAA disagrees that 
States. Tribes, and local communities are supposed to receive 27 
percent of funds from the Tsunami Warning and Education Act (Public Law 
109-464) for the National Tsunami Hazard Mitigation Program (NTHMP). 
Public Law 109-464 defines the components of the NTHMP to include 
inundation mapping and models for hazard assessment, community outreach 
and education programs to ensure community readiness, tsunami 
preparedness and mitigation programs, promoting the adoption of tsunami 
warning and mitigation measures, and providing periodic external review 
of the program.
    NOAA believes this is a national program that includes 
participation with the States. In FY08 NOAA is meeting this 27 percent 
through the following components. Attached is a spreadsheet that 
reflects NOAA's FY 2008 allocation for its Tsunami Program as well as 
the projected FY 2009 Tsunami spend plan based on the FY 2009 
President's Budget Request. This updated spend plan was provided to the 
Oregon Congressional delegation staff on March 5, 2008.

Tsunami Hazard Mitigation Program Components: (27 percent Mandate)

        <bullet>  State Funding under the NTHMP ($2.376 million): 
        Historical program activity with an emphasis on Tsunami Hazard 
        Mitigation (community preparedness and education/outreach) 
        grants to States. Projected FY 2009 spend plan allocation 
        reflects $3,OOOK funding supplement from planned Spectrum 
        Auction proceeds to accelerate community-based tsunami 
        mitigation programs.

        <bullet>  NOAA TsunamiReadyProgram ($750.2K): Funds accelerated 
        NOAA effort to expand recognition of at-risk coastal 
        communities as ``Tsunami Ready.'' Of the $750.2K allocated for 
        NOAA TsunamiReady in FY 2008, the majority (65 percent) will be 
        awarded to the States/local communities to aid them in becoming 
        TsunamiReady. FY 2009 spend plan of $1,500K funding supplement 
        from projected Spectrum Auction proceeds to accelerate NOAA's 
        Tsunami Ready programs (goal: triple number of NOAA 
        TsunamiReady communities added per year (from 10/year to 30/
        year).

        <bullet>  Tsunami Warnings & Earthquake Observations for Alaska 
        (TWEAK): Funds ($321.5K) State of Alaska Tsunami Ready Program 
        Support through a grant to the University of Alaska at 
        Fairbanks.

        <bullet>  Expand International Tsunami Information Center 
        (ITIC) (Labor: two FTEs): Funds two additional FTE's for an 
        expanded ITIC Tsunami outreach and education efforts. The 
        purpose of the ITIC is to provide Tsunami Hazard information to 
        the international community including all member states in the 
        U.S. supported Pacific basin Tsunami Warning system.

        <bullet>  PTWC-ATWC Salaries: Hazard Mitigation Warning 
        Coordination (two FTEs): Funds ($300.OK) for both NOAA's 
        Tsunami Warning Centers (located in Honolulu, HI and Palmer, 
        AK) which now have approximately 15 FTEs each. Approximately 
        one FTE ($150K) is spent on supporting NOAA's Tsunami Hazard 
        Mitigation/Community outreach education efforts, with the focus 
        on the State of Hawaii and the four Western U.S. States 
        (Alaska, Washington, Oregon and California).

        <bullet>  National Environmental Data and Information Service 
        (NESDIS)/National Geophysical Data Center (NGDC)--Data Archive: 
        Funds ($275.5K) NOAA's Tsunami Historical data Archive. Key 
        component of NOAA's inundation mapping, modeling, and forecast 
        effort (funds baseline Tsunami and bathymetry data).

        <bullet>  NOAA/Pacific Marine Environmental Laboratory (PMEL)--
        Inundation Mapping & Modeling Program ($2 million): Accelerates 
        NOAA's National inundation mapping and modeling effort. Direct 
        support the Tsunami Hazard Mitigation Program since Tsunami 
        Hazard assessment is paramount to a successful Hazard 
        Mitigation effort. Initial effort is focused on developing high 
        resolution inundation mapping and forecast models for 75 high 
        risk locations. FY 2009 spend plan reflects an additional 
        $3,OOOK funding supplement from projected Spectrum Auction 
        proceeds to accelerate NOAA's inundation mapping and modeling 
        effort to complete 75 (nationwide) forecast models by 2010 
        versus 2013.

        <bullet>  NWS Base Funds: Coastal Weather Forecast Office 
        Warning Coordination Meteorologists (WCMs) (TsunamiReady): NWS 
        Base funds (Local Warnings and Forecast budget line) of 
        approximately $521K associated with WCMs at 34 NWS coastal 
        Weather Forecast Offices (WFOs) in support of NOAA's Tsunami 
        program. These WCMs are NOAA's (on the ground) direct focal 
        point with local at risk communities. There primary effort is 
        to educate these communities as to Tsunami Hazard Mitigation 
        Programs (primary focus NOAA's Tsunami Warning Program). The 
        Pacific Region has two coastal WCMs who spend approximately 20 
        percent of their time on this effort. Alaska Region has three 
        WCMs at 15 percent: Western Region has seven coastal WCMs at 20 
        percent: Southern Region has 13 coastal WCMs at seven percent: 
        Eastern Region has nine coastal WCMs at five percent.

        <bullet>  International Tsunami Information Center (ITIC) Base 
        Funds: Funds provided to the ITIC prior to the December 2004 
        Indian Ocean event. FY 2008 Base funds total ($564.1K). Funded 
        Linder the NWS Local Warnings and Forecasts PPA. The purpose of 
        the ITIC is to provide Tsunami Hazard information to the 
        international community including all member states in the U.S. 
        supported Pacific basin Tsunami Warning system.

        <bullet>  WARN ACT Grants for Outdoor Alerting Technologies: Up 
        to $1.0 million of WARN Act grant funding could be used to 
        support outdoor (Tsunami) alerting technologies for the four 
        Western States (California. Washington, Oregon, and Alaska). 
        This funding is only available in FY 2008.

                                   

</pre></body></html>
